<html>
<title> - EXAMINATION OF THE FOREST PLAN REVISION PROCESS IN REGION 1</title>
<body><pre>[Senate Hearing 109-705]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-705
 
      EXAMINATION OF THE FOREST PLAN REVISION PROCESS IN REGION 1

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     DECEMBER 2, 2005--MISSOULA, MT

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
25-118                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                               __________

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                     CONRAD BURNS, Montana Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   BARBARA A. MIKULSKI, Maryland
WAYNE ALLARD, Colorado               HERB KOHL, Wisconsin
                           Professional Staff
                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                              Ryan Thomas
                              Rebecca Benn
                       Peter Kiefhaber (Minority)
                       Rachael Taylor (Minority)
                        Scott Dalzell (Minority)

                         Administrative Support

                             Michele Gordon


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Conrad Burns........................     1
Statement of Dale Bosworth, Chief, U.S. Forest Service, 
  Department of Agriculture......................................     4
    Prepared statement...........................................     6
Statement of Charles E. Keegan, director of Forest Industry and 
  Manufacturing Research, Bureau of Business and Economic 
  Research, School of Business Administration, University of 
  Montana........................................................     9
    Prepared statment............................................    12
Statement of Sherman Anderson, president, Sun Mountain Lumber 
  Com- 
  pany...........................................................    13
    Prepared statement...........................................    15
Statement of John Gatchell, conservation director, Montana 
  Wilderness Association.........................................    17
    Prepared statement...........................................    20
Statement of Russ Ehnes, president, Montana Trail Vehicle Riders 
  Association, representing the National Off-Highway Vehicle 
  Council........................................................    22
    Prepared statement...........................................    26
Statement of Mike Hillis, senior wildlife biologist, Econsystems 
  Research Group.................................................    28
    Prepared statement...........................................    30


      EXAMINATION OF THE FOREST PLAN REVISION PROCESS IN REGION 1

                              ----------                              


                        FRIDAY, DECEMBER 2, 2005

                               U.S. Senate,
     Subcommittee on Interior and Related Agencies,
                               Committee on Appropriations,
                                                      Missoula, MT.
    The subcommittee met at 10:30 a.m., at the University of 
Montana, College of Technology, 909 South Avenue West, 
Missoula, MT, Hon. Conrad Burns (chairman) presiding.
    Present: Senator Burns.


               OPENING STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. We'll get things all settled down here. It's 
10:30 in the morning, and that's the witching hour. We like to 
start on time, and then we like to move out on time.
    Thank you very much for coming. I want to thank the 
witnesses for coming this morning to testify before this panel. 
We had a couple of colleagues of mine that were going to come 
out, and they took a look at the weather and one of them 
cancelled a week ago and the other one cancelled this pretty 
quickly. I guess they're not as tough as us in Montana.
    They took--I can't imagine what it would be like in 
Washington, DC, if we had these kind of conditions. We live in 
an area back there that they'll cancel school on a forecast. It 
doesn't have to be doing anything.
    So, but nonetheless, we will get on. But I will tell you 
that the record will be reviewed by everybody on the committee. 
This is an oversight hearing of appropriations, and we have 
several of the stakeholders here as we are looking at the 
subject of Forest Planning in Region 1 of the Forest Service.
    The Chief of the Forest Service is with us here today, Dale 
Bosworth, right down in center field, and we appreciate you 
being here. We have Charles Keegan from the University of 
Montana; Sherman Anderson, of course, president of Sun Mountain 
Lumber Company; John Gatchell, conservation director from the 
Montana Wilderness Association; John, thanks for coming today. 
I know you've got another event going on in Billings, and so I 
appreciate you making the effort of being here today.
    Russ Ehnes, executive director of the National Off-Highway 
Vehicle Conservation Council and Mike Hillis, wildlife 
biologist for Ecosystems Research Group. We appreciate all of 
the witnesses being here today.
    The National Forest Management Act requires that each 
forest within the National Forest System revise its forest 
plans every 15 years. The plans guide how the various parts of 
each forest will be managed. In Montana, the Forest Service is 
currently working, or will commence in 2006, five different 
forest plans on the Beaverhead-Deerlodge, on the Flathead, 
Lolo, Bitterroot and Kootenai National Forests. The combined 
area of these forests is over 11.1 million acres and, the 
management decisions made in these plans and revisions are all 
critical to us who live here in the State of Montana.
    As the chairman of the Appropriations subcommittee that 
controls the purse strings of the Forest Service, I have 
criticized the forest planning process in the past as being 
sometimes overly complex and expensive. Currently, the Forest 
Service spends 6 to 7 years and several million dollars by 
providing these plans every 15 years.
    So I'm pleased the Forest Service recently issued new 
planning rules that are designed to make the planning process 
faster and less expensive. With the exception of the 
Beaverhead-Deerlodge, the remaining forests in Region 1 will be 
revised under the new rules. In my view, making this process 
more efficient means that the excessive amounts that were being 
spent on planning can now be spent on reducing our hazardous 
fuels, treating our acres for invasive weeds and addressing the 
bug infested timber stands that are now common throughout the 
West. It is also important that adequate public involvement is 
maintained in the revision process, and I will keep a watchful 
eye on that to ensure that this happens.
    While I'm pleased the Forest Service is trying to become 
more efficient in its planning process, I have several concerns 
about this process and how it moves forward. Unlike other 
Federal management agencies, the Forest Service has a multiple-
use mandate, and it's not clear to me that the Agency is 
following this mandate in its recent work on forest plans here 
in Montana.
    For example, in the draft environmental impact statement 
for the Beaverhead-Deerlodge the Agency's preferred alternative 
would reduce the allowable sales quantity of timber from 40 
million board feet to 9 million, a 78 percent reduction; 
increase in the number of wilderness acres from 174,000 to 
249,000, a 43 percent increase, and impose many new 
restrictions on public access, particularly motorized vehicles 
like ATVs and snowmobiles.
    Now, these numbers may be justified, and if they are, we'd 
like justification for those numbers. That's the only thing 
that we're questioning here is the justification for the 
numbers. So I find the proposals troubling if we don't have 
something or some way to backup those numbers and give us good, 
solid reasons why they should come out a lot different when 
they first went in.
    I firmly believe that without a sufficient timber industry 
infrastructure in the State, we harm our State. We have to 
maintain a market place for wood fiber. We'll not be able to 
address the forest health crisis in our Nation's forests if we 
don't have an infrastructure.
    I would tell you that in the current budget climate we have 
to rely on Government to pay the entire cost of cleaning up the 
national forest. Or, should we have another way to do this and 
do it in an environmentally safe way, which provides jobs and 
is also healthy to rural communities?
    I'm also concerned about additional wilderness 
recommendations. It's in the Beaverhead Plan, and I will tell 
you why. Whenever those recommendations are made, the Forest 
Service has a habit of managing these acres as wilderness, so 
we get de facto wilderness without Congress taking any action 
at all.
    These designations limit the ability for many folks to 
enjoy the areas in the forests. Not everyone has the physical 
capability to access these areas without the help of motorized 
vehicles. It also limits the agency's ability to fight fires in 
these areas because motorized firefighting equipment is not 
allowed in those areas.
    So it's my intention to explore these and other issues here 
today, get it on record and start the dialog as we complete 
these plans. They should be consistent on every forest, and 
there should be a standard operating system on how we make 
decisions with regard to our land management.
    In closing, let me also add that I know the issues that 
we're discussing here are controversial and some of them are 
very emotional, and we have a lot of people here that represent 
a wide range of views. That is good, and I expect the people to 
express those views. But this is a hearing, and a hearing is 
where we get information on record and that's how we, as policy 
makers, make our decisions.
    So let me also add that the record will be kept open until 
December 16, so any member or the public can submit comments 
and testimony that will be included in the record of this 
hearing today. Those comments may be submitted in my office 
here in Missoula. If you can provide these comments 
electronically as well as in written form that would be most 
appreciated.
    So I appreciate the folks coming out today. We haven't had 
a good old-fashion winter in Montana in a long time. People 
have got to understand that we live in a part of the country 
that if it don't winter, it doesn't summer. So we are finally, 
maybe, getting back to some normality here in this part of the 
country.
    So with that we will start off with our witnesses today. 
Now, witnesses, identify yourselves, because we have a court 
reporter over here, and he has a hard time sometimes 
identifying voices. So you always want to say who you are and 
also get your microphones into place so everybody can hear. 
We're going to start off with Dale Bosworth, who is Chief of 
the U.S. Forest Service.
    Let me say up-front that we've worked a lot with the Forest 
Service and Dale and his office in Washington, DC, and under 
very difficult circumstances. They have to make some very 
difficult decisions. But nonetheless, Dale has been one Chief 
that I've really enjoyed working with because some way or 
another we cut through some of the red tape and solve some 
problems that should be solved.
    So, Chief Bosworth, thank you for coming today, and we look 
forward--if you would keep your testimony to about 7 minutes--
your full statement will be made part of the record and then we 
will have a little question and answer period, and we'll start 
a little dialog at the table and bring out some other issues. 
So, Chief, thank you for coming today.

STATEMENT OF DALE BOSWORTH, CHIEF, U.S. FOREST SERVICE, 
            DEPARTMENT OF AGRICULTURE

    Mr. Bosworth. Thank you, Mr. Chairman, and thank you for 
the opportunity to be here. It's always good to be back in 
Montana even if it's for a hearing. I really appreciate the 
opportunity to talk about forest planning, and the revisions 
here in Montana.
    A series of legislative initiatives, dating back to 1960, 
including the National Environmental Policy Act and the 
National Forest Management Act would recognize the complex 
nature of managing natural resources for the American people 
and the changes that occurred to manage supply and societal 
values over time.
    Forest and grassland plans identify the availability of 
lands and their suitability for resource management. The goal 
of this planning is sustainable use of natural resources as 
well as sustainable communities.
    Five western Montana national forests now are currently in 
the forest planning revision process. All the forests with the 
exception of the Beaverhead-Deerlodge are revising their plans 
using the new 2005 planning rule. The Beaverhead-Deerlodge 
continues this revision under the 1982 rule since it had 
already completed this draft plan, which was ready for public 
comment at the time the new rule was published.
    Region 1 is using a zone approach that recognizes the 
similar interests of communities within zones, along with their 
similar resources, ecosystems, and opportunities in order to 
spend planning dollars more efficiently.
    The present Montana planning zones are the Kootenai 
National Forest and the Idaho Panhandle National Forest, which 
has some land in Montana. The Western Montana Zone, which 
includes the Flathead, the Lolo and the Bitterroot, and then 
the Beaverhead-Deerlodge is a separate zone on its own.
    We began land management planning under the provisions of 
the National Forest Management Act and the 1982 Planning Rule. 
We believed at that time that the early forest plans would 
provide the strategic framework for management of national 
forests.
    We also believed that the plans had the necessary analysis 
and disclosure to implement forest management projects and 
activities. Through a series of legal challenges we learned 
that individual projects would need additional, extensive site-
specific analysis.
    New legislation regulations and case law changed the 
operating environment over time and those required changes to 
forest plans in order to bring proposed activities into 
compliance. The complexity of navigating through the process 
became very lengthy. It became very difficult. I've referred to 
it as the ``process predicament,'' and the Forest Service faced 
many public challenges as we attempted to fit our management 
proposals into plans that were quickly becoming out of date.
    Several attempts were made over the past decade to develop 
a new planning rule that would help better define the role of 
forest planning or streamline the process for responding to 
change and shorten timeframes. The current planning rule was 
adopted in January.
    The new rules require the Forest Service to engage the 
public in a cooperative manner during the revision process and 
continue that approach throughout the planning revision. The 
old planning process required analysis of several alternatives 
that displayed a range of management themes and levels of 
resource outputs.
    Various interest groups would then align themselves with 
whichever alternative most reflected their concerns, and that 
left the Forest Service in the position then of trying to seek 
a compromise solution among all those variety of interest 
groups.
    The collaborative approach does not focus on multiple 
alternative development, but rather on bringing communities 
together up front in the process to work together to find 
common themes and to find common interests.
    Both communities of place and communities of interest play 
key roles in finding areas of agreement. Competing interests 
and some level of disagreement, we'll always have and they will 
continue as we move through the planning revision process.
    I believe the level of polarization over our new process 
will be less than we experienced in the first round of forest 
planning. It's also important to understand that this public 
participation process requires everyone's energy, and it 
requires lots of patience.
    Parties need to be at the table in order to have their 
concerns addressed, and since there are no alternatives 
developed under the new rule, the interests may have some 
difficulty in recognizing how their interests are addressed 
unless they remain engaged in the process.
    The new generation of plans will allow adaptive management 
and changes based on consistent monitoring and evaluation. This 
continuous and proven methodology will be applied using 
processes that are internationally recognized.
    The Forest Service will develop and implement environmental 
management systems (EMS) that require regular, cyclical 
planning, implementation, monitoring and review. The Northern 
Region, I think, is on the cutting edge of revising plans under 
the 2005 planning rule.
    I'm really proud of the regional forester, Gail Kimbell, 
and the Region 1 employees as well as the public for embracing 
cooperative participation as evidenced by the involvement of 
resource advisory committees, of forest stewardship projects 
and other community interests. This concept of collaboration is 
more than just words on paper. It defines a new spirit of 
partnership of Forest Service and the communities that we 
serve.
    Forest and Grassland plans revised under the 2005 rule will 
be strategic documents, and they'll focus on how the agency, 
working in concert with the public and other Government 
agencies, will manage the landscape to reach desired future 
conditions that are deemed to be beneficial to the 
socioeconomic and ecological attributes of the area, which is a 
part of communities and not apart from them. Instead of rules 
and standards focused on prohibition, the new approach centers 
on identifying and achieving desired future conditions.
    Public scoping has identified many issues that will need 
consideration during the final revision process. While each 
forest and grassland has issues that are unique to that unit, 
there are issues that are common to all planning zones.
    Three major key issues that appear throughout Montana 
national forests are: Lands generally suitable for timber 
harvest. Another one is lands proposed for wilderness 
designation, and the third one is lands generally suitable for 
motorized or nonmotorized use. These issues are going to 
continue to be among the most difficult challenges to 
developing collaborative solutions.
    A highly debated and often misunderstood component of 
forest plans are the lands generally suitable for timber 
harvest. In the first round of planning, these were one 
category of lands identified solely with an eye to potential 
timber harvest.
    This led to expectations that were never realized. We have 
legal, resource, socioeconomic and organizational factors that 
interacted to reduce the outputs. A primary goal for Region 1 
under the new rule is to identify lands suitable for timber 
harvest, working with communities that result in expectations 
that can be met, that can be met reliably and are still 
ecologically sound.
    The 2005 planning rule identifies two types of land uses 
for which the timber removal is suitable: That is lands 
generally suitable for timber production and lands generally 
suitable for timber harvest. There's a difference between those 
two.
    The Forest Service has long recognized that the timber 
harvest is a viable tool to accomplish several management 
objects. Forest inventories have identified sites where 
silvicultural prescriptions can be applied to contribute to the 
demand for wood fiber while contributing revenue to the 
national treasury.
    Forest plans are going to continue to examine and identify 
lands to be recommended to Congress for inclusion in the 
National Wilderness Preservation System. Communities and the 
public working collaboratively with the Forest Service will 
have the opportunity to participate in the identification of 
lands that the agency will recommend for wilderness 
designation.
    Motorized versus nonmotorized travel and all the associated 
implications are undoubtedly among the most controversial 
challenges facing the Forest Service. I want to clarify what 
will be determined by forest plans and what will be determined 
outside the process.
    The revised plans are strategic and will only identify 
lands that are suitable for motorized use and lands that are 
generally suitable for nonmotorized use. Forest plans will not 
make site-specific motorized and nonmotorized route decisions. 
The final travel management rule will guide forest and 
grasslands and decisions that designate specific routes. 
They'll be using a separate, public collaborative approach.


                           PREPARED STATEMENT


    So, Mr. Chairman, the Forest Service is committed to an 
open and participatory forest plan revision process, and local 
communities will have a say in those decisions that directly 
impact them. So that concludes my statement, and I'll be happy 
to answer any questions. Thank you.
    [The statement follows:]

                  Prepared Statement of Dale Bosworth

    Mr. Chairman, thank you for inviting me to talk with you today 
about the status of Forest Plan Revisions in the Northern Region 1 
which includes all of Montana, Northern Idaho, North Dakota and 
portions of South Dakota. I am accompanied today by Northern Region 
Forester, Gail Kimbell.
    A series of legislative initiatives, dating back to 1960, has given 
us the Multiple- Use Sustained Yield-Act, the National Environmental 
Policy Act, the Forest and Rangelands Renewable Resources Planning Act, 
and the National Forest Management Act. These and other laws recognize 
the complex nature of managing renewable resources for the American 
people and the changes that occur in demand and supply over time. 
Forest and grassland plans--developed with the assistance of the public 
and interested agencies and groups--identify the availability of lands 
and their suitability for resource management. The goal of this 
planning is sustainable use of natural resources and sustainable 
communities.
    Five western Montana National Forests, as well as the three Idaho 
National Forests in Region 1, are currently in the revision process. 
All of the forests, with the exception of the Beaverhead-Deerlodge, are 
revising their plans under the 2005 rule. The Beaverhead-Deerlodge 
continued its revision under the 1982 rule since it had already 
completed its draft plan which was ready for public comment at the time 
the new rule was published. Region 1 has decided to accomplish the 
revision process by organizing the work in planning zones. This 
approach has been employed to recognize the similar interests of 
communities within the zone, similar resources and ecosystems, and 
opportunities to spend planning dollars efficiently.
    The current planning zones are:
    Clearwater--Nezperce Zone (Idaho)
    Kootenai--Idaho Panhandle Zone (Montana/Idaho)
    Western Montana Zone (Flathead, Lolo and Bitterroot NFs/Montana 
(includes a small portion of Idaho))
    Beaverhead-Deerlodge (Montana)
    We began land management planning under the provisions of the 
National Forest Management act and the 1982 Planning Rule. We were 
optimistic that the early forest plans would provide a strategic 
framework for management of the national forests. We also believed the 
plans had the necessary analysis and disclosure to implement forest 
management projects and activities. A series of legal challenges taught 
us that individual projects would need additional, extensive, site-
specific analysis. Sometimes this added analysis developed new 
information that was not consistent with Forest Plan standards and 
guidelines, resulting in plan amendments. Furthermore, new legislation, 
regulations, and case law changed the operating environment over time, 
requiring additional changes to Forest Plans in order to bring proposed 
activities into compliance. The complexity of navigating through the 
process became very difficult--I've referred to it as process 
predicament--and the Forest Service faced many public challenges as we 
attempted to ``fit'' management proposals into plans that were quickly 
becoming out of date.
    Several attempts were made over the past decade to develop a new 
planning rule that would help better define the role of the Forest 
Plans, streamline the process for responding to change, and shorten 
timeframes. The current planning rule was adopted in January of this 
year. The Forest Service is pleased that we can move forward with our 
revision processes. We are optimistic that the new rule will provide 
for a more efficient process and allow the agency to respond to change 
in a way that benefits forest and grassland management and communities.
    The new planning rule provides for broad and continual public 
participation during the planning process and throughout the plans' 
implementation. The new rule requires the Forest Service to engage the 
public in a ``collaborative'' manner during the revision process and 
continue that approach throughout plan revision. The old planning 
process required analysis of several alternatives that displayed a 
range of management themes and levels of resource outputs. Various 
interest groups then aligned with whichever alternative most reflected 
their concerns. This left the Forest Service in the unenviable position 
of seeking a compromise solution among these interest groups.
    The collaborative approach does not focus on multiple alternative 
development, but rather on bringing communities together ``up front'' 
in the process to work together to find common themes and to find 
common interests. It is a tangible expression of the kind of citizen 
involvement encouraged by so many at the recent White House Conference 
on Cooperative Conservation. Both communities of place and interest 
play key roles in finding areas of agreement. Competing interests and 
some level of disagreement will continue as we move through the plan 
revision process; however, I believe the level of polarization will be 
less than we experienced in the first round of forest planning. It is 
also important to understand that this public participation process 
requires everyone's energy and patience. Parties need to be at the 
table in order to have their input addressed. Since there are no 
alternatives developed under the new rule, interests may have 
difficulty recognizing how their interests are addressed unless they 
remain engaged in the process.
    The 2005 rule allows forests, as they revise plans, to ensure they 
remain current and congruent with changes in the physical and social 
environment. New generation plans will allow ``adaptive management'' 
where they are consistently monitored, evaluated and updated. This 
continuous improvement methodology will be applied using processes that 
are internationally recognized. The Forest Service will develop and 
implement Environmental Management Systems (EMS) using the ISO 14001 
Standard. The EMS process requires regular cyclical planning, 
implementation, monitoring and review. This process relies on 
application of the best available science and certified audits.
    The Northern Region is on the cutting edge of revising plans under 
the 2005 planning rule. I am proud of Regional Forester Kimbell, Region 
1 employees, and the public for embracing collaborative participation 
as evidenced by the involvement of Resource Advisory Committees, Forest 
Stewardship Projects, and other community interests. This concept of 
collaboration is more than just words on paper. It defines a new spirit 
of partnership of the Forest Service and the communities we serve.
    Forest and Grassland plans revised under the 2005 rule will be 
strategic documents and focus on how the agency, working in concert 
with the public and other government agencies, will manage the 
landscape to reach desired future condition deemed to be beneficial to 
the social, economic, and ecological attributes of the area--a part of 
communities, not apart from them. Instead of rules and standards 
focused on prohibitions, the new approach centers on identifying and 
achieving desired future conditions. The plans will be revised with 
collaborative public participation and the best available science and 
identify activities necessary to reach those desired conditions over 
time. This process will allow continual monitoring to incorporate new 
technology, current and future scientific findings, and public input.
    Public scoping has identified many issues that will need 
consideration during the collaborative process. While each forest and 
grassland has issues that are unique to that unit, there are issues 
common to all the planning zones, especially the forested zones. Three 
key issues that I want to address in this testimony are (1) lands 
generally suitable for timber harvest; (2) lands proposed for 
Wilderness designation; and (3) lands generally suitable for motorized 
and/or non-motorized use. These issues always generate controversy and 
will continue to be among the most difficult challenges to developing 
collaborative solutions.
    A highly debated and often misunderstood component of forest plans 
are ``lands generally suitable for timber harvest.'' In the first round 
of planning, these were one category of lands, identified solely with 
an eye to potential timber harvest. This lead to expectations that were 
never realized as legal, resource, socio-economic, and organizational 
factors interacted to reduce outputs. A primary goal for Region 1 under 
the new rule is to identify lands suitable for timber harvest, working 
with communities, that result in expectations that can be reliably met 
and are ecologically sound.
    The 2005 planning rule identifies two types of land uses for which 
timber removal is suitable, ``lands generally suitable for timber 
production'' and ``lands generally suitable for timber harvest''. The 
Forest Service has long recognized that timber harvest is a viable tool 
to accomplish several management objectives. Forest inventories have 
identified sites where silvicultural prescriptions can be applied to 
contribute to the national demand for wood fiber while contributing 
revenue to the national treasury. These lands, when harvested in an 
environmentally sound manner, are lands that will likely be identified 
as ``generally suitable for timber production.'' Other lands, where 
timber management is not the highest and best use, can still be 
harvested to help meet other multiple use objectives. Examples would be 
timber harvest that improves wildlife habitat, fire regime condition 
class and forest health can also produce timber products. In these 
areas timber harvest may be less economically efficient and would be 
incidental to other objectives. These lands would likely be identified 
as ``generally suitable for timber harvest.'' While the number of acres 
generally suitable for timber production may decrease in comparison to 
the old plans, the total acreage of lands generally suitable for timber 
production and timber harvest appear to be about the same. I want to 
emphasize that the collaborative process will determine which lands 
meet these objectives.
    Forest Plans will continue to examine and identify lands to be 
recommended to Congress for inclusion into the National Wilderness 
Preservation System. Communities and the public, working 
collaboratively with the Forest Service, will have the opportunity to 
participate in the identification of lands that the agency will 
recommend for Wilderness designation. Region 1 has already been working 
collaboratively with communities and Tribal Governments to identify 
lands that have wilderness characteristics that make them candidates 
for recommendations to Congress. Some plan revisions may recommend 
acres that are logical additions to existing Wilderness because of 
topographic boundaries, ecotypes, or other management considerations. 
Some will recommend new acres based on the land's suitability for 
wilderness designation. Other revisions may eliminate some areas that 
were previously recommended. Again, decisions will be made in a 
collaborative process with extensive community involvement. We will 
manage any lands recommended for Wilderness to protect wilderness 
values. These preliminary administrative recommendations will receive 
further review and possible modification by me, by the Secretary of 
Agriculture, or by the President. Congress has the authority to accept 
these recommendations when deliberating on wilderness designation.
    Motorized versus non-motorized travel, and all the associated 
implications, are undoubtedly among the most controversial challenges 
facing the Forest Service. I want to clarify what will be determined by 
forest plans and what will be determined outside the revision process. 
The revised plans are strategic and will only identify lands that are 
generally suitable for motorized use and lands that are generally 
suitable for non-motorized use. Forest Plans will not make site-
specific motorized and non-motorized route designations. The Final 
Travel Management Rule will guide forests and grasslands in decisions 
that designate specific routes, employing a separate public 
collaborative approach.
    Mr. Chairman, the Forest Service is committed to an open and 
participative forest plan revision process. Local communities will have 
a say in decisions that directly impact them. The public at large will 
also be part of the plan revision process. Again, I want to emphasize 
that collaboration does not have a specific beginning and ending. 
Instead, it is a continual process where the public works with the 
Forest Service to determine what benefits the land and people. 
Collaboration continues beyond plan revision and includes public 
participation in monitoring as well as audits to ensure we are moving 
toward the desired condition and examining the need for change. It 
won't always be neat and tidy, but it will always be the right thing to 
do. I am encouraged by how people in Idaho, Montana and the Dakotas are 
engaging in collaborative efforts. Tribal, State and Local Governments 
are working with federal agencies and the public on natural resource 
issues at unprecedented levels. I see approved revised plans not as a 
point of completion, but a starting point where community relationships 
will be the catalyst for land management decisions that have local and 
national acceptance. This concludes my statement, I am happy to answer 
questions.

    Senator Burns. Thank you very much, Chief. I appreciate 
that.
    Now we have Charles Keegan who is with the Bureau of 
Business and Economic Research of the University of Montana, 
and Professor Keegan, or Mr. Keegan, or Charlie, it's nice to 
see you.

STATEMENT OF CHARLES KEEGAN, DIRECTOR OF FOREST INDUSTRY AND MANUFACTURING 
RESEARCH, BUREAU OF BUSINESS AND ECONOMIC RESEARCH, SCHOOL OF BUSINESS 
ADMINISTRATION, UNIVERSITY OF MONTANA
    Mr. Keegan. Thank you, Senator. I answer to those and many 
other monikers as well. For the record, I'm Chuck Keegan, 
director of Forest Industry and Manufacturing Research in the 
Bureau of Business and Economic Research at the University of 
Montana and also a research professor from the School of 
Business Administration at the University the Montana.
    By way of some background information, my work for the past 
28 years has focused on the structure and operations of the 
forest products industry in Montana and the other western 
States. For the past 15 years I've worked extensively on the 
financial feasibility of implementing new forest management 
regimes to deal with ecosystem restoration and fire hazard 
reduction.
    This morning in my remarks dealing with the forest 
planning, I'd like to concentrate on the areas of economic 
activity, timber output and industry infrastructure. First of 
all, looking at economic activity, I want to look at employment 
and state that despite declines in Montana's forest products 
industry, it remains a substantial industry in the State 
directly employing some 9,000 to 10,000 people primarily in 
high-paying jobs with very good benefits.
    In addition to that direct employment, there are at least 
an equal number in related sectors, many of which also are 
high-paying jobs. As the Senator is well aware, these jobs are 
especially important in a relatively low-wage State like the 
State of Montana.
    A less obvious but important aspect of Montana's forest 
products industry is one that has been alluded to by the 
Senator and by the Chief of the Forest Service and that is to 
provide the wherewithal to manage forest lands in an 
ecologically and financially responsible manner.
    This wherewithal includes the workforce and sophisticated 
equipment needed to perform forest treatments in a cost-
effective manner found in Montana's logging industry and in the 
milling infrastructure to utilize and add value to timber 
harvested either as a commercial product or as a by-product of 
treatments.
    Before I get into some very little detail on the 
infrastructure, let me offer some general thoughts on timber 
product output from the national forest lands.
    Looking at inventory statistics it's clear that some 
national forest lands in Montana are very productive from a 
timber growing standpoint and also have other characteristics 
that warrant management for commercial timber production. This, 
in my opinion, should be recognized in the forest plans, and it 
sounds like from the remarks of the Chief that that will be 
recognized in the forest plans.
    Timber production should be identified as an expected 
output from those appropriate national forest lands, and 
estimates of timber harvest volumes from appropriate lands 
should be provided in forest plans.
    Having said this, however, I believe that the real 
opportunity to produce substantial timber volumes and in 
particular additional volumes of timber from national forest 
lands in Montana is as a by-product of properly done treatments 
aimed to deal with ecosystem and fire hazard problems which 
exist on literally millions of acres of forest land in Montana 
and the other western States.
    Now, a bit more about timber processing and the 
infrastructure in the state, which, as I indicated, is a key to 
efficiently performing many of these needed treatments. Despite 
the losses, Montana still has a substantial and diverse forest 
industry infrastructure in place. While individual timber 
processors and loggers have continued to make investments--and 
substantial investments as you will hear--unfortunately--I'm 
sure you will hear--unfortunately, Montana's timber processing 
capacity overall has been declining and declining precipitously 
over the past 15 years. Specifically, we have seen a loss in 
excess of 40 percent of the timber processing capacity in the 
State of Montana since the late 1980s from 1.5 billion board 
feet annually to just over 900 million board feet.
    Much of this decline--not to pick on my friends from the 
Forest Service--but much of this decline has been clearly due 
to the very large 70 plus percent decline in the national 
forest timber sales, timber product outputs, over that period.
    As we look to the future, it's clear from, at least our 
research, that further declines ranging from 5 to 20 percent 
and perhaps past 20 percent of current timber processing 
capacity are expected unless the national forests substantially 
increase the output of timber.
    The logging sector will also decline. I'm talking about the 
timber processing sector, but that would involve a decline in 
the logging sector as well as the milling residue processing 
sector and the use of wood fiber for fuel.
    Then looking to the future: Maintaining efficient milling 
infrastructure in proximity to national forests will have, I 
believe, substantial benefits, and some of them have been 
mentioned. With adequate industry infrastructure and timber the 
high-paying jobs in the forest products industry can be 
sustained, and based on some of our analysis even increased.
    The overall economic benefits, in addition to the jobs in 
the forest products industry, the overall economic benefits of 
improved forest ecosystem conditions, reduced fire hazard 
accruing from the ability to treat the forest can hardly be 
overstated and are so large that it's very difficult to put a 
value on those outputs. They include not only reduced 
firefighting costs but employment and incomes from other 
forest-based activities such as travel and tourism, not to 
mention the improvement in quality of life that all of us would 
enjoy if we had to deal with less smoke in Montana, 
periodically, for example.
    Finally, relating some of our research directly to the 
forest planning process and addressing the area that you 
raised, Senator, on consistency among the forest plans, I can 
talk about a few of them. One particular area in which we have 
worked with the Forest Service planners in U.S. Forest Service 
Region 1 and individual forest planners in other regions, we 
have supplied the agency with information on the capacity of 
the forest products industry to efficiently process timber of 
various sizes for the areas surrounding each of the national 
forests. This capacity information, I have been informed, is 
being used in the planning process to evaluate--I'll wrap up in 
just a second.
    Senator Burns. Turn that button off. I think it woke me up 
a little bit.
    Mr. Keegan. It confused me.
    Senator Burns. I think it confused the audience too.
    Mr. Keegan. The capacity information that we have developed 
and supplied to Forest Service planning, it is my 
understanding, is being used in the planning process to 
evaluate the kind and quantity of timber the industry could use 
if that timber were made available.
    I'm pleased to be able to do this and to have the forest 
using this kind of information. I think it will be very useful 
both in evaluating potential commercial timber sales as well as 
fuels and other ecosystem management treatments.
    As an added thought I encourage the forests to identify 
steps that they might take to maintain the necessary timber 
harvesting and processing infrastructure that enables both 
forest management as well as social and economic goals of the 
communities immediately affected by the forests.

                           PREPARED STATEMENT

    I want to thank you again for the opportunity to be here 
this morning and that concludes my remarks.
    [The statement follows:]

                Prepared Statement of Charles E. Keegan

    I am pleased to respond to Senator Burns' request for comments on 
the forest plan revision process and impacts on economic stability, 
public access, and commodity outputs. I will concentrate my remarks 
this morning on economic activity, timber output, and industry 
infrastructure.
    Despite declines in Montana's forest products industry, it remains 
a substantial industry in the state, directly employing 9,000-10,000 
people primarily in high paying jobs with very good benefits. In 
addition to the direct employment there are at least an equal number 
employed in related sectors many of which are also high paying jobs. 
These jobs are especially important in a relatively low wage state like 
Montana.
    Montana's forest products industry provides the resources to manage 
forestland in an ecologically and financially responsible manner. These 
resources include the work force and sophisticated equipment needed to 
perform silvicultural treatments in a cost effective manner, and the 
milling infrastructure to utilize and add value to timber harvested as 
a by-product of treatments. The industry's ability to continue to re-
invest in infrastructure is key to adequately treating the large 
acreages in Montana that suffer from forest health problems and 
unnaturally high fire hazard.
    My testimony today will focus on infrastructure needs and losses in 
Montana's forest products industry and what continues to be an enormous 
missed opportunity. That missed opportunity is the very limited 
application of treatments to the literally millions of acres of forest 
land in Montana and the other western states needed to restore and 
sustain desirable forest ecosystem conditions. Associated with this 
ecological treatment need there is a very substantial economic 
opportunity, which our research indicates could result in positive 
revenue flow to landowners, increased treatment activity, and 
employment opportunities. If this opportunity is not realized we will 
see further degraded forest conditions and continued declines in the 
forest products industry.

                         TIMBER PRODUCT OUTPUT

    Looking at inventory statistics, it is clear that national forest 
lands in Montana are very productive from a timber growing standpoint 
and have other characteristics that warrant management for 
``commercial'' timber production. This should be recognized in the 
forest plans, timber production should be identified as an expected 
output from appropriate national forest lands, and estimates of timber 
harvest volumes from appropriate lands should be provided in forest 
plans.
    Having said this, I believe the real opportunity to produce 
substantial additional volumes of timber products from national forest 
lands in Montana is as a by-product of treatments aimed to deal with 
ecosystem and fire hazard problems, and perhaps more broadly to mimic 
natural processes to avoid future problems.

               MONTANA'S TIMBER-PROCESSING INFRASTRUCTURE

    Montana has an industry infrastructure in place to harvest, 
process, and actually return revenue to landowners when wood is removed 
from forests as a by-product of restoration and fire hazard reduction 
treatments. Additional investment is needed by industry to stay 
competitive and more efficiently process the timber produced from these 
treatments. Unfortunately, while individual timber processors and 
loggers have continued to make investments, Montana's timber-processing 
capacity has been declining over the past fifteen years because of 
declining national forest timber sales.
    Timber processing capacity refers to the volume of timber that 
could be used by mills that operate entirely on timber in round form. 
Recent analyses conducted by our organization indicate that:
  --The number of medium and large mills in Montana has dropped in half 
        from over 30 in the late 1980s to 15 today.
  --There has been a more than 40 percent decline in capacity to 
        process timber since the late 1980s from about 1.5 billion 
        board feet annually to just over 900 million board feet.
  --Much of this decline has been due to the very large declines in 
        national forest timber sale volume.
    Further declines--ranging from 5 to 20 percent of current timber 
processing capacity--are expected unless national forests substantially 
increase timber offerings.
    I also need to mention users of mill residuals. Residue-utilizing 
facilities in Montana range from very large plants, a pulp and paper 
mill, to substantially smaller users producing decorative bark, fuel 
pellets, or using wood as fuel. A number of these facilities can and do 
use a mix of forest waste wood and mill residuals.
    Because of declines in the sawmill sector the residue sector is 
facing a potential shortfall of wood fiber. At worst the shortfall 
could lead to one or more large residue facilities downsizing or 
closing, and at the least competition for wood residue would increase. 
Dramatically increased competition for a diminishing supply of residue 
could leave some users, such as new energy facilities, paying much more 
for their fuel than expected.
                              conclusions
    Maintaining efficient milling infrastructure in proximity to 
national forests will have substantial benefits. With an adequate 
infrastructure, high paying jobs in the forest products industry can be 
sustained and even increased--a particular benefit in many rural 
western areas. The overall economic benefits of improved forest 
ecosystem conditions and reduced fire hazard accruing from the ability 
to treat the forest can hardly be overstated. They include not only 
reduced fire fighting costs but employment and income from other forest 
based activities such as travel and tourism.
    At the request of the Forest Service Region 1 and individual forest 
planners in other regions, we have supplied the agency with information 
on capacity and capability of the forest products industry to 
efficiently process timber of various sizes. This information is being 
used in the planning process to evaluate the kind and quantity of 
timber the industry could use if made available by the forest(s). I 
encourage the forests to identify steps they can take to maintain the 
timber harvesting and processing infrastructure that enables sound 
forest management as well as the social and economic goals of the 
communities immediately affected by the forests.
    Thank you for this opportunity to comment.

    Senator Burns. Thank you very much. We've followed your 
work a lot, and you've done some great work here at the 
University of Montana.
    Now we have Sherman Anderson, Sun Mountain Lumber, up in 
the Seeley/Swan country. We appreciate you, Sherman, for coming 
down today.

STATEMENT OF SHERMAN ANDERSON, PRESIDENT, SUN MOUNTAIN LUMBER COMPANY
    Mr. Anderson. Honorable, Senator Burns, my name is Sherman 
Anderson, and I live in Deer Lodge, Montana----
    Senator Burns. Deer Lodge----
    Mr. Anderson [continuing]. Located in----
    Senator Burns. Wolf Creek.
    Mr. Anderson. I'd like to thank you for taking the time out 
of your busy schedule to make this long journey to Missoula and 
give us this opportunity.
    I have worked in the timber industry all my life. My father 
was a small sawmill owner and a logger. About 30 years ago my 
father moved to Wyoming, and I remained at Deer Lodge to start 
my own business, Sun Mountain Logging. Two years ago we 
purchased the sawmill and finger jointing operations in Deer 
Lodge. At that time I could see the danger of the Deer Lodge 
plant becoming another closed facility as I have seen so many 
others before.
    Sun Mountain Lumber, as it is now called, produces 2 by 4 
and 2 by 6 studs. Our annual production capacity in the sawmill 
is 125 million board feet. Our finger jointing plant's--a value 
added facility--annual production capacity is about 100 million 
board feet. This is enough lumber to frame 20,000 American 
homes.
    The role of our company in the local economy is paramount. 
As one of the largest employers in the Butte/Deer Lodge/
Anaconda area, we provide liveable wages including total 
benefits capable of sustaining families and maintaining healthy 
lifestyles to our 290 employees. Our annual payrolls inject 
over $12 million into the local economy directly through our 
employee wages.
    As forestry professionals we as a company and as a viable 
industry are committed not only to responsible land stewardship 
but also to renewable and sustainable timber resource. This is 
a good business for the State of Montana. But as we continue to 
struggle to survive, we are reaching out longer distances, even 
into surrounding States to obtain the needed timber supply. 
Sadly, there are vast amounts of timber on Montana's national 
forests surrounding us that are dying or burning in 
catastrophic fires lying unused and going to waste.
    On the Beaverhead-Deerlodge forest, the forest that's in 
closest proximity to our facility, they had estimated 151,000 
acres of beetle kill in 2004. In the Butte District, less than 
60 miles away from us, 2004 estimated beetle kill was 55,000 
acres. Thus far only 2,100 acres have been proposed for some 
form of timber management out of the 55,000 acres. This is less 
than 3.9 percent of the estimated dead.
    If, or more likely when, this watershed burns, the 
estimated cost to the city of Butte to install an adequate 
water filtration system would be $15 to $20 million at today's 
cost.
    Now, in our downward trend it tells the story. Going back 
for 5 years, starting 2001, our volume under contract was 35 
percent with the U.S. Forest Service, and now in 2005 this has 
dwindled to 5 percent U.S. Forest Service, 95 percent from 
other sources.
    The Beaverhead-Deerlodge Forest should be providing 
sustainable and predictable levels of production and services. 
The level of timber offered from the Beaverhead-Deerlodge has 
steadily declined over the past decades.
    From an industry perspective, we see several solutions to 
the problems we are facing based on the current planning 
process we have been involved with in the Beaverhead-Deerlodge 
forest.
    No. 1, U.S. Forest Service needs to incorporate industry 
stakeholders in the planning efforts. Without properly defining 
or treating stakeholders in their planning process, the 
Beaverhead-Deerlodge Forest has created a DEIS riddled with 
shortcomings. The U.S. Forest Service needs to complete 
economic analysis, and this is the first step in doing so.
    No. 2, the U.S. Forest Service should provide 
scientifically defensible progressive management approaches. 
There appears to be very little consistency between forests on 
the use of the latest most defensible science as well as the 
many tools available to address these issues. For example, we 
encourage a more aggressive use of stewardship contracting to 
address multiple resource objectives.
    No. 3, avoiding the court systems. Region 1 alone has 360 
million feet tied up in litigation, with 80 million feet of 
this in our immediate working area. There must be a means 
developed through legislation to limit this, or if nothing 
else, at least limit the time it takes to resolve these 
challenges.
    No. 4, a creative approach to U.S. Forest Service budgeting 
needs to be developed. If they are to manage our forests, they 
must be adequately funded. The draft Beaverhead-Deerlodge 
forest plan and DEIS fails to publish an allowable saleable 
quantity, but instead, has produced estimated outputs based on 
past performance. They have cited predicted future budget 
constraints as their limitation to timber output. Stewardship 
contracts and other tools are not even considered by the 
forest, which would help alleviate budgeting issues.
    No. 5, accountability must be addressed. We continue to see 
some forests doing what they can to accomplish their goals, 
while others do little or nothing. Reducing the budget for 
nonperforming forests is not a good solution. It has a 
definitive negative effect and impact on all of us who use and 
depend on these forests.

                           PREPARED STATEMENT

    In summary, we are at a moment in history where we have a 
unique opportunity where timber harvesting can be utilized to 
help create a diversity and age class structure more 
representative of historic conditions. These conditions are 
considered models of ecological sustainability. Such an 
approach could reverse trends in timber supply and allow 
Montana mills to survive. Let industry be used to become a 
greater part of the solution needed to bring our national 
forests into a better managed condition. I thank you. I 
conclude my remarks and will be open for questions.
    [The statement follows:]

                 Prepared Statement of Sherman Anderson

    Honorable Senator Burns and Members of the Committee: My name is 
Sherm Anderson. I live in Deer Lodge, MT, located in Powell County. I 
would like to thank you for taking the time out of your busy schedules 
to make this long journey to Missoula. On behalf of the employees of 
Sun Mountain Lumber and their families, I thank you for this 
opportunity to provide testimony on the state of the national forest 
planning and the subsequent impact on our mill, community and local 
economy.
    I have worked in the timber industry-all my life. My father was a 
small sawmill owner and logger. I remember at a very young age working 
at the family sawmill or in the woods during summers and whenever 
school was out. About 30 years ago my father moved to Wyoming and I 
remained in Deer Lodge to start my own business, Sun Mountain Logging. 
There were numerous mills in operation back then and work was 
plentiful. We continued to expand the business. I say ``we'' because I 
have two sons and a son-in-law working in the business plus two 
grandsons who work when they are not in school.
    Two years ago when Louisiana-Pacific decided to divest themselves 
of the sawmills they owned, we purchased the sawmill and finger 
jointing operations in Deer Lodge. At that time I could see the danger 
of the Deer Lodge plant becoming yet another closed facility as I have 
seen so many others before. Sun Mountain Lumber, as it is now called, 
produces 24 and 26 studs. Our annual production capacity in the saw 
mill is 125 million board feet (mmbf). Our finger jointing plant, a 
value-added facility and remanufacturing plant's annual production 
capacity is another 100 million board feet. This is enough lumber to 
frame 20,000 average American homes. (National Association of Home 
Builders 2005) In Montana alone there were 2,047 single and 4,194 
single and multiple unit housing starts in 2004. (Economagic 2005) 
Clearly, our business provides not only in-state but serves as an 
export industry all over the United States, bringing outside money into 
the state of Montana. Indeed, lumber production is a cornerstone of the 
Montana economy. Ironically lumber production continues to decrease in 
our state as more and more production facilities close their doors for 
lack of timber supply.
    The role of our company in the local economy is paramount. As one 
of the largest employers in the Deer Lodge, Butte and Anaconda area, we 
provide livable wages including total benefits capable of sustaining 
families and maintaining healthy lifestyles to our 290 employees. Our 
annual payrolls inject over twelve million dollars into the local 
economy directly through our employee wages. Our payroll provides a 
catalyst to the local economy, having a ripple effect indirectly though 
local contractors and services, increasing the state and federal tax 
bases.
    As we compete in the international community, we are working on 
uneven ground. We are subjected to different environmental standards, 
being required to spend large amount of time and money in the planning 
processes and dealing with diminishing or erratic timber supplies, 
conditions which hurt our ability to compete.
    As a renewable resource, timber production is truly one of the most 
environmentally friendly natural resource industries. No other 
substitute for lumber framing in houses is as environmentally friendly 
or economically viable. In contrast, the use of metal framing in 
construction involves the extraction of a non-renewable resource and 
significant processing before it can become a useable product, 
resulting in a much higher environmental impact. As forestry 
professionals, we, as a company and as a viable industry, are committed 
not only to responsible land stewardship, but also to a renewable and 
sustainable timber resource. This is a good business for the state of 
Montana. But as we continue to struggle to survive, we are reaching out 
longer distances, even into surrounding states to obtain the needed 
timber supply. Sadly, there are vast amounts of timber on Montana's 
national forests surrounding us that are dying and/or burning in 
catastrophic fires, lying unused and going to waste. As an example, 
here are some statistics from the Beaverhead/Deerlodge National Forest, 
the forest which is in closest proximity to our facility:
    Areas affected by beetle kill only:
    2002--73,000 acres
    2003--72,000 acres
    2004--151,000 acres
    In the Butte District, less than 60 miles away from us, 2004 
estimated beetle kill was 54,900 acres. In 2005, that amount could 
easily have doubled. There have been only 1,622 acres of timber sold; 
of that, 1,574 acres are located in the Butte watershed. That sale was 
appealed but the Forest Service prevailed. It was then sold but was 
further appealed to the 9th Circuit Court, resulting in an injunction 
and halt to the timber harvest. The Butte District has another 530 
acres proposed for sale, probably in early 2006. Thus far, only 2,152 
acres have been proposed for some form of timber management out of 
54,900 acres estimated dead in 2004. This is only 3.9 percent of the 
estimated dead. If, or more likely, when this watershed burns, the 
estimated cost to the city of Butte to install an adequate water 
filtration system would be $15 to $20 million (at today's cost).
    Further statistics from our company I would like to share with you:
    Our percentage of U.S. Forest Service volume, including all forests 
under contract, in comparison to our total volumes under contract, 
going back 5 years:
    2001--35 percent USFS--65 percent Other
    2002--35 percent USFS--65 percent Other
    2003--29 percent USFS--71 percent Other
    2004--14 percent USFS--86 percent Other
    2005--5 percent USFS--95 percent Other
These downward trends tell the story. Our state and private lands 
cannot continue to support us at these levels. Our survival is 
dependant on our National Forests.
    We recently hired the Ecosystem Research Group to provide comments 
on our behalf concerning the Beaverhead/Deerlodge Draft Plan and Draft 
Environmental Impact Statement. Their comments outline a detailed, 
scientifically defensible approach to increasing timber supply while 
sustaining sensitive species habitats and managing close to historic 
landscape dynamics. As business owners and tax payers it is astonishing 
to us that we have to hire a third party to critique and analyze USFS 
planning.
    The BDNF should be providing sustainable and predictable levels of 
products and services. The level of timber offered from the Beaverhead/
Deerlodge has steadily declined over the past decade. Communities that 
lack industrial or economic diversity may be negatively affected by the 
proposed BDNF Plan. The full effects to these communities have not been 
analyzed or disclosed in the BDNF Draft Forest Plan. As a stakeholder 
with potentially large economic impacts, we should be treated with a 
much higher weight than the BDNF has provided in their planning 
efforts. From our standpoint the BDNF is exhibiting a denial of its 
potential impacts on local timber dependent communities and is assuming 
that if they ignore the problem, it will just go away.

                         RECOMMENDED SOLUTIONS

    From an industry perspective we see several solutions to the 
problems we are facing based on the current planning process we have 
been involved with on the BDNF.
    USFS to Incorporate Industry Stakeholder in Planning Efforts.--
Without properly defining or treating stakeholders in their planning 
process the BDNF has created a DEIS riddled with short-comings. The 
USFS needs to complete better economic analyses and this is the first 
step in doing so.
    USFS Provide Scientifically Defensible, Progressive Management 
Approaches.--There appears to be very little consistency between 
Forests on the use of the latest most defensible science as well as the 
many tools available to address these issues. For example, we encourage 
a more aggressive use of Stewardship Contracts to address multiple 
resource objectives.
    Avoiding the Court Systems.--Region 1 alone has 360.49 mmbf tied up 
in litigation, with 80.6 mmbf of this in our immediate working area. 
There must be a means developed through legislation to limit this or, 
if nothing else, at least the time it takes to resolve these 
challenges.
    Creative Approach to USFS Budgeting Needs to be Developed.--If they 
are to manage our forests, they must be adequately funded. The draft 
BDNF Forest Plan and DEIS fails to publish an allowable sale quantity 
(ASQ) but instead has produced estimated outputs based on past 
performance. They have cited predicted future budget constraints as 
their main limitation to timber output. Stewardship Contracts and other 
tools are not even considered by the Forest Service which would help 
alleviate budgeting issues.

                                SUMMARY

    We are at a moment in history where we have a unique opportunity 
where timber harvesting can be utilized to help create a diversity in 
age-class structure more representative of historic conditions. These 
conditions are considered models of ecological sustainability. Such an 
approach could reverse trends in timber supply and allow Montana mills 
to survive. Let Industry be used to become a greater part of the 
solution needed to bring our National Forests into a better-managed 
condition.

    Senator Burns. Thank you very much, Sherman. We appreciate 
that very much.
    Now we have John Gatchell, Montana Wilderness Association. 
John, thanks for coming today, and we know of your conflict, so 
thank you for coming.

STATEMENT OF JOHN GATCHELL, CONSERVATION DIRECTOR, MONTANA WILDERNESS 
ASSOCIATION
    Mr. Gatchell. For the record, my name is John Gatchell. I 
want to thank you, Senator Burns. I'm here to represent the 
7,000 members of the Montana Wilderness Association, which was 
founded 47 years ago by Montana hunters and conservationists to 
safeguard Montana's vanishing wilderness.
    Our members view Montana's wilderness as a public land 
trust that will always provide great hunting, fishing, camping 
under the stars and quiet mountain trails. Our western 
wildlands embody core American values: Freedom, self-reliance, 
family and tradition. Keeping this heritage intact takes 
commitment, and wilderness designation for deserving lands is a 
commitment that we can rely on and pass on to our kids.
    We're determined to work with friends and neighbors to 
achieve this objective, but we're willing to listen and work 
with others, take risks and help provide leadership to move our 
State forward. We do need to see that this path has rewards.
    Forest planning matters to all of us. The forest plan is a 
contract between the people who own and those who manage our 
national forests, and this contract should provide clarity and 
certainty for all who have a stake in public lands.
    In Montana different people seek different commitments in 
the forest plan contract, whether it's small mills, 
snowmobilers, hunters, communities or conservationists. But we 
want tangible commitments. We want to know where we stand today 
and what will remain tomorrow.
    Because the forest plan looks across very large and very 
diverse mountain landscapes, it really provides a great 
opportunity to build new partnerships. As you see in our 
written testimony, we think the Seeley Lake Ranger District 
provides a model of new approaches to old problems.
    Five years ago Seeley Lake faced a crisis. Headlines 
announced the imminent shutdown of Pyramid Mountain Lumber, 
that's the largest employer. Recreationists were embroiled in 
angry conflict. Today we welcome opportunities to work 
cooperatively with Pyramid. They're widely recognized as a 
leader in forest stewardship, in stewardship projects, salvage 
sales and forest plan revision.
    The Seeley Lake Ranger District has amended its forest plan 
successfully to reflect a winter recreation plan that was 
jointly suggested by the Montana Wilderness Association and the 
Seeley Lake Snowmobile Club. This plan ensures great 
snowmobiling, but it also protects wintering wildlife and quiet 
winter trails within easy reach of Seeley Lake.
    Over the past year we've applied these new approaches to 
forest plan revision in the Seeley Lake Ranger District working 
out landscape-based solutions working with Pyramid, with 
snowmobilers, area ranchers and wilderness outfitters.
    Last May your staff, Larry Anderson, was present when 
snowmobilers and conservationists met in Lincoln, Montana, to 
sign another winter recreation agreement. This agreement also 
protects popular snowmobiling in the Lincoln area, but at the 
same time it protects wildlands and winter wildlife habitat 
along Montana's Rocky Mountain Front.
    After 20 years of fighting in every arena, believe me, 
Senator Burns, there's still plenty we disagree on, but today 
we're working as partners committed to a single winter 
landscape plan and that's a change.
    Other winter agreements have successfully been reached 
covering national forest lands in the Big Belt in the Whitefish 
Range, the Flathead forest, Big Snowies and Little Belt 
Mountains. When the Big Snowies' agreement was challenged in 
court last year, the Montana Wilderness Association and the 
Montana Snowmobile Association intervened, on the same side, 
and successfully, thus far, to defend this agreement. And this 
takes commitment, Senator Burns, and the leaders of both 
organizations have taken significant risks to move our State 
forward.
    We believe there are other parts of the State where the 
ground is fertile for Montanans to work together. However, 
mixed or even contrary signals from Agency or political leaders 
can stymie dialog and push Montanans further apart.
    We've got decade's old, deep ruts that keep Montanans 
severed, and its strong leadership from Agency and elected 
officials that is essential. This means giving people the right 
signals and incentives to do the right thing. Talk to your 
neighbors, work out differences, and you will be rewarded.
    Managing off-road vehicles is probably the most contentious 
issue on our public lands today, especially for summer use. 
According to the National Association of Counties advances in 
off-road technology have spread noxious and invasive weeds, 
increased conflicts between road and recreational users, 
ranchers, hunters, wildlife and caused environmental damage.
    Now, Montanans cherish access to public lands, and we 
understand that access takes many forms that do not require 
off-road vehicles. Communities seek access to open space and 
quiet trails. Ranchers provide access to hunters afoot, not 
riding ATVs. Hunters enjoy access to State school trust lands 
but we leave our vehicles behind on the road.
    Public access is threatened today, not by setting 
responsible limits to off-road vehicle traffic and enforced 
travel plans. It's threatened because Congress is considering 
legislation that would sell public lands, and that would mean 
no access. So, Senator, we urge you to protect public access by 
opposing bills currently being considered that would sell 
public lands.
    Two hundred years ago when President Jefferson acquired 529 
million acres of western land, including the area of Montana, 
critics attacked him for foolishly purchasing an immense 
wilderness. Today we have over 90,000 miles of roads, but less 
than 4 percent of Montana is actually protected as wilderness.
    Our neighboring western States each thrive with a higher 
percentage of wilderness. Stunning mountain lands that we have 
traditionally enjoyed as wilderness, from Lolo Peak to the 
Rocky Mountain Front, will not remain so for our kids without 
stronger commitments from our Government.
    As our valleys fill with subdivisions and roads and traffic 
in the years ahead--and they're going to--Montana's wild 
country is going to be worth its weight in solid gold. Some 
have made a sport of criticizing the Forest Service for 
recommending any wilderness in revised plans. We feel this 
position is irresponsible.
    Wilderness is part of the multiple use of public lands, and 
it belongs in our mountains along with the suitable areas for 
logging, snowmobiling and other land allocations.
    We believe the Federal Government has not done nearly 
enough to demonstrate commitment or vision for the future of 
Montana wilderness. Lands with high wilderness values and low 
conflicts have been overlooked by the Forest Service time and 
again.
    Draft forest plan recommendations, for example, fall 
significantly short of wilderness that is contained in the 
Senate-passed bill S. 6096 cosponsored by you and Senator 
Baucus.
    You raised two questions about the Beaverhead-Deerlodge 
recommended wilderness, and they're good questions and I think 
they're worth answering. When you look at the Beaverhead-
Deerlodge you see a forest that is the largest forest we have, 
larger than Glacier and Yellowstone Parks combined. It includes 
16 mountain ranges, 400 miles of the Continental Divide, 
something like 33 hunting districts. By the way, a third of the 
elk taken in this State come out of that country, so it's 
important to us. But it's the diversity of it that gives us 
areas that have tremendous wilderness character.
    You also raised the question of whether it was too 
expensive to enjoy without--motorized and ATV or what have 
you--and I think, Senator, we would welcome that kind of 
comparison. I know for a fact that my wife and I have taken our 
kids there since they were babies, camping and hiking and 
enjoying the Pioneers the Pintlars the Tobacco Roots many of 
these areas. The most expensive part of our trips is stopping 
for Chinese dinner, in Butte, on the way home, to tell you the 
truth. We welcome that kind of comparison. I think it's a 
question that's worth answering.

                           PREPARED STATEMENT

    Our answer, to summarize, is to continue to work to build 
diverse support for on-the-ground solutions that include 
Montana wilderness. We hope that you will provide the kind of 
leadership that brings Montanans together at the table of trust 
and understanding and encourages home-grown solutions that can 
move Montana forward. Thank you, Senator Burns, for the 
opportunity.
    [The statement follows:]

                  Prepared Statement of John Gatchell

    Thank you, Senator Burns. I represent the 7,000 members of the 
Montana Wilderness Association--founded 47 years ago by hunters and 
conservationists to safeguard Montana's vanishing wilderness.
    Our members view Montana wilderness as a public land trust that 
will always provide great hunting, fishing, camping under the stars, 
and quiet mountain trails. Our western wild lands embody core American 
values: freedom, self-reliance, family, tradition.
    Keeping this heritage intact takes commitment and wilderness 
designation for deserving lands is a commitment we can rely on and pass 
on to our kids.
    We're determined to work with friends and neighbors to achieve this 
objective. We're willing to listen and work with others, take risks, 
and help provide leadership to move our state forward. We do need to 
see this path has rewards.

                  FOREST PLANNING MATTERS TO ALL OF US

    The Forest Plan is a contract between the people who own and those 
who manage our national forests. This contract should provide clarity 
and certainty for all who have a stake in public lands.
    Different people seek different commitments in the Forest Plan 
contract: Whether its small mills, snowmobilers, hunters, communities 
or conservationists.
    We want tangible commitments. We all want to know where we stand 
today and what will remain tomorrow.
    Because the forest plan looks across vast and diverse mountain 
landscapes,--it provides a great opportunity to build new partnerships.

                 BEYOND WARRING PHILOSOPHY: SEELEY LAKE

    As you see in our written testimony, the Seeley Lake Ranger 
District provides a model of taking new approaches to old problems. 
Five years ago Seeley faced crisis: Headlines announced the imminent 
shut down of Pyramid Mountain Lumber. Recreationists were embroiled in 
angry conflict.
    Today we welcome opportunities to work cooperatively with Pyramid, 
in stewardship projects, salvage sales, and forest plan revision. 
Pyramid is widely recognized as a leader in forest stewardship.
    The Seeley lake Ranger District amended the forest plan to reflect 
a winter recreation plan suggested by the Montana Wilderness 
Association and Seeley Lake snowmobile club. This plan ensured great 
snowmobile areas and trails while at the same time protecting wintering 
wildlife and quiet winter trails within easy reach of Seeley Lake
    Over the past year we've applied these new approaches to forest 
plan revision on the Seeley Lake District, working out landscape-based 
solutions with Pyramid, snowmobilers, ranchers and wilderness 
outfitters.

                     LINCOLN, SNOWIES AND ELSEWHERE

    Last May, your staff was present when snowmobilers and 
conservationists met in Lincoln to sign another winter agreement. This 
agreement protects popular snowmobile areas and trails near Lincoln yet 
at the same time wild lands and wildlife along the Rocky Mountain 
Front.
    After 20 years of fighting in every arena, believe me there's still 
plenty we disagree on, but today we are working as partners committed 
to a single winter landscape plan.
    Other winter agreements have successfully been reached covering 
national forest lands in the Big Belts, Whitefish Range, Flathead, Big 
Snowies and Little Belt Mountains.\1\
---------------------------------------------------------------------------
    \1\ The agreements settle site-specific disputes over winter 
recreation on parts of five national forests, including two wilderness 
study areas, a dozen inventoried roadless areas and several tracts of 
recommended wilderness. Snowmobilers and conservationists also pledge 
to assist with education, funding, and monitoring to help ensure 
success in the field. Both parties believe more landscape agreements 
are possible.
---------------------------------------------------------------------------
    When the Big Snowies agreement was challenged in court last year, 
MWA and the Montana Snowmobile Association intervened successfully to 
defend this winter agreement.
    This takes committment, Senator Burns, and the leaders of both 
organizations have taken significant risks to move our state forward.
    There are other parts of the state where the ground is fertile for 
Montanans to work together. However, mixed or even contrary signals 
from agency or political leaders can stymie dialogue, and push 
Montanans farther apart.
    We've got deep, decades old ruts that keep Montana high-centered. 
Strong leadership from agency and elected officals is essential to move 
our state forward. This means giving people the right signals and 
incentives to do the right thing--talk to your neighbors, work out your 
differences, and you will be rewarded.
    Managing off-road vehicles is probably the most contentious issue 
on public lands today -especially for summer use. According to the 
Association of Counties, advances in off-road vehicle technology have 
``spread noxious and invasive weeds... increased conflicts with other 
recreational users, ranchers, hunters, wildlife, and . . . caused 
environmental damage.'' (2003-2004 Resolution on Off-Highway Vehicle 
Management on Public Lands, National Association of Counties)

                       ACCESS DOES NOT MEAN ATVS

    Montanans cherish access to public land and understand that access 
takes many forms that do not require off-road vehicles: Communities 
seek access to open space and quiet trails. Ranchers provide access to 
hunters afoot not riding ATVs. Hunters enjoy access to state trust 
lands--but we leave our vehicles on the road.
    Public access is threatened today--not by setting responsible 
limits to off-road traffic in forest travel plans. It is threatened 
because Congress is considering legislation to sell public lands. This 
means no access.
    We urge you Senator to protect public access by opposing bills to 
sell public lands.
                               conclusion
    Two hundred years ago, when President Jefferson acquired 529 
million acres of western lands--including the area of Montana, critics 
attacked him for foolishly purchasing ``an immense wilderness.'' \2\
---------------------------------------------------------------------------
    \2\ ``A WILDERNESS SO IMMENSE--The Louisiana Purchase and the 
Destiny of America.'' Jon Kukla, 2003.
---------------------------------------------------------------------------
    Today we have over 90,000 miles of road, but less than 4 percent of 
Montana is actually protected as wilderness. Our neighboring western 
states each enjoy higher percentages of wilderness. Stunning mountain 
lands we have traditionally enjoyed as wilderness -from Lolo Peak to 
the Rocky Mountain Front--will not be there for our kids without 
stronger commitments from our government.
    As our valleys fill with subdivisions, roads and traffic in the 
years ahead, Montana's wild country will be worth its weight in gold.
    Some have made a sport of criticizing the U.S. Forest Service for 
recommending wilderness in revised plans.\3\ This position is 
irresponsible. Wilderness is part of the multiple use of public lands, 
and belongs in our mountains along with suitable areas for logging, 
snowmobiling, and other allocations.
---------------------------------------------------------------------------
    \3\ Critics have also argued that the Forest Service is creating 
``de facto'' wilderness, in violation of federal law. While it is true 
that only Congress can add Wilderness to the National Wilderness 
Preservation System, the Forest Service is required to evaluate and 
recommend Wilderness where justified, and may restrict uses as 
necessary to protect resource values. See for example, 36 CFR 219 
(FSM), in pertinent part: ``. . . all National Forest System lands 
possessing wilderness characteristics must be considered for 
recommendation as potential wilderness areas during development or 
revision of a land management plan. Based on site-specific analysis and 
public involvement, management direction is developed for inventoried 
roadless areas during the land management planning process that could 
include (1) protection of wilderness values . . . (2) total or partial 
restriction of certain uses . . .''
---------------------------------------------------------------------------
    We believe the federal government has not done nearly enough to 
demonstrate commitment or vision for the future of Montana wilderness.
    Lands with high wilderness values and low conflicts have been 
overlooked by the Forest Service time and again:
    Draft recommendations in the ongoing forest plans fall short of 
wilderness contained in the Senate-passed bill co-sponsored by you and 
Senator Baucus.\4\
---------------------------------------------------------------------------
    \4\ See chart comparing legislation passed by U.S. Senate and House 
with USFS recommendations, attached below testimony.
---------------------------------------------------------------------------
    Senator Burns, you raised two questions this morning regarding 
recommended wilderness on the Beaverhead-Deerlodge National Forest. 
First the areas, which as I noted fall short of wilderness contained in 
your 1992 Senate bill, S. 1696. More importantly, though, is the 
diverse character of this vast landscape, the Beaverhead-Deerlodge is 
larger than Glacier and Yellowstone combined, includes 16 mountain 
ranges, 400 miles of the Continental Divide and 33 hunting districts 
which provide--and this is very important to us--one-third of all elk 
taken in Montana.
    Second you questioned whether people could afford to use 
recommended wilderness without motorized vehicles. This is a comparison 
we would welcome. My wife and I have often taken our kids into the 
Pioneers, Tobacco Roots, Pintlars, Thunderbolt Creek (Electric Peak) 
since they were babies. The most expensive part of our wilderness trips 
was stopping in Butte on the way home for Chinese dinner.
    Our answer is to continue to work to build diverse support for on-
the-ground solutions that include Montana Wilderness.
    We hope you will provide the kind of leadership that brings 
Montanans together at the table of trust and understanding, and 
encourages homegrown solutions that can move Montana forward.
    Thank you, Senator Burns, for the opportunity to offer our thoughts 
today.

       COMPARISON HOUSE AND SENATE-PASSED MONTANA WILDERNESS LEGISLATION WITH USFS PRELIMINARY FOREST PLAN
                                                 RECOMMENDATIONS
----------------------------------------------------------------------------------------------------------------
                                     88 Passed    92 Senate     94 House     FS 2005                    Forest
          National Forest               \1\          \2\          \3\        (dr) \4\     Rdls \5\      Total
----------------------------------------------------------------------------------------------------------------
Beaverhead-Deerlodge NF...........      335,200     9290,000      358,700      249,000    1,881,000    3,335,000
Flat-Lolo-B'root NF...............      632,000      564,000      731,000      478,000    1,725,000    5,590,000
Kootenai National Forest..........      113,600       92,000      166,600  ...........      624,000    2,220,000
                                   -----------------------------------------------------------------------------
    5 forest subtotals............    1,080,600      946,000    1,256,300      727,000    4,230,000   11,145,000
----------------------------------------------------------------------------------------------------------------
\1\ S. 2751 Montana Wilderness and Management Act. House-Senate compromise bill enacted in October 1988/left
  unsigned by President Reagan after Congress adjourned.
\2\ S.1696 Montana National Forest Management Act of 1991-Co-Sponsored by Senators Burns and Baucus. Passed
  Senate March 26, 1992, Amended by House. Vote Blocked on Compromise Oct 8, 1992.
\3\ H.R. 2473 Sponsored by Congressman Williams. Amended and Passed House of Representatives May, 1994.
\4\ Preliminary wilderness recommendations contained in draft or initial draft forest plans.
\5\ U.S. Forest Service Inventoried Roadless Areas as shown in draft or preliminary forest plans.


    Senator Burns. Thank you, John.
    Now we have Russ Ehnes, National Off-Highway Vehicle 
Council. Russ, thank you for coming today. We look forward to 
your testimony.

STATEMENT OF RUSS EHNES, PRESIDENT, MONTANA TRAIL VEHICLE RIDERS ASSOCIATION, 
REPRESENTING THE NATIONAL OFF-HIGHWAY VEHICLE COUNCIL
    Mr. Ehnes. Thanks, Mr. Chairman. My name is Russ Ehnes, 
actually. That's all right, that's a tough one to pronounce. 
I'm president of the Montana Trail Vehicle Riders. I'm here 
today to present my testimony. However, I'd like to recognize 
the Citizens for Balanced Use, Families for Outdoor Recreation, 
Capital Trail Vehicle Association and Montana Multiple Use 
Association have also prepared high quality testimonies in 
their quest to represent the thousands of citizens across 
Region 1 who make up their memberships. Their plea is for you 
to recognize the disparities in Region 1 Forest Service 
management policies and for you to help bring fair, responsible 
and balanced management to Region 1. Jointly, our desire is to 
keep our public lands shared for all the public under the 
sustained multiple use mandate.
    Forest planning is an important topic for thousands of 
Montana families who enjoy Montana's great outdoors, on trail 
motorcycles, ATVs, snowmobiles and four-wheel drives. There's a 
60-year tradition of off-highway vehicle use in Montana. My 
kids are fourth generation trail motorcyclists. We have ridden 
snowmobiles since 1964.
    OHV recreation and snowmobiling in our national forests are 
more than something we do on the weekends. They're the glue 
that binds our family together, and it is important to our 
quality of life as any form of recreation is to any other 
Montanan.
    OHV recreation is one of the fastest growing forms of 
recreation; we've already heard. A recent study by the Forest 
Service Southern Research Station found that 29 percent of 
Montanans classify themselves as participants in off-highway 
vehicle recreation, which does not even include snowmobilers.
    We also understand the potential for abuse and impacts that 
can result from unmanaged recreation of all kinds. When Chief 
Bosworth was the regional forester in Region 1, he recognized 
the value and legitimacy of OHV recreation and had the 
foresight to see that we needed sensible limits on what uses 
could be allowed with off-highway vehicles in largely unmanaged 
areas.
    He worked with the BLM to develop the three-State OHV EIS. 
Nearly every OHV and multiple-use organization supports that, 
including us. We also support the new Forest Service off-
highway vehicle rule which will result in designated route 
systems nationwide.
    In addition to being the president of MTVRA, I actually 
work professionally as the executive director of the National 
Off-highway Vehicle Conservation Council, a nationwide, 
nonprofit educational organization dedicated to partnering with 
the Forest Service and other agencies to find and share proven 
effective management techniques for off-highway vehicle 
recreation.
    These techniques allow the agencies to provide abundant, 
high quality OHV recreation opportunities in ways that meet 
riders' needs and expectations while preserving and protecting 
our natural resources, and they are the alternative to the 
ignored or closed management style that had prevailed for too 
many years.
    We've worked with the agencies for over 10 years to promote 
off-highway vehicle management workshops and have had three of 
those in Montana over the last 10 years. Many of the district 
rangers, rec planners and resource specialists in Montana that 
participate in those workshops learned those techniques and 
implemented them in many areas.
    However, it seems that some forest supervisors have chosen 
not to implement best management practices for off-highway 
vehicles and have again chosen to ignore it or close it. 
Unfortunately, the proposed travel plans that we're seeing are 
very heavy on the ``close it side.''
    We've seen things like elk security cited as common reasons 
for closure. Yet herds have continually increased in size, and 
we haven't seen the peer reviewed science to show justification 
of how herds could benefit from travel restrictions.
    We as Americans expect that freedom means we're allowed the 
liberty to enjoy public lands responsibly, without restrictions 
unless there is a valid reason identified that justifies 
restricted access over other management options.
    Instead we're seeing proposals within Region 1 that close 
40 to 60 percent of our forests that have been open for off-
highway vehicle recreation and snowmobile access. These 
extensive closures are a fundamental shift away from the 
freedom we expect in Montana, in the United States, and is not 
in accord with the intent implicit in the 2001 OV EIS.
    I'm disturbed by this new trend of designating large blocks 
of multiple-use areas off limits to motorized recreation and 
think it's being driven by a number of factors, the first of 
which is the age-old battle between the preservationist 
community and the multiple-use community.
    I believe the multiple-use community subscribes to the 
philosophy of Gifford Pinchot, the person who created the 
Forest Service. We believe we can use and enjoy our forests 
wisely, respectfully and responsibly not only for recreation 
but also for clean water and other resources.
    John Muir's philosophy is more of a hands-off philosophy 
that resulted in the creation of our national wilderness system 
and we need both, and we recognize that. But because there 
seems to be a majority opinion that we have already set aside 
enough as wilderness, we've seen people who promote more 
wilderness change the nomenclature of the debate.
    We're seeing the promotion of large blocks of nonmotorized 
quiet areas particularly in inventoried roadless areas. With 
these areas closed to motorized users and all but off limits to 
resource development, their end game is satisfied. They've 
achieved ``wilderness light'' and only have to contend with a 
few bicycles and chain saws of the rarely deployed trail crew.
    We're also seeing new designations like ``wildland,'' which 
prohibit mechanical and motorized use in areas but are never 
recommended to Congress as wilderness. This is the very 
definition of ``wilderness light.'' All of this is achieved 
without the messy involvement of Congress, the body in which 
lies the sole Peoples' elected authority to establish 
wilderness.
    Why is our community so upset right now? Just as one 
example of what's happening all over Montana, I can tell you 
that since my father began riding trail motorcycles in the 
1950s, you can no longer go to Bighorn Lake or Heart Lake, 
which are now in the Scapegoat Wilderness. The trail he used to 
ride from Rogers Pass to Stemple Pass is closed for grizzly 
bear habitat.
    Seventy percent of the Highwood Mountains are now closed; 
90 percent of the Snowies are off limits. Many trails along the 
Rocky Mountain Front are closed. Many trails in the Big Belts 
are off limits, and the Rocky Mountain Front Travel Plan Record 
of Decision will likely close most of the trails in the Badger-
Two Medicine and more trails along the Rocky Mountain Front. 
Cumulative effects of past closures are real. The Forest 
Service seems to have a hard time quantifying this, but all you 
have to do is look at the maps from the past 50 years.
    The result of these closures is that we're being pushed 
into smaller and smaller areas. In eastern Montana, where I'm 
from, the Little Belt Mountains are fast becoming the last best 
place to ride. The Montana Wilderness Association wants the 
Forest Service to close half of the mountain range along with 
north end of the Crazies and the Castles in the Travel Plan.
    We are again being asked to give up half of our remaining 
access and recreational opportunities. When we balk, we are 
accused of being selfish, unreasonable or unwilling to 
compromise. Remember that compromise only works when both 
parties have something to lose. In our case, we have given up 
half of--given up access to millions of acres of Montana back 
country closures and wilderness designations.
    The nonmotorized trail users, with the exception of 
mountain bikers, have nearly 100 percent access to every area. 
When an area is proposed for closure, we're told to leave. When 
an area is left open, the nonmotorized user is asked only to 
share, only to tolerate status quo. We believe there comes a 
time when people need to understand the needs of others and be 
tolerant. People will have to share some areas. We believe the 
time has come for that.
    Another resource we need to be concerned about is our 
children's future. It is said that our kids are our best export 
in Montana. That's a sad statement. My daughter is a student 
here at the University of Montana. My son is in high school. 
They would love to stay in the Montana, but they don't know 
that they can because they can't make much money here.
    The reason they want to stay is because they enjoy the time 
that we spend as a family outdoor trail riding, fishing, 
hunting. As those sports become more restricted and difficult 
to do and access to public land becomes more restricted, their 
desire to make the financial sacrifice it takes to live in 
Montana evaporates. Our talented youth are losing their 
incentive to stay in Montana. Our population ages and our 
standard of living decreases. This is now truly a quality of 
life issue.
    There are also thousands of retired Montanans who have 
lived and worked their entire lives in Montana so they could 
enjoy the wonders the State has to offer. For many a trail bike 
and ATVer a snowmobile or four-by-four is the only way they can 
reach the back country. Again, access is a quality of life 
issue for our seniors and our physically challenged.
    Senator Burns. Can you wrap up pretty quick?

                           PREPARED STATEMENT

    Mr. Ehnes. You bet. Is there a better way? Yes, activity 
management and strong partnerships. For example, in the Little 
Belt Mountains there is a truly world-class loop experience for 
trail users, motorized and nonmotorized. Groups like the Great 
Falls Trail Bike Riders, the Back Country Horsemen and the 
Treasure State ATV Association work hand in hand with the 
Forest Service to maintain that trail system. They've also 
acquired about a quarter million dollars in grants for on-the-
ground work and education, and we're willing to do our part as 
a community. Thank you for your time.
    [The statement follows:]

                    Prepared Statement of Russ Ehnes

    Thank you for this unique opportunity to testify today. My name is 
Russ Ehnes and I am the President of Montana Trail Vehicle Riders 
Association. I am here to present my testimony today however I would 
like you to recognize that Citizens for Balanced Use, Families For 
Outdoor Recreation, Capital Trail Vehicle Association, and Montana 
Multiple Use Association also prepared high quality testimonies in 
their quest to represent the thousands of citizens across Region 1 that 
make up their memberships. Their plea is for you to recognize the 
discrimination and disparities in Region 1 Forest Service Management 
policies and for you to help by bring responsible, fair, reasonable and 
balanced management to Region 1. Jointly our only desire is to keep our 
public lands shared for all the public under the sustained multiple use 
mandate.
    Forest Planning is an important topic for the thousands of Montana 
families who enjoy Montana's great outdoors on trail motorcycles, ATVs, 
snowmobiles, and four-wheel drive vehicles. There's a sixty year 
tradition of OHV use in Montana. My kids are fourth generation trail 
motorcyclists and we have ridden snowmobiles since 1964. OHV recreation 
and snowmobiling in the national Forests are more than something we do 
on the weekends. They're the glue that bind our family together and are 
as important to our quality of life as any other form of recreation is 
to any other Montanan. OHV recreation is one of the fastest-growing 
forms of recreation. A recent study by the Forest Service Southern 
Research Station found that 29 percent of Montanans classify themselves 
as ``participants'' in OHV recreation, which does not even include 
snowmobilers.
    We also understand the potential for abuse and impacts that can 
result from unmanaged recreation of all kinds. When Chief Bosworth was 
the Regional Forester in Region 1, he recognized the value and 
legitimacy of OHV recreation and had the foresight to see that we 
needed sensible limits on what uses could be allowed with OHVs in 
largely unmanaged areas. He worked with the BLM to develop the 3-State 
OHV EIS. Nearly every OHV and multiple-use organization supports the 
rule. We also support the new Forest Service OHV Rule, which will 
result in a system of designated routes and areas for OHVs nationwide.
    I currently serve as the Executive Director of the National Off-
Highway Vehicle Conservation Council, a nationwide non-profit 
educational organization dedicated partnering with the Forest Service 
and other agencies to find and share proven effective management 
techniques for managing OHV recreation.
    These management techniques allow the agencies to provide abundant, 
high-quality OHV recreation opportunities in ways that meets riders' 
needs and expectations while preserving and protecting our natural 
resources and are the alternative to the ``ignore it or close it'' 
management style that has prevailed for too many years. We've worked 
with the agencies for over ten years to promote OHV management 
workshops all across the nation with three workshops held Montana.
    Many of the District Rangers, Recreation Planners, and Resource 
Specialists participated in the Montana workshops and have learned 
these techniques and implemented them in many areas. However, it seems 
some Forest Supervisors have chosen not to implement best management 
practices for OHV management and ``ignore it or close it.'' 
Unfortunately the Proposed Forest Plans and Travel Plans we're seeing 
are very heavy on the ``close it'' side. We've seen elk security cited 
as a common reason for closures yet the herds have been continually 
increasing in size and no peer-reviewed science to show justification 
of how the herds could benefit from travel restrictions.
    We as Americans expect that freedom means we are allowed liberty to 
enjoy public lands responsibly, without restrictions unless there is a 
valid reason identified that justifies restricted access over other 
management options. Instead we're seeing proposals in Region 1 that 
close 40-60 percent of forests that have been open for OHV and 
snowmobile access. These extensive closures are a fundamental shift 
away from the freedom we expect in Montana and in the United States and 
is not in accord with the intent implicit in the 2001 OHV EIS.
    I'm disturbed by this new trend of designating ``large blocks'' of 
multiple-use areas as off-limits to motorized recreation and I think 
its being driven by several factors. First is the age-old battle waged 
between the preservationist community and the multiple-use community. I 
believe the multiple use community subscribes to the philosophy of 
Gifford Pinchot, the man who created the Forest Service. We believe we 
can both use and enjoy our forests wisely, respectfully, and 
responsibly not only for recreation but also for clean water and other 
resources. The John Muir philosophy is a hands-off philosophy that 
resulted in the creation of the Wilderness system in our nation. We 
need both; but because there is majority consensus that you have 
already set aside enough as Wilderness, the people who promote more 
wilderness are changing the nomenclature of the debate. They are 
promoting ``large blocks'' of non-motorized ``quiet areas,'' 
particularly in inventoried roadless areas. With these areas closed to 
motorized users and all but off-limits to resource development, their 
end game is satisfied. They've achieved ``Wilderness Light'' and only 
have to contend with a few bicycles and the chain saws of the rarely 
deployed trail crew. We're also seeing new designations like 
``Wildlands'' which prohibit mechanical and motorized use in areas but 
are never recommended to congress as Wilderness. This is the very 
definition of ``Wilderness Light.'' All this is being achieved without 
the messy involvement of Congress, the body in which lies the sole 
People's elected authority to establish Wilderness.
    The second reason I believe we're seeing wholesale restrictions 
proposed is the Forest Service's belief that it doesn't have the budget 
to manage recreation. While I know that the agency is constantly being 
asked to do more with less, I believe there needs to be a fundamental 
shift in the way the agency views its primary job. Our Forests no 
longer provide large quantities of timber and minerals for our society. 
What they still provide is clean water and high quality recreation. 
Perhaps the budget priorities should reflect this change. The Chief has 
identified unmanaged recreation as one of the four threats. If this is 
one of the top priorities for the Forest Service, how much of its 
budget is devoted to it? While I have no doubt there is a challenge 
with budget amounts I also believe there's a priority problem with how 
budgets are allocated.
    Why are we as a community so upset right now? Just as one example 
of what's happening all over Montana, I can tell you that since my 
father began trail riding in the fifties he can no longer ride to 
Bighorn Lake or Heart Lake, which are now in the Scapegoat Wilderness. 
The trail he used to ride from Rogers Pass to Stemple Pass is closed 
for grizzly bear habitat, 70 percent of the Highwood Mountains are now 
closed, 90 percent of the Snowy Mountains are off limits, many trails 
along the Rocky Mountain Front are closed, many trails in the Big Belts 
are now closed, and the Rocky Mountain Front Travel Plan Record of 
Decision will likely close most or all of the trails in the Badger--Two 
Medicine and more trails along the Front. Yes, cumulative effects of 
past closures are real. The Forest Service seems to have a hard time 
quantifying this, but all you have to do is look at the maps from the 
past fifty years.
    The result of all these closures is that we're pushed into smaller 
and smaller areas. In eastern Montana the Little Belt Mountains are 
fast becoming the ``Last Best Place'' to ride. The Montana Wilderness 
Association wants the Forest Service to close half of that along with 
the North end of the Crazies and Castles. We are again been asked to 
give up ``half'' of our remaining access and recreational 
opportunities. When we balk, we are accused of being selfish, 
unreasonable, or unwilling to compromise. Compromise only works when 
both parties have something to lose. In our case, we have given up 
access to millions of acres of Montana back-country to closures and 
Wilderness designations. The non-motorized trail users, with the 
exception of the mountain bike riders, have access to 100 percent of 
every area. When an area is proposed for closure, we are told to leave. 
When an area is left open, the non-motorized user is asked only to 
share; only to tolerate status quo. We believe there comes a time when 
people need to understand the needs of others and be tolerant. People 
will have to share some areas. I believe that time has come.
    Another resource we need to concern ourselves with is our 
children's future. It's said that our kids are Montana's best export. 
That's a sad statement. My daughter is a student at U of M and my son 
is in high school. They would like to stay in Montana, but they know 
they won't make much money here. Why do they want to stay? Because they 
enjoy the time we spend outdoors trail riding, fishing, and hunting. As 
these sports become more difficult to participate in and access to 
public lands for recreation becomes more restricted, their desire to 
make the financial sacrifice it takes to stay here is evaporating. Our 
talented youth are losing their incentive to stay in Montana, our 
population ages, our standard of living decreases. This is now truly a 
quality-of-life issue.
    There are also thousands of retired Montanans who have lived and 
worked their entire lives in Montana so they can enjoy the wonders our 
state has to offer. For many, a trail bike, ATV, 44, or snowmobile is 
the only way they can reach the back-country. Again, access is a 
quality-of-life issue for our seniors and physically challenged.
    Snowmobiling alone has a positive economic impact of over 40 
million dollars in Montana. If the dealers, restaurants, hotels and 
other businesses in Gateway communities can't make ends meet, it 
becomes a quality of life issue for them as well.
    Is there a better way? Yes, active management and strong 
partnerships. For Example, the Little Belt mountains offer a truly 
world-class loop trail experience for thousands of trail users, 
motorized and non-motorized. Groups like the Great Falls Trail Bike 
Riders Association, The Treasure State ATV Association, and the CM 
Russell Back Country Horsemen work side-by-side with the Forest Service 
to maintain an extensive trail system where encounters with other users 
are rare because the size of trail system disperses the uses. The 
GFTBRA has also worked with the Forest Service to secure nearly a 
quarter million dollars in trail improvement and educational grants.
    We as a community are ready and willing to do our part but it will 
require an agency with a strong determination to make recreation 
management and access for all Montana's citizens a priority.
    Thank you again for this opportunity to express our views.

    Senator Burns. You bet. Thank you. We appreciate your 
testimony. We've got Mike Hillis now, Ecosystem Research Group, 
EGR. Mike, thank you for coming today.

STATEMENT OF MIKE HILLIS, SENIOR WILDLIFE BIOLOGIST, 
            ECOSYSTEMS RESEARCH GROUP
    Mr. Hillis. Thank you, Senator. I'm Mike Hillis, senior 
wildlife biologist with Ecosystems Research Group. Thanks for 
the opportunity. Ecosystems Research Group has reviewed five 
forest plans in three western States, two regions in the last 2 
years. Our intent had been to apply the best science and 
economic analyses available with the sociopolitical climate for 
a given national forest.
    I'd like to share some of those findings from those five 
national forests. Let me start out with a little commonality to 
all five forests. They're all in the west. They're all 
droughting, strongly disturbance dependent in terms of being 
influenced by fire and insects and disease. All five forests 
are older and denser than they've ever been, historically, 
because of 80 years of fire suppression, in spite of modest to 
moderate levels of timber harvest in all five of those forests.
    Let me start out by identifying some things that seem to 
work pretty well in forest planning. If we go back to 1982 as a 
reference point, that's when early forest plan drafts were 
first hitting the street. If we look at the science in terms of 
our understanding of disturbance ecology, light years better 
than it was 20 years ago.
    Our ability to monitor historic conditions as a reference 
point is wonderful. We finally have a wonderful data base in 
our assessment, which allows us both to make decisions and to 
monitor over time.
    As Chuck Keegan mentioned we've got demonstrated ability to 
use a variety of tools including commercial timber harvest, 
prescribed burning, thinning, and road restoration to restore 
landscapes. So we have got a lot of things going really well.
    If you look at the National Forest Management Act and the 
National Environmental Policy Act, they provide very specific 
direction for things like wildlife and monitoring and so forth.
    There's obviously some things that don't work very well, as 
Dale Bosworth mentioned: Contention. It's kind of an ugly time 
to be a forest planner. A lot of that contention is neither 
civil nor objective. When you look at NFMA and NEPA those laws 
are 29 and 36 years old and were written during a period of 
very different values of what public lands are. Today they're 
enormously complex. They're often out of proportion to the risk 
involved.
    Let me put that a different way: It shouldn't cost a 
quarter million dollars to do an EIS to thin 100 acres of 
ponderosa pine upwind from a subdivision. Yet that's how we're 
spending taxpayer dollars before we even try to apply 
treatments on the ground. So you have to think about there's 
some aspects of those legislations, those laws, that are 
broken.
    We're in an economy of growing deficits and decreasing 
chance of dollars getting to the ground to do things. So if 
you're a planner, you think of the contention, the high legal 
costs, the declining budgets, damn little incentive to push the 
envelope in terms of doing what needs to be done on the ground 
to reduce the fire severity, to reduce insect outbreaks, 
whatever.
    Giving you an example on the Beaverhead-Deerlodge, in 1999 
the forest completed a 700,000 acre landscape assessment in the 
Rock Creek Range, which was wonderful. They involved 
scientists, academia, managers, other agency personnel, local 
community people and determined from a science base and an 
economic base what was needed on that landscape to restore it. 
That included commercial thinning, some other types of timber 
harvest, prescribe burning, some road restoration, et cetera.
    Well, when they got to the forest plan, they included none 
of that. Why? Too contentious, money probably wouldn't be there 
anyway, cost too damn much to do it. So you see things like 
that and you say something is broken.
    Just in general, of those five national forests, we've seen 
an unwillingness to apply the best science because it's 
sometimes contentious, and so they bend the science a little 
bit to try to satisfy everybody; an unwillingness to use timber 
management as a tool to restore landscapes even when it's 
cheaper and more effective; an unwillingness to identify what's 
needed because the funding won't be there. So again, you know, 
those are kind of common themes we've seen.
    In summary, if there's four things that we think under the 
existing laws and regs and the new rule that Dale is talking 
about that we need in forest planning is No. 1, we need better 
direction and accountability from the Forest Service.
    When we look at national and regional direction for 
planning, pretty darn good. But when we start looking at it on 
the forest, it's all across the board. Somebody mentioned that 
consistency needs to be a goal, and it's not terribly 
consistent in terms of how we apply wildlife values by building 
strategies, how we apply economic models, how we apply various 
types of direction.
    No. 2, where ecologically and economically appropriate we 
need to use timber management as a tool to restore landscapes 
in the West. Our forests are disturbance dependent. They're 
getting older. They're getting denser across the board. We're 
not going to get there with prescribed burning alone or 
wildlife value unless we can also use timber management where 
appropriate.
    No. 3, we need to maintain working landscapes. If you think 
of the Beaverhead-Deerlodge as an example, the wildlife values, 
the visual values are not just limited to national forest 
lands. We may think that national forest lands are a key. Those 
lands are integrated through ranchers, through corporate timber 
lands, through industry and communities. Unless we look at the 
impacts on all those lands together, we're not going to 
maintain a lot of those values.
    Last we need to apply the best science, period. It's fine 
to make trade-offs for socioeconomic values. But science needs 
to stand alone, and we should not compromise that to avoid 
contention. We are going to have contention anyway. We need to 
let the science stand alone.

                           PREPARED STATEMENT

    So again, in summary, having better accountability, placing 
greater emphasis on using timber management as a tool for 
restoration, placing greater emphasis on maintaining working 
landscapes on those large scales and anchoring to the science 
are those things we feel are needed to improve the planning 
process. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Michael Hillis

    Thank you for the opportunity to provide testimony to the 
committee. We have organized both written and verbal comments around 
three basic issues: (1) what is good about forest planning on U.S. 
Forest Service (USFS) lands, (2) those planning functions that are 
broken or don't work well, and (3) what kind of solutions we can bring 
to the table to improve public land planning through the revision 
process under the new National Forest Management Act (NFMA) planning 
regulations. By necessity, our comments will be critical to some 
degree. However, please keep in mind that we are here to be productive 
and to help develop ways to improve USFS planning functions.
    Ecosystem Research Group (ERG) is a Montana-based consulting 
company providing an array of environmental analyses and services 
throughout the western United States. Our company is composed of 
environmental scientists, engineers, hydrologists, foresters, 
ecologists, fisheries and wildlife biologists, economists, and modeling 
and Geographic Information System (GIS) specialists. We have worked for 
several federal, state, and local units of government as well as law 
firms and industry, concentrating on science-based research and 
solutions to characterize and resolve environmental issues. As a 
company, we have worked on five forest plan revisions in three states, 
including two for which we developed entire forest plan alternatives.
    This hearing focuses on forest planning and forest plan revisions. 
While everyone still is getting up to speed with the new regulations, 
the 1982 regulations are being phased out. The Beaverhead-Deerlodge 
National Forest (BDNF) Forest Plan Revision is being conducted under 
the 1982 planning rules. Most of the examples we discuss will come from 
the BDNF planning process.

          CONDITIONS THAT SHOULD GUIDE FUTURE PLANNING EFFORTS

    Since initial forest plans were drafted in the early 1980s, our 
understanding of forest science has vastly improved. Scientists have 
made huge gains in understanding how natural disturbances such as 
wildfire and insects have shaped forests in the West. Also, scientists 
and managers have an improved understanding of how human actions like 
fire suppression have changed the structure and resiliency of forests 
to fires and insects (Hartwell et al., 1999).
    On a majority of national forests, fire ecologists have modeled 
and/or mapped historical disturbances (Losensky, 1995). This has 
allowed resource managers to identify the Historic Range of Variability 
(HRV), which provides an important reference point to past conditions. 
Average conditions of the past aren't necessarily attainable or even 
desirable given today's social demands. Understanding HRV, however, 
does provide us with a template for retaining or restoring 
representative elements of historic forests. This is a key element to 
ensuring long-term species viability and is comparable to Aldo 
Leopold's sage advice of 70 years ago: ``The key to successful 
tinkering is to keep all the pieces.''
    Another factor that has changed since the early 1980s, is that the 
national forests have developed proven and predictable techniques for 
reintroducing disturbances to restore historic conditions. For 
instance, techniques using selective logging followed by prescribed 
burning to restore old growth ponderosa pine are well-documented in the 
literature (Hillis et al., 2000). Also, the scale at which forest 
restoration is performed has completely changed. Vegetative treatments 
are now designed with consideration of the extent of past wildfires and 
insect outbreaks, to help form the shape and size of projects. The 
result is that new projects retain a more natural mix of edge and 
interior forest, a factor critical to protecting many wildlife species. 
Such landscape-scale treatments also look more natural, a factor that 
has substantial social value, and are less expensive to treat, a factor 
that may allow the treatment of more acres with increasingly limited 
dollars.
    Much of the contention over forest plans and vegetative treatment 
projects has focused on wildlife impacts: During the early 1980s, 
analyses on wildlife effects were largely based on individual species. 
As a result of limited research, such single-species analyses were 
always insufficient in satisfying species viability concerns. Today, 
biologists use a coarse filter strategy (Samson et al., 2004) 
incorporating broad-scale data and an understanding of disturbance 
ecology and historic conditions to identify habitats that have declined 
or are at-risk, and focus the assessment on species dependent upon 
those habitats. This method substantially improves the efficiency of 
analyses by identifying and focusing on those species that are actually 
at-risk and by not wasting analysis on species that aren't at-risk.
    Lastly, the USFS has electronic analysis tools that were unheard of 
in the early 1980s. The USFS has the ability to map various forest 
resources using GIS based on satellite imagery or other forest data. 
Such maps allow managers and the public to visualize the spatial 
arrangement of a multitude of forest resources, from goshawk nesting 
habitat to stands at risk from insect outbreaks. These tools vastly 
improve the ability of the Forest Service to analyze and disclose 
effects.

  PAST EVENTS AND CURRENT CONDITIONS IMPEDING FUTURE PLANNING EFFORTS

    The previous discussion concerning all the excellent tools 
available to managers suggests that (1) planning at both forest and 
project levels should be inexpensive, (2) decisions should be 
defensible against appeals and litigation, and (3) decisions should 
have wide public support. Obviously, that's not the case. So, what has 
gone wrong, and what factors impede the agency's ability to do more 
efficient and defensible planning?
    The laws that regulate Forest Service planning are the National 
Environmental Policy Act of 1969 (NEPA) and the NFMA of 1976. NEPA and 
NFMA have had some very positive impacts on the planning process, 
including the following: (1) they brought the public into the decision 
process, (2) they made the planning process transparent, (3) they made 
the agency accountable, (4) they established a legitimate role for 
wildlife and other resources, and (5) they mandated monitoring to 
ensure that project outcomes matched project expectations.
    If there's a shortcoming in NEPA and NFMA, it's that those laws are 
very, very complex, expensive to administer, and difficult to meet. 
Because of that complexity, those laws are very easy to challenge. 
Special interest environmental groups have become extremely proficient 
in demonstrating that many USFS projects do not comply with the minutia 
of NEPA or NFMA. Think of it this way--a project that is 99 percent in 
compliance with NEPA or NFMA will still lose in court, regardless of 
its merits.
    Another shortfall in NEPA or NFMA is that the requirements are 
often out of proportion to the risk when conducting some simple, 
routine ``no-brainer'' projects. For instance, a recent project in 
Missoula's Wildland Urban Interface involved thinning approximately 260 
acres of ponderosa pine. The stand had not burned in 85 years and was 
within a landscape that historically burned every 15 years. The stand 
stocking was roughly three times what the stand could support and was 
at extreme risk to insect outbreaks and/or severe wildfire. 
Furthermore, it was adjacent to and upwind of a high-density housing 
area. The science and economic analysis indicated that commercial 
thinning followed by prescribed burning could restore the stand and 
protect homes in the area. Unfortunately, NEPA and NFMA requirements 
mandate a costly analysis and monitoring plan to ensure that such 
projects can survive court challenges. In this case, the project was 
litigated and upheld by the courts. Unfortunately, the cost to 
taxpayers was many times greater than it should have been, based on the 
project's simplicity. Clearly some aspects of NEPA and NFMA need 
adjustments to make planning decisions more efficient and less costly 
to taxpayers.
    During our review of the last four Forest Plans in South Dakota, 
Wyoming, and Montana, ERG staff have identified an unsettling pattern 
in forest planning. Here's what we've observed: (1) Forest Planning 
Teams typically evaluate the disturbance ecology and objectively 
calculate the levels of disturbance needed via logging and/or 
prescribed burning to sustain healthy forests; (2) then, they compare 
that level of disturbance either against what budget levels they have 
received or are likely to receive in the future or against the amount 
of contention they expect from the environmental community; and (3) 
they do one of two things--they artificially limit the alternatives to 
what they expect will be, funded, or they reduce the outputs to a level 
that they subjectively feel won't warrant a challenge from 
environmental groups. In two of the four forest plans reviewed by ERG, 
the Forests then ``bent'' or deliberately misinterpreted the science to 
justify why such a reduction in outputs was scientifically justified.
    ERG understands the approach taken by planning teams. The teams are 
aware that, regardless of how much treatment is needed, the money 
required won't be forthcoming. They are also aware that the NEPA and 
NFMA litigation costs will likely exceed the expected project benefits, 
and regardless of what they do, they'll be in a constant battle with 
the environmental community. Modern forest planning is not an easy 
task.

     SPECIFIC FINDINGS ON THE BEAVERHEAD-DEERLODGE NATIONAL FOREST

    ERG's review of the BDNF Draft Environmental Impact Statement 
(DEIS) and Draft Forest Plan had similar findings to the four other 
national forests plans we critiqued:
    1. The BDNF can be characterized as having outstanding wilderness 
and roadless areas, blue ribbon trout fishing streams, and some of the 
best elk hunting in the country. Categorically, the BDNF is not a ``big 
timber forest'' like the Idaho Panhandle National Forest.
    2. The Forest's ecological analysis showed that the BDNF timber 
stands have been strongly influenced by wildfires and insect outbreaks. 
That analysis also concluded that those stands are older and denser 
than they were historically, and are substantially more at risk of 
higher-than-normal levels of severe fires and insect outbreaks. These 
changes are the result of fire suppression. Timber harvest did not 
occur at a scale great enough to offset the impacts of fire 
suppression.
    3. To put that finding in context, the 1986-1987 Beaverhead and 
Deerlodge plans allowed for -36 MMBF (million board feet) of timber 
harvest per year, albeit substantially less harvest than actually was 
accomplished. Also, under the old Plan, the Forest has carried out some 
prescribed burning, mostly on non-forested sites. While that seems like 
a moderate amount of disturbance, the Forest's stands have continued to 
get older, denser, and are more at risk to higher-than-normal levels of 
severe fires and insect outbreaks. As a result, we expected that at 
least one alternative in the DEIS would have be designed to introduce 
enough logging and prescribed burning to reduce age class and stand 
densities to historic levels. No such alternative was presented.
    4. Instead, the ``expected output'' (that amount of timber expected 
to be sold per year) was disclosed by the five alternatives as 9, 9, 
0.5, 15.7, and 9 MMBF. That's a 75 percent reduction from the 1986 
Plan's timber output, and an inadequate range of alternatives as 
mandated by NEPA. The current range of alternatives appear to violate 
NFMA by being in direct conflict with Section 219.12(e), which states 
in part, ``As a minimum [emphasis ours], the analysis of the management 
situation shall include the following: (1) Benchmark analyses to define 
the range within which alternatives can be constructed. Budgets shall 
not be a constraint [emphasis ours].'' More importantly, those 
anticipated levels of disturbance come nowhere close to what is needed 
to keep forests from further aging, and succumbing to increasingly 
severe fires and insect outbreaks. The 9 MMBF figure used in three of 
the five alternatives was cited as the harvest volume best representing 
the timber that could be sold, based upon the dollars likely available 
to do the necessary NEPA analyses, timber sale contracts, and 
administration. Thus, the 9 MMBF was used as a budget-driven 
constraint, although it had nothing to do with modeled vegetation 
management needs.
    5. Management ignited fire (prescribed burning) and wildland fire 
use (wildfires that are allowed to burn when conditions are within a 
pre-established set of prescriptions) are disclosed in the DEIS as the 
management actions that will keep forests healthy, improve age class 
diversity, restore stands of aspen, sustain big game winter ranges, and 
reduce the severity of wildfires and insect outbreaks. We question the 
social and economic reality of this approach. Monies for performing 
prescribed burning planning and ignition have been no more abundant 
than timber preparation dollars. To the BDNF's credit, USFS staff has 
completed much needed prescribed burning on grasslands, in grass/
shrublands, and within open, Douglas-fir communities. Most of the 
BDNF's stands, however, are dense, lodgepole pine. Lodgepole pine 
forests only bum under fairly volatile conditions. If the BDNF is 
serious about its intent to utilize prescribed burning to recruit aspen 
and achieve better age class diversity from within lodgepole pine 
forests, Forest staff would be igniting lodgepole pine forests on a 
windy, 80 degree September day. This is not a likely or reasonable 
scenario. To assume that wildfires could be allowed to burn under 
``wildland fire use'' is equally unlikely. The harsh reality of this 
strategy is that budgets for prescribed burning project design and 
ignition have remained flat, just like timber preparation budgets. 
Additionally, the agency has shown no willingness to allow managers to 
take substantial risks during burning. In fact, the opposite is true. 
Recent litigation has reduced the agency's willingness to take risks 
during prescribed burning. In summary, the DEIS's reliance on burning 
can best be described as ``wishful thinking.''
    6. Prior to Forest Plan revision, the BDNF conducted landscape-
scale analyses for all major watersheds under the agency's direction to 
conduct ``watershed analyses at the landscape scale'' (EWAS). Those 
EWAS analyses not only were based on an excellent understanding of the 
disturbance ecology, but also recognized the social values specific to 
each landscape. Amazingly, the DEIS largely ignored those findings. 
Restoration treatments recommended in Rock Creek were discounted as 
being ``too controversial.'' Treatments recommended in other landscapes 
were disregarded as they were above and beyond the anticipated timber 
preparation budgets.
    7. The BDNF has failed to address the local economic effects of 
substantially reducing the acreage of suitable timber. Also lacking are 
the economic cost tradeoffs of suppressing increasingly large and 
intensive wildfires resulting from denser and older forests.
    8. Private lands and local communities are increasingly at risk 
from catastrophic wildfire; this risk stems from a management 
philosophy that relies dominantly on fire as the principle disturbance 
tool, up to the Forest boundary, in some cases.

                  HOW CAN WE IMPROVE FOREST PLANNING?

1. Anchor to Science
    Sound science will provide a strong and defensible rationale for 
accounting for the needs of the Forest, its diversity and structure, 
and the dynamics necessary to keep the forest within its HRV. Once 
science has characterized the forest, social and economic goals and 
realities can necessarily influence how the Forest will be managed to 
achieve ecosystem objectives.
2. Maintain Working Landscapes
    Always manage the Forest in the context of larger working 
landscapes. In many cases, the Forest has a narrow range of habitat 
variability compared to the larger landscape. Holistic decisions 
regarding the Forest will positively affect the future of adjacent 
lands that leverage the natural resource values of a larger ecosystem. 
Conservation biologists are increasingly voicing their concern that 
conversion of private open lands is especially significant in reducing 
indigenous biodiversity (Knight, 1999). The USFS forest planning 
process must give great consideration and evaluation to what positive 
and negative impacts these plans have on adjacent communities and their 
human ecosystems. At the 2003 National Society for Range Management 
meeting, a USFS employee wrote, ``The emphasis of local ranches that 
hold public land grazing permits has changed over time from a locally 
dependant livestock industry to important sources of open space and 
habitat to maintain biological diversity in the rapidly developing 
mountain West'' (Bradford, 2003).
    Forests that maintain both a flow of economically important goods 
and opportunities result in vibrant local communities. Stewardship 
contracting can improve the benefits to local communities while 
providing a funding mechanism to accomplish projects. A complete 
economic assessment of tradeoffs in management alternatives, such as 
funding an active timber management program compared to fighting larger 
and more intense wildfires, can be the basis of minimizing taxpayer 
costs. As demand among competing and often diverse interests for scarce 
forest resources rises, land managers are required to justify how such 
resources are allocated and to whom costs and benefits will accrue. For 
example, in the case of roadless area designations vs. timber 
allocation, the Forest Service is required to decide upon mutually 
exclusive outcomes. In both cases, social, economic, and ecological 
ramifications will result in an array of costs and benefits over time. 
Determining the most optimal solution, based on a well-defined set of 
objectives, necessitates understanding the relationship between 
resources, total costs and benefits, opportunity costs of making such 
decisions, and a profound understanding of how resources are affected.
    Economic analysis provides an objective approach to help land 
managers make effective decisions about resource allocation, regardless 
of land management objectives. Such analysis is essential to making 
decisions and, moreover, justifying those decisions to community 
groups. Economic analysis can be used to provide the following:

    Systematic and objective analysis of economic effects on industry 
and communities;
    Market values and revenue potential for forest products and non-
timber forest products (NTFPs);
    Supply and demand analysis of markets;
    Opportunity costs used to evaluate tradeoffs among objectives, and, 
more importantly, the value of USFS planning alternatives;
    Values of non-market goods and services, including wildlife, 
recreation, old growth forests, and wilderness areas; and
    Long-term assessment of fire management programs, including risk 
and expected outcomes.
3. Focus on Landscape-Scale Treatments and Forest Restoration
    Past vegetation projects have often created fragmentation and 
excess roads that resulted from small patches connected by permanent 
roads. Science has documented that disturbance in many of the dominant 
tree cover types common to Montana occurred in large, infrequent 
events. Future projects should mimic the scale and intensity of 
disturbances that the forest has incurred historically. Returning to 
old treatment areas to restore naturally-sized patches and subsequently 
reducing unnecessary roads can be economically viable and beneficial to 
ecosystem restoration goals. Such reentries, driven by vegetative 
restoration, can fund other needed restoration activity that otherwise 
would be dependent on appropriated funding. Future projects should be 
designed to mimic natural patch sizes, minimize new permanent roads and 
be implemented at the landscape scale.
4. Provide Strong National Planning Leadership
    Implementation of Forest Plans has been stifled by legal challenges 
by a minority. Such challenges are often successful because of 
inadequate Forest Plan analysis or documentation. Projects designed to 
implement Forest Plans are impeded by tiering off of inadequate Plans. 
The National and Regional offices can assist the Forests by providing 
strong, legally defensible direction regarding NEPA, NFMA, and 
Threatened and Endangered and Sensitive species that utilizes the 
expertise and experience of the Office of General Counsel. Emphasis 
should be on avoiding fatal flaws that provide the basis for successful 
legal challenges to Forest Plan implementation.

              SOME COMMON INFORMATION WE NEED TO CONSIDER:

    As a result of nearly a century of fire exclusion, and timber 
harvests that have not kept up with growth, forests are generally older 
and denser than they were in the past.
    In addition, long-term drought and global warming make inevitable 
wildfires and insect outbreaks occur at larger-than-normal and of 
higher-severity-than-normal levels.
    Aggressive management to reduce forest stocking can soften but not 
avoid those events.
    The United States suffers from a severe trade imbalance. In the 
1970s the United States was a timber exporter. Currently, the United 
States is a timber importer. Thus, we import timber from countries with 
poor environmental standards, while watching our own timber die from 
wildfires or insects, and then we make little effort to salvage the 
value from those dead trees. The logic escapes us!

    Senator Burns. Thank you. You and I need to have a cup of 
coffee. You've done some great work down there. As we end up 
the formal part of the witnesses today, I've got a couple of 
questions I want to ask. I'll start with you, Mike.
    Back in the early 1990s we started to look at the new 
technologies that were coming down as far as telecommunications 
were concerned. There was a technology out there called 
digital, and we were trying to deal with all these new things 
happening, not only in communications but in information 
services and this type of thing, and trying to deal with them 
with a 1935 law. I think I made a speech where digital is going 
to take away our ability to delineate or to tell the difference 
or any characteristics whether it's AM or FM radio, whether 
it's data voice or video or anything like that, but we will be 
talking about that band width.
    Are we talking about something simpler by your statement 
today as far as when we look at the National Forest Management 
Act and NEPA? Are we looking at something that's 25 and 30 
years old that maybe should be looked at again because we're 
trying to deal with today's challenges with a law that's not 
outlasted its usefulness but has to be changed to deal with the 
times?
    Mr. Hillis. Let me start by saying that I think there's 
aspects of NEPA and NFMA that are wonderful: Public 
involvement, mandated values for scenery and wildlife and 
things like that. But keep in mind that those laws were written 
when the goal of timber harvest was to optimize timber yield 
for communities, period. Okay, that's, 29 and 36 years old.
    Today timber harvest is done under three basic principles: 
It's done to mimic historic disturbances whether that be fire 
or insects or whatever. It's done to mimic the scale at which 
those disturbances occur, so that it looks pretty good. It 
makes more money. It's cheaper, and it's done largely with less 
reliance on permanent roads. So basically, the whole game plan 
has changed in terms of how we use science, how we use social 
values and economic values to adjust all of that.
    I'd say don't throw the baby out with the bath water. Keep 
those aspects that make good sense, but recognize that the game 
has changed, and there are aspects that make much better sense 
today. If we can recognize the past and that's part of our 
history, but also recognize where we need to go using the best 
science, maybe we can get past some of this angst that we all 
feel.
    Senator Burns. I agree with you, you don't throw the baby 
out with the bath water. The other day we threw the baby out 
and kept the bath water. Congress has a habit of doing some of 
those kinds of things. We operate in 17 square miles of logic-
free environment. We have quite a challenge.
    Chief, the reason I brought up the Beaverhead-Deerlodge is 
because of the drastic changes of the ASQ and the wilderness 
designation, and down there that you're going through the 
process now that whenever you have moves like that, that's a 
huge move.
    What's the problem there? Are we using a different kind of 
method to analyze how we select what should be designated as 
timber harvest or wilderness or whatever? Or, did we change in 
the middle of the process to where these numbers would be 
drastically changed?
    Mr. Bosworth. I think in some degree we're comparing apples 
with oranges. The old plan had an allowable sale quantity of 
approximately 43 million board feet, something like that. 
Throughout the life that's an upper limit. You get an allowable 
sale quantity and there's an upper limit for all the forest 
plans.
    The last several years the average timber harvest on the 
Beaverhead-Deerlodge was in the vicinity of 9, 10, 15 million 
board feet, somewhere in that vicinity.
    Under their proposed plan, they would still be offering 
approximately that amount, that number would not be an upper 
limit. That number would take into consideration the needs of 
the land, the expected budgets, the amount of land where timber 
harvest would be needed. There wouldn't be anything that would 
prevent an increase in that amount other than budgets.
    So what they're trying to do is they're trying to come out 
with a forest plan that would explain to people how much timber 
they would expect over the next several years, taking all these 
things into account that they would be offering, and that 
number is in the vicinity of 9 to 10 million board feet again, 
comparing that with the 43 million would be comparing it with a 
different number.
    Senator Burns. In other words, are you trying to tell me 
that even though we're recommending this lower number, that 
does not create a ceiling on how much timber will be available?
    Mr. Bosworth. That number is not an allowable sale quantity 
number. An allowable quantity sale number is the ceiling.
    Senator Burns. It's just like if you designate so many 
acres, though, that we manage as wilderness, are you saying 
there could be less or could be more?
    Mr. Bosworth. I think under the proposed plan there's an 
increased recommendation for wilderness, approximately--I think 
the number is about 6.5 percent of the Beaverhead-Deerlodge 
National Forest right now is in wilderness. Under this proposed 
plan I believe it would move up to about 13 percent of the 
total forest in wilderness under that recommendation.
    Again, they just went through a process for public 
comments. They've got a significant number of comments. Now, 
we're going to evaluate those comments, and we'll be making 
some adjustments to that proposed forest plan. So that's how we 
try to work this to make sure we hear what people are saying, 
come out with something that people can get their teeth into 
and give us their comments, and we'll make some adjustments.
    Senator Burns. Mr. Anderson, you're a part of a coalition 
of lumber companies that are concerned about the Beaverhead-
Deerlodge forest down there, and I think you went as far as you 
hired a private consultant to review the Forest Services' work; 
is that correct?
    Mr. Anderson. That's correct.
    Senator Burns. Did you get that report? Have you had that 
report yet?
    Mr. Anderson. We have received it, yes.
    Senator Burns. Can you give us some kind of an idea of what 
that report looks like?
    Mr. Anderson. I covered parts of it in my testimony and, of 
course, my written testimony covers it in more depth. But some 
of the facets that have been discussed here already, and that 
is the ASQ, are not addressed in the proposed plan. So from a 
timber company standpoint, what do we have to look forward to?
    In listening to John, I was kind of throwing some numbers 
together in my head, because he's saying that they have 4 
percent of the national forest. I'm saying that we get 4 
percent, so I'm not sure where the other 92 percent is going. I 
was kind of gratified when Russ said they got 40 percent. All 
we got to find is another 50 some percent.
    But at any rate, back to your question. What we found, of 
course, were numerous things in the plan that were just riddle 
full of holes so to speak. We submitted our comments, and we're 
hoping that they take those into consideration seriously and 
look at revising their plan to what we feel makes more sense.
    Senator Burns. Mr. Keegan, I have to ask you a question. As 
a Forest Service, have they put enough sales just to kind of 
keep up with the mortality that we have in the rate share in 
Montana?
    Mr. Keegan. Senator, I don't have the State inventory 
figures with me today, but certainly----
    Senator Burns. Do you have those figures somewhere?
    Mr. Keegan. I do have those figures. I can provide them. I 
can provide them to you for the State of Montana. I guess I 
will be glad to talk to the Region 1 Forest Service folks and 
discuss that.
    It's clear from the State level inventory that, at least 
there is an excess of--and the Chief can agree or disagree if 
he has different information--but it's clear that that's an 
excess of growth over removals and very high levels of 
mortality on national forest lands in Montana.
    Senator Burns. Whenever you look--when you're coming over 
Homestake Pass and you look off to your left, if you're going 
toward Butte, and you see all of that bug kill out there, I 
think that's what gets my notice more than anything else. Is 
there a way we can deal with pine bark beetle, Chief?
    Mr. Bosworth. There's lots of ways to deal with pine bark 
beetles. One is to get out ahead of it and make sure that we've 
got the right stocking so that when bark beetles attack, the 
trees are more resilient to bark beetles. Remember now that 
bark beetles are a natural, native insect. It's just that 
they're reacting in an unnatural condition, which is too many 
trees. We have a number of acres in the State as well as around 
the West that are attacked by bark beetle.
    There again, we have tools that we can use. The problem 
isn't the science. The problem is being able to get out and get 
the job done and withstand all of the appeals and the 
litigation and finally being able to do that.
    Senator Burns. John, you know, you kind of work on the 
other side of this thing and you see what's happening out 
there. How would you deal with this pine bark beetle?
    Mr. Gatchell. Well, the Butte District had a sale that we 
supported through that very area that you're talking about. 
It's difficult, so we've been supportive of dealing with that. 
Part of it, I think, is being able to look across this 
landscape and start building some new partnerships that allow 
us to be supportive of projects like that, so that there isn't 
as much process involved, so that we have some clarity about 
the fact that some of these lands are going to be managed for 
timber values and the forests are just going to move in that--
--
    Senator Burns. But how would you deal with that bug, that's 
what I'm asking.
    Mr. Gatchell. Tie them up actually and use them in the 
North Fork for cutthroats; they're pretty good.
    Senator Burns. Specifically, if we get the science out here 
and the Chief has the tools to deal with pine bark beetles--and 
I think we're in a crisis in this forest. You drive up here in 
northwestern Montana, up in the Yak, and it's terrible. If 
they've got the tools--and it's my understanding the only way 
you deal with the pine bark beetle--now granted, we had an 
increase in pine bark because we had drought. I understand they 
had sick trees, that's been stretched. The only way we've got 
to deal with that bug is get those trees out of there. Do you 
support that?
    Mr. Gatchell. Do I support cutting trees? We have supported 
numerous projects that involve doing that. I think there's also 
a climate factor. If you look at the science, you'll see that 
the warmer winters are really having a big affect, that's one 
of the reasons you're seeing so much of this.
    Senator Burns. What we've got to do is deal with the 
affect, and I don't want to deal with the symptom. I want to 
deal with the bug. To resolve that, what I'm asking these two 
communities together is to come together in some way. He has 
the tools and recommendations and of a way to deal with it, 
then I think that's where we really need you to intervene with 
the Forest Service to make sure it gets done.
    Mr. Gatchell. May I speak to that, Senator? An example was 
a project actually in Rock Creek, there was some discussion 
with Rock Creek. I understand from the district ranger she's 
offering a contract now on a sale that involves thinning 
without building roads and included four inventoried roadless 
areas. We're hoping to help showcase that as a model of what 
could be done to deal with situations where you've got crowded 
trees from fire suppression, and we did intervene with the 
Forest Service.
    Senator Burns. I'm a great believer, you know, God does a 
pretty good job, as a rule, of running and taking care of his 
acres out there, but every now and again he needs a little 
help. We have this lawsuit over categorical exclusions that 
shutdown a lot of things going on. Can you give us an idea, 
Chief, on the use of categorical exclusions by the Forest 
Service and how that's impacted you on forest stewardship and 
what you want to do as far as forest health is concerned.
    Mr. Bosworth. It's a significant impact. We use categorical 
exclusions in places where we've gone out and developed a rule 
and projects we believe will have a minimum amount of affect on 
the environment. The purpose is to be able to make quick 
decisions and get out and move with those.
    Under that decision, under that court decision, we have to 
go back out with those comments and appeal for those very small 
projects, that adds probably 130 to 135 days to the process, 
something like that. Ninety projects in Montana would be 
affected by that.
    That means in some cases that the project will never 
happen, because it just takes longer, and it also takes more 
documentation, a bigger file, that takes peoples' time to get 
all that documentation in place to deal with the appeals. So 
you end up with a number of projects that either don't get 
done, or by the time they do get done, the insects have moved 
much further.
    In some cases the delay of 130 days may be more like a 6-
month delay because you go through the winter and you can't get 
back out there until the springtime. So there's a variety of 
effects that are caused.
    I'd like to add just one thing that Mike Hillis was talking 
about a little bit, and it has to do with the overall NEPA and 
NFMA, as he was saying, that these were developed in a 
different time. They were developed during a period when we in 
the Forest Service were focusing on extraction of natural 
resources, and those laws were established to either mitigate 
for those effects or to slow down the extraction process.
    Today we're in an era of restoration, trying to restore 
these ecosystems. The very same laws that slowed down the 
extraction slow down the restoration process. In many cases, we 
don't get the restoration work done that we need to have out on 
the land.
    Even though we work in a collaborative approach today, 
organizations like Montana Wilderness Association will work 
with us as well as the timber industry and in many cases come 
up with a proposal, but we still get litigated by other 
organizations. So even though many of us can work together, we 
still go through litigation and don't get these things done.
    Senator Burns. Well, I'm glad we have both of you on the 
advisory committee when we start revising and reforming these 
two acts. But I agree with you. I agree with you. I don't know 
exactly how we should approach that, but you know, it's a funny 
thing about law, and it's a funny thing about policy, it's a 
double bladed axe. It cuts both ways. Some way or other we've 
got to get by that it just seems like to me and to work hard on 
that.
    Mr. Keegan, I had another question for you, and I lost it. 
Did you want to make a comment on those laws? That would be 
kind of interesting.
    Mr. Keegan. What I will comment on is a concern that Dr. 
Carl Fiedler from the College of Forestry and Conservation and 
I have had in our work. Most of the work that we've done on 
restoration, that I have done on the financial end of it--the 
economic end, has come from Dr. Carl Fiedler, and it echoes a 
lot of what we have seen and heard here today. And that is, 
there is a great opportunity out there both with forest 
conditions to generate dollars to pay for the improvement of 
those forest conditions and generate employment, but that's not 
being taken advantage of because there are certain individuals, 
and limited number of individuals and groups that will oppose 
any project that produces a commercial product.
    Many of the prescriptions to deal with these forest 
conditions by necessity require removing material that has 
commercial value, 8 to 20 inch diameter douglas fir trees, for 
example, that pay for the prescription.
    So that offers a great opportunity not only to do more 
treatments and generate revenue but generate employment. But 
there are groups that are litigating virtually every project 
that has a commercial output and either stopping the project or 
causing some of the modifications in projects to eliminate 
projects and make them actually less effective because they are 
not doing a full comprehensive prescription.
    Senator Burns. Russ, it just seems like to me when we 
looked at all the forests in restricting motorized travel in 
some areas that some of your roads were shut down. They're 
trying to compact or concentrate motorized travel in some areas 
where I think it would probably have more damage and ecological 
damage to the land than if it's spread over a large area. Is 
that a wrong assumption?
    Mr. Ehnes. No, actually that's exactly true. Dispersing 
recreation is definitely the key to sustaining, along with 
active management. But just concentrating those uses into 
smaller and smaller areas certainly concentrates those impacts 
as well.
    Erosion or damage to trails is like pollution in that the 
solution to pollution is dilution. That is also true with use, 
spread the impacts over a wider area.
    Senator Burns. How do you make those decisions, Chief, on 
these motorized things?
    Mr. Bosworth. Well, the----
    Senator Burns. I tell you what. The reason I ask you that, 
as you move from forest to forest and even ranger station to 
ranger station, different methodologies are used to make a 
decision. How do we standardize that to get some consistency 
when we start the debate on motorized versus no motorized?
    Mr. Bosworth. Well, for one thing we just recently came up 
with the final rule for travel management. That's part of the 
purpose of that rule, was to have more consistency around the 
whole country in terms of the way we approach travel planning 
and off-road vehicle use.
    This rule will be in effect in December, here in a couple 
of weeks. I can't remember the exact date. The expectation is 
that the forests now will be working with the community of 
interest to designate which roads and trails are appropriate 
for motorized vehicle use. Of course, that would be within the 
context of forest plans. It's a great collaborative approach.
    What we really want to have is a series--system of roads 
and trails where people with motorized vehicle recreation 
desires can go out and have a good experience. We also want to 
have it so that the land is in good condition, so that the next 
generation of people can also go out and have similar kinds of 
experiences.
    So now it's a hard job for the forest at the local level 
working with the motorized user community as well as the 
environmental community or the folks that prefer to backpack 
and work together and figure out which trails and which roads--
or which new ones we should be putting in.
    We don't have a lot of dollars for adding new trails, but 
we have a lot of partnerships. The motorized vehicle community 
is very willing to try to help us even constructing and 
maintaining roads and trails for motorized use.
    I think once we get it figured out, trying to find that 
balance of where we can have those motorized roads and trails, 
I think that we'll be able to sustain that, and we can provide 
the kind of experience that people would like to have.
    Senator Burns. I'm just afraid if you concentrate, you keep 
closing up and you keep concentrating, your impact on that land 
will be much greater than if we were more dispersed.
    Mr. Bosworth. There's no question that if you limit, 
significantly limit, the number of places where people can go--
if you had one trail for all the users, then we've got one 
trail that would just get beat to heck.
    If you have 10 trails then they're probably going to have 
only 10 percent of the use on each individual trail. So we do 
need to have an adequate system of trails for people to go. We 
also need to have an adequate system of trails for people who 
don't use motorized vehicles, that like too backpack, for them 
to go. It's making sure we have the right balance out there for 
people to have that opportunity.
    Senator Burns. Concentrating that you have to start putting 
up traffic lights. Do you need some more money? Are you 
requesting more money to manage your recreation resources in 
the national forests? Have we had a switch in the request of 
funds as you go through this process of forest products, 
recreation?
    Mr. Bosworth. We're--with the----
    Senator Burns. Let's find out what to look for here in this 
next request.
    Mr. Bosworth. I'll take a hard look at it, because under 
this budget climate the conditions, as you well know, dollars 
are difficult right now. We are trying to find more creative 
ways of being able to get the dollars to do the job.
    When I say creative ways, we would use other kinds of 
dollars appropriated, like some wildlife habitat dollars, 
watershed improvement dollars to help us figure out which road 
and trails in that system, because it doesn't all come from 
recreation dollars, that's what I'm saying.
    By doing a good job of management you improve the water 
quality, improve the habitat for wildlife by controlling and 
managing and having a good adequate system. So the answer to 
that is we're trying to find other ways to be able to--as well 
as working in partnership--to be able to do the job that needs 
to be done for travel management.
    Senator Burns. Do you want to respond to that, John? You 
look like you've picked up a little interest here.
    Mr. Gatchell. Thank you, Senator. Two things: One is that 
when it comes to weeds and user impact, user conflicts, 
conflicts with traditional uses not only backpackers, hikers 
but people on horse back--and I will give you the science on 
this, of Montana trail users spreading impacts over a larger 
area is not a good solution. I do agree with Russ that we need 
sensible limits. We need responsible limits and good 
management.
    But spreading those into larger areas that have 
traditionally not been motorized use areas, where we have foot 
and horse trails, would be very destructive for other uses and 
other issues.
    Second, I think that as we look at budgets, it just kind of 
hits you over the head that the Forest Service is not budgeted 
to maintain a fraction of the road system that's been built, 
that we have new technologies today.
    One of the answers here is to start thinking--and we 
supported a bill several years ago--believe it or not, we 
supported a bill by the Trail Vehicle Riders that gave the 
forest supervisor authority to allow vehicles on Forest Service 
roads.
    All-terrain vehicles never belonged on our pack and saddle 
trails. They don't fit on them. They're not a traditional or 
historic use. We supported that bill because we do agree that 
they should have somewhere to go.
    I think that you might think about funding a program that 
may be a pilot of converting roads to trails, not only for that 
use but also bicycles, because there's a tremendous demand for 
trails in this State, and they're cheaper to maintain.
    That doesn't necessarily mean that we're turning those 
lands, taking them out of the timber base, because we have 
different means of doing that. So I think that's one way to 
expand the pie so we all don't end up fighting over the same 
ground.
    Senator Burns. You say road to trails, I've got to tell 
you--remember when we did Roads to Trails? You know, everybody 
said we're so bad. It's unbelievable. Do you know who did that? 
It was done in the highway conference, Transportation 
conference bill, it was Steve Symms and I that got that pushed 
through Congress.
    I think it's been a pretty successful program. I support 
some of those programs. I want to maintain the infrastructure 
of a road system in the forest that allows us to do other 
things other than just timber harvest.
    I happen to look at the forest as a renewable resource. I 
don't think it's any different than a corn field in Iowa or 
grass in eastern Montana. It's renewable. They grow, and they 
produce and they die. We harvest and we take care of the soil, 
and we go for another crop. That's one of the great things 
about this State is the ability for renewables, and 
economically it makes no sense to lose more trees every year, 
more than we're actually harvesting in all of our forests. That 
would basically do two things: It would make the forest more 
healthy and more productive and more recreation to enjoy. When 
you think about that, that's kind of a win/win for everybody. 
We get down to that.
    I've about run out of questions. I'm going to follow up and 
have a cup of coffee with Mike Hillis. I want to help him 
rewrite these laws. I think we have multiple users here today 
that listen to you. From this we can get some collaborative 
thoughts.
    But I think the Forest Service--and as good as the Chief 
is, the problem I see in the Forest Service you've got people 
within the service that have different agendas where basically 
they should all be going in the same direction, and that's our 
biggest problem, I think, whenever we start putting the policy 
on the ground.
    I realize it's hard to control staff. I know I have a hard 
time at it. But I'm telling you, there should be one philosophy 
and everybody should be working toward that philosophy. I 
really believe that today.

                   ADDITIONAL STATEMENTS AND LETTERS

    Am I forgetting anything? We appreciate--and anybody else 
that wants to make a comment and make it part of the record, 
we'll sure do that. Then you may have some questions from the 
rest of the members of the committee.
    Those of you who are here today, if you could respond to 
those questions to the individual Senators and to the 
committee, I would be most appreciative. This record will be 
kept open until December 16.
    Where you signed in the address is where you send your 
comments and so that we can take a look at them.
    [The information follows:]

             Prepared Statement of Greg Wehr, Deerlodge, MT

    Senator Conrad Burns: I attended the field hearing in Missoula MT, 
on Dec. 2, 2005.
    I started a round woods products business 21 years ago. Wehr's Post 
and Pole and Whispering Pines Pole Co. LLC.
    I am writing you concerning the round wood industry in region 1. We 
who work in the round wood industry are the people who produce the 
fence rails and posts for most of the western United States. In the 
Philipsburg Ranger District we have seen a decline from a yearly 
average of 20 to 30 round wood thinning timber sale contracts, to just 
4 sales in the last 3 years.
    In the last 4 years in Granite Co. we have lost 2 pole yards. With 
a loss of jobs and revenue in our local economy.
    Post and pole sales have never been contested by the environmental 
community. The Forest Service cites budget constraints as the reason. 
But yet the sale of post and pole sales generates revenue for the 
Forest Service District.
    The Forest Service use to pay people to thin the type of timber 
that we now pay them to thin.
    The work that we in the round wood industry do is exactly what the 
Forest Service says needs to be done we reduce the fuel load and create 
a more vigorous and healthy forest. Its a win win for our forests and 
our communities.
    I would like to see mandates given to the Forest Service as to 
quantity of saw timber as well as round wood timber that must be put up 
for sale in a given district every year. With this would have to 
accompany a revision of the appeals process.
                                 ______
                                 
           Prepared Statement of David Cronenwett, Dillon, MT

    Senator Burns: I am writing to encourage the conservation of 
Montana's roadless lands as Recommended Wilderness through the Forest 
Planning effort, that is taking place on several National Forests 
around the state.
    I would like to know what specifically is driving your thrust to 
undo wilderness protections for Montana's de facto wildlands. Clearly 
our high quality of life, hunting-fishing-outdoor heritage and overall 
economy are sustained by these mostly intact ecosystems.
    It is no secret that the motorized recreation industry is pushing 
to disallow any and all restrictions to manage ATV, snowmachine and 
other such recreation on public lands. They don't suggest how the 
American people will pay for noxious weed control, wildlife harassment, 
ruined hunting and camping trips and safety issues that are directly 
tied to the use of these machines in the backcountry.
    Timber can be sustainably managed on already roaded landscapes 
throughout Montana. While there is a place for motorized recreation on 
public lands, it is inconceivable for many of us as to why you would 
help undo wilderness protections which would essentially allow and 
encourage motorized use in the backcountry.
    The Beaverhead-Deerlodge forest is a magnet for ATVs and other such 
recreation. The Preferred Alternative of the forest plan strives to 
bring some balance to the area by recommending and enforcing wilderness 
management in several landscapes. While this is a great start for quiet 
recreation, water quality, and native flora and fauna, it doesn't go 
far enough by a long shot. Alternative 5 only recommends 250,000 acres 
out of a possible 1.9 million on the B Bar D.
    There are plenty of places one can drive to in the United States, 
not many where you can hunt elk on a two week pack trip. I therefore 
request that you support such Wilderness Recommendations being proposed 
in forest planning around the state, BUT ESPECIALLY ON THE BEAVERHEAD-
DEERLODGE. Such designation has a long and revered history in our 
nation; it did not simply pop out of nowhere to ruin rural economies. 
All of the data points out that protected lands do just the opposite: 
they sustain water quality, biodiversity and a high quality of life for 
the human community. Wilderness is, in fact and in law, A PART OF THE 
SPECTRUM OF MULTIPLE USE.
                                 ______
                                 
           Prepared Statement of Roger Sherman, Whitefish, MT

    Senator Burns: Today Montana has over 90,000 miles of roads and 
only 3.7 percent of our beautiful state is actually protected as 
wilderness. Our neighboring states enjoy larger percentages of 
protected wilderness and many have recently passed wilderness bills in 
a non-partisan cooperation. If we don't protect some our quiet, 
beautiful places now our children will lose it forever and I want my 
grandchildren to have quiet wilderness experiences in my special places 
of the Whitefish range and Cabinet Mountains.
    Our valleys are filling with development as Montana grows. We here 
in the Flathead are experiencing tremendous growth.
    ATVs and other motorized vehicles belong on roads not horse and 
hiking trails. Please support the National Assoc. of Counties and call 
for the Forest Service to ``expedite'' plans to set responsible limits 
on ORV traffic, to prevent the spread of noxious weeds, user conflicts 
and resource damage.
    Please forgo polarizing politics and provide a new strong 
leadership by bringing people together with creative solutions. The 
original concept of Multiple Use included a good percentage of 
wilderness. Wilderness is not a BAD word, the bible uses it.
    Thank you.
                                 ______
                                 
            Prepared Statement of Klaus H. Gump, Big Sky, MT

    Senator Burns: We are very blessed to live in this wonderful State 
Montana. But we need to keep it in the way we all appreciate it and 
love it so dearly.
    One of our greatest treasures is the wilderness in our State. When 
it is destroyed it cannot be rebuild. I urge you to do your utmost to 
preserve the wilderness in our State.
  --Less than 4 percent of Montana is protected wilderness--our 
        neighboring stated enjoy higher percentages of wilderness.
  --We have sufficient roads in our national forests. Let's leave the 
        forests wild and as habitat for wildlife, like bears, elks, 
        etc. They were there first--and they need their habitat.
  --Please do your utmost to protect the wilderness and the National 
        Forests in our State. Let's pass it on to our and your children 
        as a protected area. Preservation of wilderness is a commitment 
        for the future. You need to protect this commitment!
  --ATV and other motorized vehicles belong on roads not on quiet 
        mountain trails. ATVs ruin nature for ever. No vegetations will 
        ever grow back in the areas destroyed by ATVs.
    I hope this letter answers your questions and you will be a 
champion and leader in the protection of our great State of Montana.
                                 ______
                                 
             Prepared Statement of Linda Sentz, Choteau, MT

    Senator Burns: It's my understanding that you want to hear from 
Montanans about wilderness and wild places. Please consider my 
sentiments below.
  --People go to the mountains to find peace and quiet and open spaces 
        free from the noise of ``civilization.'' This is a legacy that 
        most Americans want to pass on to our kids and grandkids.
  --Montana already has 30,000 miles of roads on national forest lands. 
        Less than 4 percent of Montana is actually designated as 
        wilderness. Montanans and Americans want our heritage of open 
        spaces to be protected for future generations.
  --Wilderness and non-motorized wild country IS multiple use.
  --Four-wheelers and dirtbikes belong on roads, not on traditional 
        horse and hiker trails in the mountains. You should support the 
        National Association of Counties' request that the Forest 
        Service expedite travel plans that require responsible limits 
        on off-road vehicles, to prevent landscape damage and the 
        spread of noxious weeds.
  --Americans want their political leaders to provide strong leadership 
        to protect our public lands, and not play politics that 
        polarize. We need to come together to solve these problems, and 
        we can do it.
  --Let's keep our treasured public lands public. And let's protect 
        Montana's finest wild country and quiet mountain trails on 
        national forests for traditional recreation.
    Thank you.
                                 ______
                                 
  Prepared Statement of Claire Baiz, Tom Baiz, Samantha Baiz, and Asa 
                         Baiz, Great Falls, MT

    Senator Burns: As a native and lifelong Montanan, I am concerned 
about your questions regarding Montana's wilderness.
    Our wilderness legacy is a priceless heritage for our children. 
It's also a big reason people move to Montana: the open spaces are a 
deep attraction, even for those who never ``use'' them. Without our 
wilderness, we'd just be another parking lot waiting for development.
    Your Senate bill (S. 1696) was passed despite federal plans to 
recommend LESS wilderness. I applaud your co-sponsorship of S. 1696. 
With less than 4 percent of Montana designated as wilderness, now is 
the time to draw the line, for our children, for our recreation, and 
even for our economy! Wilderness IS multiple use.
    Please provide the leadership we need to preserve what's left of 
our Montana wilderness.
    Thank you for your time.
                                 ______
                                 
          Prepared Statement of Dr. Vicki Watson, Missoula, MT

    Senator Conrad Burns: I understand that you recently asked that 
your constituents let you know what we think about keeping roadless 
areas roadless vs building more roads into these areas. I feel that 
only 4 percent of Montana is actually designated wilderness and that we 
already have 30,000 miles on roads on our national forests. Hence we 
need to protect the small amount of roadless area that remains. This 
roadless land is serving many multiple uses. It supports hunting, 
fishing, hiking, wildlife viewing and tourism. It provides key 
ecosystem services like air and water purification, moderation of 
flows, wildlife habitat, soil building and more.
    These lands support the high quality of life here in Montana, 
supporting our property values and giving our kids wholesome 
recreation. These lands will not be improved by roads which spread 
weeds, increase landslides and increase the incidence of human caused 
fires. Let's fix the roads we have and not build more. Thank you for 
listening.
                                 ______
                                 
            Prepared Statement of Gregg Wheeler, Helena, MT

    Senator Burns: I am writing to encourage you to use your leadership 
to protect Montana's wilderness areas. Being able to use our state's 
wilderness areas for non-motorized recreation--hiking, backpacking and 
cross-country skiing--is an important reason why I and my family live 
in Montana. Preserving this natural heritage is vital to maintaining 
the water and wildlife resources we use throughout the state.
    I urge you to seek and support legislation that will increase 
Montana's wilderness areas and limit off-road vehicle use on mountain 
trails.
                                 ______
                                 
           Prepared Statement of Christian Frazza, Helena, MT

    There is so little ``wilderness'' left compared to all the lands 
being developed, with motorized access, or commercially exploited. We 
need more, not less. ORVs and snowmobiles regularly go where they are 
prohibited. For example, skiing at Stemple Pass, in one of the few 
areas where motorized access is prohibited, I regularly meet them or 
must ski trails torn up by them. As Helena grows it is ever harder to 
find peace and quiet. Wilderness designation, far from ``limiting'' 
people's enjoyment of public lands, allows it and ensures that there is 
somewhere left to enjoy away from roads and machinery.
                                 ______
                                 
              Prepared Statement of Jan Tusick, Polson, MT

    Senator Burns: I urge you to not to increase roads into our 
roadless lands. We go to the mountains to find peace and quiet and open 
spaces free from the noise of ``civilization.'' This is a legacy I want 
my grandchildren to enjoy, not the legacy of torn up trails and noise 
from ATV vehicles.
    Montana already has 30,000 miles of roads on national forest lands. 
Less than 4 percent of Montana is actually designated as wilderness. 
Montanans and Americans want our heritage of open spaces to be 
protected for future generations.
    Wilderness and non-motorized wild country IS multiple use.
    Four-wheelers and dirtbikes belong on roads, not on traditional 
horse and hiker trails in the mountains. Sen. Burns should support the 
National Association of Counties' request that the Forest Service 
expedite travel plans that require responsible limits on off-road 
vehicles, to prevent landscape damage and the spread of noxious weeds.
    As an avid hunter I have experienced the damage off road vehicles 
can do to trails. I also have experienced the intrusion of those 
vehicles as I quietly walked through the woods to find my deer. Enough 
is Enough--we need to protect what remaining lands we have. I urge you 
to provide strong leadership to protect our public lands, and not give 
in to the pressure from a loud minority. Look at Yellowstone and the 
damage that has incurred from off road vehicles, what have we learned 
from that overuse of a irreplaceable, valuable public land?
    Let's keep our treasured public lands public. And let's protect 
Montana's finest wild country and quiet mountain trails on national 
forests for traditional recreation.
                                 ______
                                 
              Prepared Statement of Craig Pablo, Pablo, MT

    Dear Mr. Burns: In regards to your questions at the Senate 
Oversight Hearing in Missoula on Dec. 2, I offer the following 
comments:
    1. The USFS recommends areas of Montana as wilderness to allow the 
public to enjoy our state's natural beauty in a peaceful environment.
    2. With over 30,000 miles of road already on our state's national 
forests, wilderness and roadless areas are a small part of the multiple 
use of our forests. MULTIPLE use includes people enjoying the forests 
on foot or horseback not just passenger vehicles, ORVs etc.
    3. Less than 4 percent of Montana is currently designated 
wilderness, as a hunter, fisherman and outdoor recreationist I value 
these wilderness areas to pursue my outdoor passions; hunting elk and 
deer, flyfishing for trout and hiking.
    4. I truly support multiple use of our national forests. I also 
enjoy snowboarding on ski areas within our national forests and 
snowmobiling/snowboarding the backcountry in these same forests. So Mr. 
Burns I truly utilize these forests with multiple uses.
    5. Lastly I would hope a man in your position would first realize 
multiple use really means, the ability to enjoy our national forests on 
foot free from vehicle noise and traffic, on a snowboard in a 
designated ski area, on a snowmobile and snowboard in undesignated ski 
areas and on a horse pursuing elk and deer.
    6. I strongly urge you to take a stand using your position to bring 
people together to protect our national forests rather than using 
politics to polarize Montanans against each other. It's time for 
Montanans and our politicians to join forces for a well thought out 
solution that's agreeable to everyone and I hope the voters will voice 
that strongly during the next election.
                                 ______
                                 
    Prepared Statement of Jim and Mary Lou Soldano, Great Falls, MT

    Senator Burns: In answer to your questions about non-motorized 
areas of the forest and wilderness lands in Montana, I would like to 
say that most people who use the forest do so to escape the hectic and 
busy life that they lead in their daily life. If they wanted to hear 
the exciting sounds of motor vehicles all that is necessary is to go 
out and sit on their deck or front porch of their own residence 
anywhere in the state. Camping in a campground along any highway in 
Montana includes plenty of noise pollution. There are thousands of 
miles of roads in the forest service lands where motor vehicles can 
legally be used. There is no reason to ride them in off road areas. 
Wilderness uses are part of multiple use! The recreation industries 
generate many dollars and this revenue is renewable and sustainable 
from year to year. The demand for wilderness experiences is growing 
world wide and much of that demand ends up in Montana. The reason is 
that Montana is the last place in the lower 48 that can provide this 
experience. As one of our elected leaders you should provide leadership 
in the efforts to protect the wilderness and the roadless lands that we 
have left in this great state. Help safeguard our public land in 
Montana. Thank you for your opposition to the Pembo rider to the budget 
bill. Please help to eliminate it since it is very detrimental to our 
state.
                                 ______
                                 
        Prepared Statement of Fred J. Schwanemann, Missoula, MT

    Senator Burns: I found the hearing on 12/2/05 in Missoula 
educational and informative.
    Thinking of trees as a renewable resource is good as long a 
Tremendous Amount of Time until the next tree harvest is kept in mind.
    Thinning can be a good academic way to increase forest tree 
production. However, I believe cutting strips of trees through the 
forest may be less expensive. The strip cutting does not look that 
well, but might serve as a fire break.
    If extraction and restoration are done commercially a tough 
regulatory board will be needed to check it.
                                 ______
                                 
           Prepared Statement of Adam Switalski, Missoula, MT

    I am writing to comment on the Senate Oversight Hearing in Missoula 
on December 2nd. Senator Burns asked why the Forest Service recommends 
areas of Montana wilderness when, in his words, ``wilderness limits the 
ability of folks to enjoy'' public lands by keeping mountain areas free 
of off-road vehicle traffic.
    I am a Montana resident who enjoys the many benefits of Wilderness. 
I visit Montana's wilderness areas approximately 25 times a year to 
hike, camp, and ski. Less than 4 percent of Montana is designated 
Wilderness and this is not enough for western Montana's booming 
population. I go to wilderness to gain peace and quiet that is not 
available in roaded motorized areas. Wilderness is the only place where 
I can escape the noise and pollution of off-road vehicles. Besides 
finding solitude, wilderness is a place where fish and wildlife can 
find refuge and provide a source for all of Montana's great fishing 
hunting. Hunting and fishing is simply not as good in the roaded and 
degraded public lands. Thank you for protecting our last unspoiled 
lands in the ``last great place.''
                                 ______
                                 
        Prepared Statement of John Schieffelbein, Fairfield, MT

    While the number of State and Federal Forests and Parks have not 
grown in any substantial way for many decades, the human population 
has. The country sides of just a few short years ago, are now shopping 
malls and new homes. The native animals and flora are displaced or 
destroyed.
    When I was a child my family were one of the first families to be 
able to travel around Lake Superior. It was called the ``Circle Route 
Drive''. It marked the first time in history that there was a road that 
linked the north shore area of Lake Superior to Minnesota and Michigan 
and Wisconsin. The whole area was still very pristine and beautiful 
with very few people. Yes, we (my family) were a part of the impendings 
onslaught of vacationers and tourists to visit the area.
    We were the start of the destruction of what had been pristine. 
Even with the best of intentions and the hope for greater commerce the 
area was changed for ever. Native American stone wall painting were 
stolen and ruined. A special ceremonial spruce tree that had grown on a 
rock out cropping for centuries was destroyed by people that gave the 
site little if any respect. Native peoples who had buried their loved 
ones above ground for centuries found the gravesites damaged and in 
some cases looted and insulted.
    Relationships between species in the area that had been in balance 
for more life times than one can imagine were irrevocably changed.
    We have lived here a short 9-10 years. That means that we have 
added to the stress the forests and natural resources as well. We try 
reverently to leave the areas where we travel the same as they were 
before we were there. However, almost every time we travel into the 
mountains we find someone hunting out of season, driving their choice 
of vehicle (cars, 44s, trucks, SUVS, and snowmobiles where it is ``not 
allowed''. It is not the fault of the good law enforcement officials or 
the parks and forests staff members. It is just the simple fact that 
Montana is extremely large and has a very inadequate number of 
officials and law enforcement personnel to ensure that the current laws 
are followed.
    So to add more opportunities for more abuse by those who know they 
won't get caught just doesn't make sense! Even when caught these people 
often just get warnings as the enforcement staff are fearful of more 
direct confrontations and having no backup close.
    Montana has thousands and thousands of roads already we do not need 
more. ATVS and all other motorized vehicle belong on roads not forests.
    We were out last weekend getting our Xmas Tree (with permit) and 
found people taking trees from areas they were not to be taken and saw 
where others had been 4 wheeling in areas not allowed for 4 wheeling or 
driving.
    My family really likes to go camping (with tents) in the back 
country and not have to hear sounds of motors of any kind.
    If you care about long term protection of the wilderness for you 
and your childrens and my children you will help keep the wilderness a 
wilderness as it has been for thousands and thousands of years. We have 
all got to start to think differently in order for our children to 
survive.
    Thanks for you time.
                                 ______
                                 
          Prepared Statement of M.C. von der Pahlen, Ronan, MT

    Senator Burns: I appreciate your request to hear from the public 
regarding the U.S. Forest Service's recommendation on further 
wilderness in Montana and the current policy that restricts motorized 
vehicles in wilderness areas. I urge you to support this management 
policy, which maintains and upholds the ``multiple use mandate'' of the 
U.S. Forest Service.
    There are numerous roads in U.S. Forest Service that are accessible 
to motorized vehicles already. There should also be public areas that 
provide the non-motorized backcountry experience that is so unique to 
wilderness areas.
    These wilderness areas are already fairly limited to the American 
public, but it transports our imagination back to the time of the fur 
traders and pioneers, and it permits many an adventurous spirit to 
experience the wonder, beauty and abundant wildlife this continent 
offered Native Americans and pioneers a few hundred years back.
                                 ______
                                 
          Prepared Statement of Adrian D. Leighton, Ronan, MT

    Senator Burns: Thank you for requesting the opinion of all 
Montanans regarding the issue of motorized vehicles in wilderness. Like 
all forms of recreation, motorized vehicles are important to many 
people, but that does not justify them being allowed total access to 
all Forest Service lands.
    The Forest Service, as you recently pointed out, is under a mandate 
for multiple use management. As a forester and college professor, I am 
keenly aware of the importance of this mandate. However, it is 
important to point out that multiple use does not mean ``everything is 
allowed everywhere''. Logging is not allowed on steep slopes because of 
potential site damage. Similarly, while motorized recreation should be 
supported by the Forest Service in appropriate areas, it is not, and 
should not, be allowed everywhere.
    Part of the Forest Service's multiple use mandate is to protect 
endangered species of wildlife and to provide for their habitat. There 
are numerous scientifically sound studies that demonstrate the 
potential negative impact of motorized vehicles on many species of 
wildlife.
    Another part of the Forest Service's multiple use mandate is to 
provide an experience for back country recreationists that wish to 
escape the noise, speed and confusion of every day life. A deep and 
profound element of wilderness is this very separation from ``the daily 
grind''. To open up wilderness to motorized vehicles would render this 
use of wilderness null and void.
    I urge you to continue to support wilderness and roadless area 
designations, and to support the Forest Service's multiple use mandate 
in its fullest sense.
                                 ______
                                 
         Prepared Statement of George Wuerthner, Livingston, MT

    Senator Burns: I was very disappointed with your recent comments 
before the FS about motorized use of public lands. The major attraction 
of Montana to me is the abundance of wild country. One of the reasons 
Montana has superb hunting and fishing is that motorized access is 
limited. I have lived in Oregon which actually has more elk than 
Montana. Nevertheless, the elk hunting season in Oregon is only 10 days 
long. Why? Because there's logging roads all over the entire state. 
There's hardly a place where an elk get away from roads and hunters.
    ATVs belong on roads, not in the backcountry. Montana has 90,000 
miles of roads and 30,000 miles of FS roads. There is more than enough 
access to public lands for machines on these roads.
    And what is unique about Montana are its large areas of roadless 
country. Tell people in Montana that feel there is not enough access to 
the public lands to go to Oregon--there's tens of thousands of miles of 
roads leading to every corner of the state. They can have all the 
terrain they want. But there are few places like Montana. Keep Montana 
wild.
                                 ______
                                 
         Prepared Statement of Jan Bertelsen-James, Eureka, MT

    Senator Conrad Burns: I am a born and raised Montana woman of 55 
years. I love Montana. I feel Montana's wilderness, wildlands, and 
quiet mountain trails in our national forests deserve to be protected 
for future generations. A place where hunting, fishing, traditional 
family recreation, and Montana history can flourish. ``Wilderness'' 
does not limit the ability for citizens to enjoy public lands; instead, 
it preserves this land so that indeed the land can be enjoyed.
    Wilderness is for future generations, so we need to pass it on. Our 
valleys are filling up with roads, traffic, and subdivisions . . . way 
too many subdivisions. Developers are developing for dollars and could 
care less about Montana! Places that we once went to for solitude and 
quiet are disappearing. These go from the Great Burn to the Rocky 
Mountain Front. Wilderness safeguards Montana's opportunities to hunt, 
fish, camp under the stars and hike in the quiet mountain trails. It's 
a commitment we MUST pass on to our kids. I have a daughter of 24 and 
she is upset with her favorite hiking places being ravaged by off-trail 
vehicles by their noise and disruption to the land. We don't need beer 
cans in the Ten Lakes of Eureka. She feels it should cost out of state 
people big bucks to move to Montana. She knows that is not possible, 
but she is truly afraid that all the ``land'' will be gone or ruined, 
bought up by out of staters, by the time she'll be able to afford to 
buy a small parcel. Her beautiful state that she loves will be gone.
    The federal government hasn't demonstrated a vision for the future 
of Montana's wild public lands. Recent forest plans recommend LESS 
wilderness than the most recent Montana wilderness bill passed by the 
U.S. Senate (S. 1696), which was sponsored by you, Mr. Burns. The Bush 
administration has done more to undermine the environment and this 
earth that sustains us than any other President. In fact, he has done 
more to ruin America's name in the world than any other President. His 
administration may just be the downfall of this nation due to the lack 
on involvement of U.S. citizens, administrative control of media, and 
the desire of elected officials to get elected again by doing whatever 
it seems it takes rather than biting the bullet and doing the honorable 
right thing. That is your fault and ours. I am no longer going to stand 
silent. I WANT MY NATION TO STAND FOR MOTHER EARTH AND ITS SURVIVAL! 
This can start at home, the big sky country that I love.
    Montana has over 90,000 miles of roads. There are 30,000 miles of 
roads in our national forests. ENOUGH IS ENOUGH. I live in an area 
where there are roads, roads, and more roads. They can't be maintained 
and noxious weeks grow rampant. Montana's neighboring western states 
enjoy higher percentages of wilderness. Montanans want our heritage of 
open spaces continued into the future and we deserve it. I would like 
to see us be leaders in this endeavor rather than hill-billy, gun-
toting, snuff-chewing hicks! I am not like that. Why can't Montana take 
the lead and be proactive about the environment and use resources to 
produce clean fuels for the future? Why must we dig for coal or mine 
for oil when that source is nonrenewable? Why can't we take the lead? 
Why must people like you, Mr. Burns listen to individuals that can only 
think of now and not the future? I want to see our lands used wisely. 
God gave us the forests to use and harvest but with conservation and 
the future in mind. We are supposed to be the stewards of the land and 
its animals. God gave us the intelligence to do so, so why can't we use 
this intelligence? I do not agree with all the suits that are filed but 
I am thankful for individuals that can spend their time keeping abreast 
of what is happening to this state. I am so busy working and trying 
just to pay the bills that I am not able to do so and that is the 
problem. I am taking the time tonight to let you know I am a concerned 
citizen about the state of Montana and this nation and that I don't 
approve of the present administration and the lies it tells. I want you 
to THINK and represent what is right for our state AND the rest of this 
nation.
    People say wilderness is not multiple use. I say multiple use is 
only logging and off road vehicles like snowmobiles and ATV's. If they 
had their way, they would be EVERYWHERE!!!! That's all we need. Noise, 
beer can, trash, rutted and destroyed trails and fields, and more 
noxious weeds. We need for the Forest Service to ``expedite'' forest 
travel plans that will establish responsible limits on OVR use. 
Wilderness is multiple use. It belongs in our rugged mountains along 
with suitable areas for logging and vehicle traffic.
    I am asking you, Senator Burns, to forego polarizing politics. I 
want to see new leadership. I want you to bring people together to 
solve this challenge. With creativity and foresight we can keep 
Montana's quiet mountain trails and wilderness-the best of the Old 
West-alongside the new.
    Thank you for your time. Please make a positive difference for 
Montana and this nation. We, I feel, are near the tipping point of 
destruction. I know I sound off the wall. I am a school teacher of 36 
years. I now teach in a therapeutic boarding school for adolescent 
girls in Eureka, Montana. I am not a nut. I am a concerned citizen that 
feels we are becoming a hateful nation without honor. I want that to 
change. Citizens need to demand and become more active in this 
democratic process. I did so tonight. Please think about what is right 
for Montana, not is this a republican or democratic issue. Let's just 
do the right thing for the survival of this state in the best way 
possible . . . for my daughter and hers.
                                 ______
                                 
      Prepared Statement of Donald J. Burgard, Columbia Falls, MT

    I live most of the summer in a cabin near the Canadian border and 
the North Fork of the Flathead River. I strongly disagree with recent 
statements you made about wilderness not being consistent with multiple 
use. Folks in Flathead and Lincoln county need wilderness areas close 
to home. It is especially important, even patriotic, to reduce 
unnecessary gasoline consumption with the current petroleum situation 
the way it is. There is no shortage of places for motorized recreation 
in the Whitefish Range. Contrary to your thinking, I think that not 
including wilderness designations in Forest Plans would be inconsistent 
with the multiple use concept. There are certain areas that are 
absolutely not suitable for motorized recreation. I'd be happy to hike 
with you in those areas near my cabin to prove my point. I ask that you 
reconsider your anti-wilderness position that is making it very 
difficult for your constituents to reach a consensus on multiple use. 
The best thing you could do for Montana would be to commit to 
wilderness designation for many suitable areas.
                                 ______
                                 
              Prepared Statement of John Werner, Ronan, MT

    You requested comments on U.S. Forest Use in Montana: My wife and I 
strongly support wilderness designation wherever possible in our 
National Forests. It is the only way that some of our multiple use 
activities can be retained, i.e. XC skiing, berry picking, hiking, 
camping, fishing, hunting--without the damn roar of snowmobiles, ATV's, 
jet skii's, and a multitude of other motorized vehicles. As it is now, 
the FS does not have the personnel to monitor motorized vehicle use 
which often violates current rules and regulations. Also suggest you 
see Missoulian editorial on December 13, 2005 regards your request for 
comments. It has some good information.
                                 ______
                                 
      Prepared Statement of John and Gaynelle Stamm, St. Regis, MT

    Senator Burns: At a December 2 Senate Oversight Hearing in 
Missoula, you are quoted as saying ``wilderness limits the ability of 
folks to enjoy'' public lands by limiting the use of off-road vehicles. 
We live near wilderness and roadless areas, enjoy them in many ways, 
and disagree with you. Wilderness and roadless areas are vitally 
important to humans, wildlife, and plant life in innumerable ways and 
off-road vehicles are, according to many experts, among the most 
damaging things to these resources. Off-road vehicles belong on roads, 
period. Wilderness today is multiple use and, due to these important 
uses, Montana needs more wilderness. Please work to bring people 
together on these issues instead of playing polarizing politics. 
Montana is big enough to accommodate many uses in the bet place for 
each.
    Thank you for your consideration of our views.
                                 ______
                                 
          Prepared Statement of Dr. Victor M. Davis, Ronan, MT

    Senator Burns: At the December 2nd Senate Oversight Hearing in 
Missoula you questioned why the Forest Service recommends more 
wilderness when, ``wilderness limits the ability of folks to enjoy'' 
public lands by keeping them free of off-road vehicle (ORV) traffic, 
and wondered if this was consistent with Multiple Use mandates of the 
Service.
    My favorite use of the Forests of my country is hiking and climbing 
in peace and quiet and finding solace and comfort in God's creation and 
with his creatures. This is not possible in lands subjected to noise of 
screaming engines, scars from churning wheels leaving tracks for 
decades, and toxic exhaust fumes hanging in the air.
    We already have 30,000 miles of roads in the National Forests of 
Montana, and this leaves plenty of opportunity for those who find 
Pleasure in the use of ATV's and other motorized vehicles.
    Roads and their uses in the Forests lead to increased erosion and 
stream and air pollution. The negatively impacts fisheries and wildlife 
and game habitat. I believe these assets are worth protecting not 
despoiling.
    I notice your Website letterhead uses pictures of three or four 
Wilderness scenes. I find it ironic that you have chosen these images 
to exemplify your public persona, and yet apparently don't appreciate 
their value and potential fragility. Rather than a romanticized ``Last 
Best Place'', I find Montana to be a very real and beautiful land, and 
so valuable not only to Montana but all of America. I believe that only 
by preserving as much of this land as Wilderness, unravaged by the 
intrusions of man and his wrecking machines, can we maintain this 
reality.
                                 ______
                                 
      Prepared Statement of Michael and Susan Sherman, Polson, MT

    Senator Burns: Our beautiful state is a place of wilderness, 
undisturbed back country with quiet trails, abundance of wildlife and 
places for hunting and fishing. This is why people move here, this is 
why real estate companies advertise with beautiful pictures of pristine 
wild places.
    This is why I want my children and grandchildren to be able to look 
up to the mountains and be able to say the same thing. Our towns here 
in western Montana are going at a rapid pace with subdivisions, people 
buying second homes and ever increasing traffic in our valleys. 
Wilderness designation for our deserving lands is a safeguard that our 
future legacy will have opportunities to experience quiet mountain 
hikes, trail rides, or fishing and hunting experiences.
    Recent forest plans are recommending less wilderness for our 
future. We have thousands of miles of roads but less than 4 percent 
designated wilderness. I believe you promised years ago that you would 
help Montanans secure more wild places. If you look at the Forest 
Service's original definition of ``multiple use'' it does include 
wilderness as one of those uses.
    Yes, there is a place for ATVs but there should also be those quiet 
places free from their loud noises and the spread of noxious weeds. 
ATV's spreading noxious weeds are also a real problem for agriculture 
lands. No farmer or ranchers wants fields of knapweed.
    We need to preserve our landscape for the future so that those of 
the future can say yes our past generations did keep this state the 
``last best, wild place'' in the USA.
                                 ______
                                 
             Prepared Statement of Jim Mullins, Helena, MT
    Senator Burns: I know you have lots of issues on your mind, but 
please consider my request. As a former mid-westerner like yourself, I 
hope you understand the importance of wilderness to all people.
    Please support a stronger commitment to Wilderness areas in 
Montana.
    Wilderness is multiple use.
    Thank you.
                                 ______
                                 
         Prepared Statement of Tom and Irene Erdie, Helena, MT

    I write this note on behalf of my wife and myself. We are native 
born and raised Montanans both with long and deep family roots in 
Montana. We have hiked many miles in the forests of Montana over the 
last forty plus years and have watched the transition and the impact of 
motorized vehicles over those forty plus years. The bottom line 
regarding impact of motorized traffic in the general forest is not 
good. Anyone that has watched this transition over the years from 
minimal motorized traffic to what is witnessed ``today'' has to be 
alarmed at what must be the expectation for ten, twenty and more years 
into the future. We as humans don't exist but that we leave a 
``footprint'' showing that we have been there. It then becomes a 
question of how much of a footprint and in this case, specific to the 
wildlands. Today's forests and management practices in general prove 
that over a period of time, the wildlands are in trouble. If you've 
spent any quality time in the forests (perhaps with a back pack) you 
know what I mean. More wilderness is part of the solution. You 
allegedly have stated that ``. . . wilderness limits the ability of 
folks to enjoy public lands . . .'' I agree and would state that the 
key word is ``limits.'' There has to be some kind of limit. Limiting 
motorized vehicles is a very big part of that because it can be shown 
that too many using motorized vehicles in the forests, without 
limitation, just don't care enough about what we leave for the next 
generation. I'd welcome the opportunity to take you for a walk in the 
woods and show very specific proof of where we are headed with today's 
practices, the negative impacts, and for the most part how it comes 
from motorized traffic. We can't hike as we did twenty years ago, nor 
would we expect to hike ten years from now as we did just this past 
summer. We will accept some limits, and the answer is not to ``jump on 
a motorized vehicle'' to take us anywhere we want to go. We believe 
there is room for multiple use while initiating more limitations that 
will not detract from the next generations ability to enjoy the 
solitude brought by additional wilderness. Thank you for the 
consideration.
                                 ______
                                 
            Prepared Statement of Gonnie Siebel, Bozeman, MT

    Senator Burns: I'm stunned by your apparent statements at a recent 
Senate Oversight Hearing in Missoula, regarding wilderness and 
protection from motorized use for roadless areas. I would like to 
remind you that a very important source of income in your home state 
nowadays is from tourism and tourism industries, the reason being that 
environmental protections have kept some important areas in our state 
reasonably pristine for the last several decades. Tourists (and most 
Montanans) don't hike, camp, fish, float, hunt, etc. in areas trashed 
by high impact uses! People can do that in their home states where, by 
lack of foresight decades ago, few places have been spared the impacts 
from road building, developments, extractive industries and ORV use. 
Usually where there are roads, negative impacts follow.
    To maintain our precious lifestyle for present and future 
generations, Montanans need Montana's undeveloped landscapes to remain 
as they are to find quiet and solitude. And, obviously, people from 
other states like what we still have in Montana! Wilderness belongs in 
our rugged mountains along with suitable areas for logging and 
motorized traffic. This IS multiple use.
    The most recent Montana Wilderness bill passed by the U.S. Senate 
(S. 1696) and co-sponsored by you, Senator Burns, recommended more 
wilderness than recent forest plans. At present less than 4 percent of 
Montana is actually protected as Wilderness. Montana's national forests 
have 30,000 miles of roads. ORVs and motorized vehicles do not belong 
on quiet mountain trails and even if they move on designated roads they 
affect an area widely beyond their location.
    Senator Burns, I urge you to support the National Association of 
Counties' call for the Forest Service to ``expedite forest travel plans 
that will establish responsible limits on ORV use, to prevent more 
spread of weeds and other damage from ORV traffic.'' I urge you to 
provide new leadership and bring people together to solve Montana's 
problems. With cooperation, creativity and foresight, we can keep 
Montana's best, it's quiet mountain trails and wilderness, alongside 
the new.
    Thank you for your attention to such an important issue to 
Montanans!
                                 ______
                                 
              Prepared Statement of Henry Lischer, Nye, MT

    On December 2, you asked of the Forest Service whether wilderness 
areas limit the ability of the public to enjoy public lands.
    I believe that public lands should support many different uses, but 
unspoiled wilderness is one of those qualifying uses. We should 
preserve our wild lands for the enjoyment of those who do not wish to 
be in public lands involving less natural settings, and we should 
preserve wild lands for future generations, which certainly will 
involve ever-growing populations.
    Thank you.
                                 ______
                                 
             Prepared Statement of Joe Hamiltom, Helena, MT

    Senator Burns: In your response to a December 2 Senate Oversight 
hearing in Missoula, you asked why the Forest Service recommends tracts 
of Montana Wilderness when in your words you stated, ``wilderness areas 
limit the ability of folks to enjoy'' public lands by keeping mountain 
areas free of off-road vehicle traffic. You questioned whether 
wilderness and motor free areas are ``consistent with the multiple use 
mandate'' of the U.S. Forest Service. I would like to respond. I just 
moved here from Arizona. I lived there for most of my life. Arizona is 
growing at a rapid pace and as immigrants and ``out of staters'' 
continue to move into that location, rapid growth means that public 
lands (that allow vehicles) continue to grow. If you have ever camped, 
mountain biked; hiked in any forest area in Arizona you would 
eventually run into an ATV, truck, or car full of people traveling down 
a road any where from 15-50 mph. My point here is as states grow so 
does public use of forest areas. Why expose MT wilderness areas in 
attempt to meet some political agenda? Opening up wilderness areas 
opens up all kinds of problems. I clearly understand the detrimental 
impacts that roads have in wilderness areas. I was a tour guide in the 
Grand Canyon.
    I recently moved to Montana to be able to drive in my truck, park 
at a wilderness area and hike in and enjoy the serenity of Montana. It 
bothers me enough that this beautiful state has over 90,000 miles of 
road, 30,000 miles of roads in our national forest, but less then 4 
percent of Montana is actually protected as wilderness. All of 
Montana's neighboring western states enjoy higher percentages of 
wilderness. Why close these wilderness areas up and open to roads. It 
makes no sense as a senator, citizen, president, or even God. Please 
provide leadership in this area. It is critical to the intrinsic value 
of Montana wilderness. Please read Aldo Leopold's book ``Sand County 
Almanac''. I think it will be instrumental in all of your environmental 
support and assist you in foregoing polarizing politics.
    The federal government has not demonstrated a vision for the future 
of Montana's wild public lands. Recent forest plans recommend fewer 
wildernesses then the most recent Montana wilderness bill passed by 
U.S. Senate (S. 1696). Please bring new leadership by brining people 
together to solve our problems. With creativity and foresight we can 
keep Montana's quiet mountain trail and wilderness--the best of the Old 
West--alongside the new.
                                 ______
                                 
     Prepared Statement of Mr. and Mrs. Donald Snow, Kalispell, MT

    Senator Burns: Wilderness is for now, tomorrow and as long as 
people are around to enjoy it--more is better in Montana.
    The biggest attraction of Montana is the amount of wilderness it 
has. Reducing that amount would be VERY short sighted. With one third 
of Montana's roads are in National Forests, we need more wilderness and 
less roads. We advertize our naturalness, big animals, numerous high 
mountains, clean air and water and beautiful landscapes, which draws 
worldwide visitors and proves the point.
    Montana needs much more wilderness, areas to visit where motorized 
vehicles are prohibited and are not contaminated with exotic, invasive, 
noxious plants brought in via motorized transportation.
    Please lead us to a solution which considers what is best in the 
very long term for Montana and its citizens--multiple use, sensible and 
very long view of Montana's beauty.
                                 ______
                                 
            Prepared Statement of Joel Vignere, Lakeside, MT

    Sir: Montanans deserve and want MORE Wilderness. Wilderness is 
consistent with multiple use. Wilderness does not ``. . . limit the 
ability of folks to enjoy'' (your words) our public lands. To the 
contrary, it enhances my friends and neighbors and my enjoyment of our 
public lands. It is valuable to me because I know I will be able to get 
away from the stench and noise of motorized recreation. Hopefully this 
legacy will remain for my children and theirs also. There are thousands 
of acres in Montana that deserve the protection of designated 
Wilderness. I urge you to help provide the necessary leadership to 
bring about a solution to the polarizing politics that have 
accomplished virtually nothing. Let's work together for the betterment 
of Montana's future.
                                 ______
                                 
          Prepared Statement of Dr. Rick Moroney, Bozeman, MT

    Senator Burns: I am requesting that you support the preservation of 
all roadless lands in Montana. Please seek wilderness designation for 
all remaining federal lands that qualify. This is probably the best 
thing you can do for the long term economic welfare of Montana. These 
roadless lands are one of the things that sets Montana apart from the 
rest of the nation. A large segment of the population values these 
lands, and would like to live in close proximity to them. These people 
often move their businesses to Montana, or increase commerce in other 
ways.
    In regard to roaded lands; Please see that federal agencies have 
enough funding to properly enforce their motorized regulations. It is 
unfortunate, but a few thoughtless motorized users don't follow the 
rules, causing great damage to our lands. The scars that they leave 
contribute to increased weeds, erosion, and degraded water quality. 
Perhaps it would be wise to severely limit motorized access until 
mechanisms are in place to protect the land. Please observe that almost 
without exception private landowners, allowing public access, almost 
always restrict that access to non-motorized use, only. Why should we 
accept a lesser standard for publicly owned lands. Thank You for your 
efforts on behalf of Montanans.
                                 ______
                                 
       Prepared Statement of George Durki and Liam, Bozemanm, MT

    Senator Burns: Greetings from Bozeman, Montana. Just a short note 
following your recent Oversight Hearing in Missoula concerning U.S. 
Forest Service policies particularly wilderness designation and travel 
plans!!!!!!
    I am the Gallatin County Road Engineer and have been for the last 
four years. I cannot tell you the number of subdivisions I have 
personally reviewed, both five lot minor and up to 300 lot major 
subdivisions.
    This place is bursting at the seams, and a large percentage of 
these new residents recreate in the Forest. We need as much of the 
forest kept pristine and actually designated WILDERNESS to keep MONTANA 
a great place to live for our kids and grandkids.
    I get into the mountains and high alpine meadows to escape the 
growth and hectic lifestyle that is coming to our major cities due to 
increased development. Please LISTEN, we need QUITE trails were people 
can get away from the noise and machines that are quickly taking over 
our beautiful valleys. I have personally seen motorcycles and ATV's 
off-trail and ripping up high alpine meadows for the hell-of-it!!!! 
These off road machines belong on the vast network of Forest Service 
and logging roads, NOT ON TRAILS!!!! The Forest Service does not have 
the staff to police the bad apples that go off-trail, therefore 
creating new routes for the machines to follow.
    The hunting/fishing/backpacking/horse-packing traditions are much 
to valuable and cherished by all Montanans to only be ruined by rampent 
ATV and motorcycle riders. Keep them at lower elevations and out of the 
fragile alpine areas before it is too late.
    Thank you for your time. Do the right thing, save and create more 
WILDERNESS, that is what people want and keeps them coming back to 
MONTANA!!!!!
                                 ______
                                 
              Prepared Statement of Kip Drobish, Kila, MT

    As the last truck loads of the last low elevation unlogged stands 
of Ponderosa pine and Larch on the mountain behind my house are hauled 
away today, I am struck by how short our lives are and how narrow our 
vision can be. The children and their children will never know 300 year 
old forests. In fact the residents of the Flathead already forget the 
entire valley was once covered by mature Ponderosa, Larch and Douglas 
Fir. So to will future citizenry forget there were once large old trees 
in the mountains west of Kalispell. Your great grandchildren will think 
saplings are old trees and harvest then for fiber laminated beams for 
construction, that is until the weakened forest soil will not support 
trees much like a mule that refuses to pull a plow after being deprived 
food. This is not nonsense, just as wilderness is not wasted land that 
should be open to motorized recreation. Wilderness is the one place 
held back so your great grandchildren can show their kids what it was 
once like back before their great great grandfather sightlessly 
encouraged industrial forest practices on the public trust lands.
    Please, if you can't get a glimpse of where we are going with an 
economy that is only healthy when it is expanding and consuming more, 
then please take a vacation and visit some wilderness, where the 
economy has been stable since the last Ice age and it remains robust.
                                 ______
                                 
        Prepared Statement of Peter Markalunas, Great Falls, MT

    Senator Burns: I have to voice my strong disagreement that non 
motorized use is in conflict with the multiple use mandate of the 
forest service.
    Wilderness designation prohibits motorized use but enhances all 
activities that favor quiet trails: hiking, fishing, horseback riding, 
photography, hunting, cross country skiing.
    Instead of thinking about how wilderness designation prohibits 
motorized use we should be thinking about how motorized use prohibits 
all the activities that require quiet trails.
                                 ______
                                 
         Prepared Statement of Christine Daum, Stevensville, MT

    Senator Burns: You've recently made a comment that wilderness 
limits the ability of folks to enjoy public lands by keeping certain 
areas free of off road vehicles.
    I disagree with you. It saddens me that so many cannot enjoy the 
outdoors without an internal combustion engine.
    As for myself, and many of my friends--we would prefer the silence 
and peace that the wild has to offer. We enjoy canoeing, skiing, hiking 
and fishing without the drone of snowmobiles or ATVs. The recreation we 
enjoy is traditional and too valuable to spoil. I hope you will support 
measures to keep it that way.
    Thanks for listening.
                                 ______
                                 
          Prepared Statement of George W. Cecil, Kalispell, MT

    Senator Burns: At a Dec. 2 Senate Oversight Hearing in Missoula, 
you questioned whether wilderness and motor-free areas are ``consistent 
with the multiple use mandate'' of the Forest Service.
    My response to your question is:
    1. Wilderness IS multiple use, and belongs in our rugged mountains 
along with suitable areas for logging and vehicular traffic.
    2. Wilderness designation is for the future. It safeguards 
Montana's opportunities to hunt, fish, camp under the stars and hike 
quiet mountain trails. It's a commitment we must pass on to our 
children.
    3. We need to do more for the wild landscape, NOT less. Recent 
forest plans recommend less wilderness than the most recent MT 
wilderness bill passed by the Senate--and co-sponsored by you.
    4. Less than 4 percent of Montana is actually protected as 
wilderness. All of MT's neighboring western states enjoy higher 
percentages of wilderness. Montanans want our open space heritage 
continued, not downgraded.
    5. ATVs and other motorized vehicles belong on roads, of which 
there are thousands of miles available, NOT on quiet mountain trails.
    6. It is your responsibility to ALL Montanans to forego polarizing 
politics and provide new leadership to solve our problems, not add to 
them.
    Thank your for considering my comments.
                                 ______
                                 
             Prepared Statement of Anne Banks, Bozeman, MT

    Senator Burns: The Multiple Use-Sustained Yield Act states that 
national forests shall be managed for outdoor recreation, range, 
timber, watershed and wildlife and fish purposes and that ``areas of 
wilderness are consistent with the purposes and provisions of this 
Act.'' Wilderness is one of the allowed multiple uses.
    Furthermore, the Act does not require that all uses occur 
simultaneously in one place; instead it requires ``harmonious and 
coordinated management of the various resources, each with each other 
without impairment of the productivity of the land . . .''
    I am most familiar with the Gallatin Forest Travel Plan, which has 
clearly addressed these issues. Its primary focus is on the resource 
itself, and recreational activities are considered in their relation to 
their effect on the forest and on each other. There was ample 
opportunity for public input. Although I do not agree with every 
provision in the plan, I firmly believe that its development and 
content adhere to the requirements of the Multiple Use Act. There is a 
balance between motorized and non-motorized uses. This is the first 
time motorized use has been regulated at all, and the reason for any 
``losses'' is to protect the productivity of the forest, as the Act 
requires. FS Chief Bosworth recognizes unregulated off-road motorized 
use as one of the four greatest threats to our forests.
    I hope you will let the plan stand without further pressure from 
Congress. It was developed locally, on the ground, by the people most 
involved, and we will be the ones most affected by it.
                                 ______
                                 
             Prepared Statement of Woody Nedom, Bigfork, MT

    Senator Burns: Thank you for your interest in the classification of 
Forest Service lands. Most citizens in our state, and countless others 
elsewhere, recognize that it is the stunning topography, rare flora and 
fauna, and unique beauty of the wilderness we have preserved that has 
made Montana ``The Last Best Place''. I know you agree because not one 
of the magnificent scenes that banner your website has a road or 
vehicle in sight.
    Adding wilderness preserves, enhancing safeguards for their 
protection, and formulating Forest Service policy to these ends ought 
to be your number one priority and will be the greatest and most 
cherished legacy of your senatorial tenure.
    No one is fooled by the unadulterated sophistry which argues that 
wilderness protection limits the ability of people to enjoy public 
lands. Montana has over 30,000 miles of roads in its national forests; 
less than 4 percent of the state is protected as wilderness. If 96 
percent were wilderness and there were no roads in the national 
forests, the multiple use enthusiasts would have a point.
    I know you will bring honesty and common sense to the table. The 
multiple use advocates have far more than a reasonable share of our 
resources.
                                 ______
                                 
              Prepared Statement of Lynn Kelly, Polson, MT

    Senator Burns: You asked for input regarding the importance of 
wilderness and I would like to share my thoughts. Wilderness is 
probably the most ``multiple use'' of all the land uses out there. Here 
are some things wilderness does for us:
    (1) Wilderness protects and maintains water quality. Other states 
would kill to have their water sources protected as the Swan, South 
Fork and Middle Forks of the Flathead are protected by wilderness 
areas. This is worth billions of dollars.
    (2) Wilderness provides a clean ``airshed''. Again, worth billions 
of dollars.
    (3) Wilderness provides jobs as outfitters and others use these 
lands in their traditional ways.
    (4) Wilderness provides habitat for multitudes of wildlife species.
    (5) Wilderness provides ``natural science laboratories'' so that 
comparisons can be made between disturbed and undisturbed habitats, 
watersheds, airsheds, etc.
    (6) Wilderness gives our children and grandchildren a chance to see 
``how it was'' back then.
    (7) Wilderness provides places for spiritual renewals and retreats. 
There are at least 5 other major ``uses'' of wilderness but my memory 
fails me. Needless to say wilderness is not just another cornfield! 
``Man always kills the thing he loves, and so we the pioneers have 
killed our wilderness. Some say we had to. Be that as it may, I am glad 
I shall never be young without wild country to be young in. Of what 
avail are 40 freedoms without a blank spot on the map?'' Aldo Leopold.
    We need more wilderness--not less!
    Thanks for asking for my thoughts.
                                 ______
                                 
            Prepared Statement of Bruce Granger, Bozeman, MT

    Dear Senator Burns: As a long-time Montana resident, I strongly 
support the preservation of the wild areas in this state. It makes no 
sense to allow additional degradation of these areas by ORV use. Quiet 
trails, abundant wildlife and natural flora will be there for us and 
future generations only if they are not destroyed by increased road 
building and ORV use. I strongly support more wilderness rather than 
less, to perpetuate what's really special about this region.
                                 ______
                                 
              Prepared Statement of Chris Kappes, Lolo, MT

    Dear Senator Burns: I attended the Oversight Hearing in Missoula. 
There were comments made by the Wilderness Association President that 
gave me hope that Wilderness is important and will not be squandered on 
exploitation of any kind.
    I am a 7th generation Montanan and want the Wilderness kept for the 
next seven generations. Wilderness safeguards opportunities to hunt, 
fish, hike, camp, and ride horseback on the quiet mountain trails. 
There are few opportunities left as our valleys become populated.
    ATV's belong on roads and goodness knows there are plenty (of 
both). Wherever I go, and there has been ATV use, I am disheartened by 
the incredible damage that they cause on and off trails. Please keep 
the pristine areas pristine!
    Please, Senator Burns, find a way to keep Montana's quiet mountain 
trails and Wilderness. The generations to come will honor your name!
    In hope and peace.
                                 ______
                                 
            Prepared Statement of David Amnotte, Bigfork, MT

    Senator Burns: I am writing to express my views on U.S. Forest 
Service Policy.
    We need to pass on to our children our great State wilderness 
legacy, we need to keep this land safe from road building. In this 
state we have a heritage of hunting and great wildlife habitat let's 
preserve it. Montana already has over 90,000 miles of roads 30,000 in 
the forest that's plenty. Our State has less than 4 percent of it's 
total as Wilderness, all of our neighbors have more. Motorized travel 
needs to remain on roads, trails need to be reserved for traditional 
uses, hiking, horseback riding, and foot travel during winter months to 
preserve wildlife habitat. Wilderness is Multiple Use, rugged mountains 
along with low elevation areas for vehicles and logging. We need to 
have leadership, not Polarization, we need to bring people together to 
solve problems not push them apart. Please keep these thought in mind 
when considering Forest Policy.
    Thank you.
                                 ______
                                 
             Prepared Statement of Paul Pacini, Helena, MT

    Senator Burns: As a native born Montanan, I am writing to express 
my disagreement with your assessment of the importance of wilderness in 
Montana and for that matter, through out the world. The human 
environment is rapidly becoming a scene of endless and hurried 
technology for the purposes of business, health care, shopping, 
education, even recreation, and more. More and more we are living in an 
artificial electronic environment and pressured to accomplish more than 
before. The human species, like any other species of animal on the 
Earth evolved from a natural environment. Our bodies and minds relate 
to the natural world which tends to rejuvenate our technology wearied 
selves.
    All of this may sound naive or just too warm and fuzzy to some, but 
the fact is that we need wild areas for our collective sanity. By 
``paving over'' our planet, we are paving over our humanity! Don't 
allow federal lands to be sold.
                                 ______
                                 
     Prepared Statement of Mike and Stephanie Becker, Harrison, MT

    We want you to know that wilderness does NOT limit the ability of 
folks to enjoy public lands! With the crush of modern life with its 
traffic, development, noise, and population pressures, the American 
public is seeking solace and quiet recreation in our preserved lands. 
Montana can still offer some beautiful, undisturbed areas and we need 
to PROTECT and PRESERVE these precious--and diminishing--wild resources 
for future generations. Montanans deserve more than a mere 3 percent of 
protected wilderness! 30,000 miles of roads in our national forests is 
more than enough. And we urge you to support the National Assocation of 
Counties' call for the Forest Service to expedite forest travel plans 
that will establish responsible limits on ORV use--ORVs do NOT belong 
on quiet mountain trails. Their abuse is spreading noxious weeds in our 
counties. Please work to keep Montana's beautiful wild lands special: 
Montana's growing tourist economy as well as the economic support of 
its new residents really depend on selling the UNIQUENESS OF MONTANA'S 
WILDERNESS AREAS. People are not coming here to see ``more of the 
same'' that they left in other states that have spoiled environments. 
Montana's future can be bright and prosperous with leadership that 
understands the enormous value of growth with conservation.
                                 ______
                                 
          Prepared Statement of Beth Weissman, Livingston, MT

    I strongly feel that we must preserve the Wilderness. Montana is 
developing and sprawling and only the wilderness spaces will be left of 
the greatness of Montana's open spaces. They must be saved for the 
future. Roads, motorized vehicles, ATV's: these represent the opposite 
of what we should be protecting. We need quiet places to hike, fish, 
hunt, camp, where animals can live without noise. We have enough roads 
in this state for motorized vehicles; let's save the wilderness.
                                 ______
                                 
             Prepared Statement of Jim Fiddler, Bigfork, MT

    Senator Burns: I have traveled to all 50 states and many foreign 
countries and lived in some of the largest cities in the United States 
From my perspective, there is no shortage of roads on which to drive 
motorized vehicles. Even in Montana, a state with a higher percentage 
of wild lands than most, there is only a very small portion where one 
can go to enjoy a peaceful experience without the possible disruption 
from some form of motorized vehicle.
    Of all the places I have lived, I have never had more friends or 
relatives visit me than I have since living in Montana. They don't come 
here because they have heard that we have incredible roads or places in 
the forest where they can drive an ATV. They come to enjoy the quiet, 
unspoiled beauty of nature. When a person hikes through the woods, very 
little disturbance occurs. When someone rides any motorized vehicle 
through the woods, a great deal of disturbance occurs. The sound can 
literally intrude on people miles away. The impact to the ground itself 
from just one set of tires is greater than 100 people walking that same 
trail. The pollution from small vehicles is usually even worse than our 
cars which are bad enough. Vehicles belong on roads, not in the forest, 
and there is no shortage of roads. There is a very real shortage of 
places left that have not yet been forever altered by a road.
                                 ______
                                 
            Prepared Statement of Rocky Heckman, Choteau, MT

    Senator Burns: Have you fell on your head? Don't even think about 
opening up wilderness areas to motorized travel, oil or mineral 
exploration, or any thing like that. C'mon get a reality check, these 
precious wilderness areas are only a speck on the map, there is plenty 
of land in Montana that nobody gives a rip about. Go ruin that, if it 
makes you feel good, not an area so many of us care about, just to 
appease the greedy. Please do not respond to this message with a sales 
pitch type ``bla, bla, bla'' response that tries to convince me that 
you know what you're talking about. I don't, cause it's crap, and 
proves only that you're out of touch with Montanans such as me.
    Happy holidays.
                                 ______
                                 
      Prepared Statement of Dr. Dorothy Starshine, Great Falls, MT

    Conrad Burns, Senator: In 1955, our family moved to Montana so we 
could hunt, fish and hike in these glorious wilderness areas. However, 
if quiet areas continue to shrink, our 18 grandchildren will not have 
the experiences that our family experienced only 50 years ago.
    Please use your power to protect the wild areas with Wilderness 
designation to prevent roads and subdivisions.
                                 ______
                                 
            Prepared Statement of Jack Waller, Whitefish, MT

    Senator Burns: We are writing to help answer your questions 
regarding why the Forest Service recommends tracts of Montana 
wilderness and motor-free areas--from just two ordinary Montana 
residents--we're not a big business, not lobbyists, and don't belong to 
an Indian reservation. We just enjoy the state's national forests as 
they are--except for the encroachment of machines and more roads.
    Our wilderness areas and proposed wilderness areas are even more 
important to preserve and protect as our valleys fill with more people, 
development, roads--preserving these areas will be so much more 
valuable as we see our public lands being sold off, drilled into, 
mined, etc. 30,000 miles of roads in our national forests yet only 4 
percent of Montana is actually protected. This is shameful.
    Our national forests are already multiple-abused--motorized 
vehicles i.e. ATVs just take the joy out of a fair--big game hunt with 
your children, a hike with your friends, a solitary day of fishing--
this to us is what Montana has always been about--wild areas--it's what 
makes Montana stand out from the rest of the country.
    We need to bring people together to solve our problems--creativity 
and foresight. We need to provide new leadership to keep Montana's 
quiet mountain trails and wilderness.
    You, Mr. Baucus, and Mr. Rehberg should shed your Washington, DC 
skins and start spending some time in our national forests--we suggest 
areas where machines are already allowed, and just try and enjoy the 
surroundings. Then, you should go to a wilderness, roadless area and 
compare. If you haven't done this in a while, you should. Then you'll 
know why the majority of Montanans don't want motorized use in our 
national forests.
    Happy holidays.
                                 ______
                                 
           Prepared Statement of Laurie Gaiser, Whitefish, MT

    Senator Burns: We are writing to help answer your questions 
regarding why the Forest Service recommends tracts of Montana 
wilderness and motor-free areas--from just two ordinary Montana 
residents--we're not a big business, not lobbyists, and don't belong to 
an Indian reservation. We just enjoy the state's national forests as 
they are--except for the encroachment of machines and more roads.
    Our wilderness areas and proposed wilderness areas are even more 
important to preserve and protect as our valleys fill with more people, 
development, roads--preserving these areas will be so much more 
valuable as we see our public lands being sold off, drilled into, mined 
, etc. 30,000 miles of roads in our national forests yet only 4 percent 
of Montana is actually protected. This is shameful.
    Our national forests are already multiple-abused--motorized 
vehicles i.e. ATVs just take the joy out of a fair--big game hunt with 
your children, a hike with your friends, a solitary day of fishing--
this to us is what Montana has always been about--wild areas--it's what 
makes Montana stand out from the rest of the country.
    We need to bring people together to solve our problems--creativity 
and foresight. We need to provide new leadership to keep Montana's 
quiet mountain trails and wilderness.
    You, Mr. Baucus, and Mr. Rehberg should shed your Washington, DC 
skins and start spending some time in our national forests--we suggest 
areas where machines are already allowed, and just try and enjoy the 
surroundings. Then, you should go to a wilderness, roadless area and 
compare. If you haven't done this in a while, you should. Then you'll 
know why the majority of Montanans don't want motorized use in our 
national forests.
    Happy holidays.
                                 ______
                                 
         Prepared Statement of Dr. Steve Seninger, Missoula, MT

    Senator Burns: I participated in all of the Missoula Ranger 
District, Lolo National Forest plan revision meetings this summer. A 
wide range of forest users were present at the tables including folks 
who were interested in ATV/OHV use, snowmobiles, logging, hunting, 
hiking, and other interests. The meetings produced useful dialogue and 
the results were summarized by us participants and provided to Forest 
Service as public input. I feel that the Lolo National Forest staff 
were very efficient and fair and used the input provided by all groups 
and kinds of users of our national forests. I personally want to see 
more protection of our public lands and our road less areas which now 
comprise a very small portion of our overall public lands here in 
Montana.
    I am a resident of Missoula, a taxpayer, and a registered voter and 
I will continue to support political candidates who work to keep 
Montana lands open to all with adequate protection for hunters, 
fishermen, trail riders, hikers, skiers and other non-motorized uses. I 
appreciate you holding the December 2 hearings in Missoula which I 
attended and urge you to work for protection of one of Montana's 
greatest treasures, our mountains and public lands.
                                 ______
                                 
         Prepared Statement of Eileen Schwanemann, Missoula, MT

    Dear Senator Burns: It was interesting going to my first Senate 
Committee Hearing. I was sorry that not even fifteen minutes was 
allotted to comment/questions from any of the many attendees.
    The issue of logging in national forests certainly needs to be 
addressed and procedures changed some. Who would be the responsible 
persons to facilitate this process? Certainly the public who own' this 
public land should be involved. I agree that certain groups are tying 
the whole process of any type of logging up in expensive lawsuits only 
the lawyers win. What can end or limit this?
    The other subject discussed at the meeting was motorized use in the 
forests. At several of the Forest Planning Meetings in Missoula this 
summer, it was suggested that motorized vehicles belong on roads. There 
are certainly many roads in many of the forests. I realize that many 
people have these vehicles. But I do not think ATV's, Four Wheelers, 
and the like should be on trails where people walk, hike, or bike. 
There are obvious safety factors involved here. Not to suggest banning 
them, but snowmobiles are both extremely noisy and polluting. One last 
comment on this issue.
    There is a quiet in the woods, a silence that the soul alone can 
hear, as if all of nature knew and understood, what a precious resource 
this is. (Some credit for this goes to Leanin, Tree Cards.)
    Thank you for your consideration of this matter.
                                 ______
                                 
            Prepared Statement of David Rockwell, Dixon, MT

    Senator Conrad Burns: You questioned the need for wilderness when 
you were in Missoula on Dec. 2. Please remember that Montana has over 
90,000 miles of roads. Less than 4 percent of Montana is protected as 
wilderness. We need wilderness as a people; it is part of who we are as 
Montanans! It is part of our heritage and should be part of the legacy 
we leave future generations. There are lots of places to go to drive 
off-road vehicles, few places where you can enjoy the peace and 
tranquility of a roadless environment.
    ATVs and ORVs belong on designated roads because they when used 
inappropriately they cause erosion, disrupt wildlife and harm fish 
(with the silt they produce). They can damage resources that belong to 
all of us.
    Wilderness is multiple use. It provides for clean water for our 
communities, outdoor recreation, range (through leases), and fish and 
wildlife. The language of the Wilderness act even states that the 
purposes of the Wilderness Act are within and supplemental to the 
Multiple Use Sustained Yield Act (MUSYA). The only use mentioned in the 
MUSYA that wilderness does not include is timber. But if every acre of 
every forest had to provide all of the multiple uses identified in the 
MUSYA, we would have an impossible task before us.
    Please support wilderness designation for our remaining roadless 
areas. Thank you.
                                 ______
                                 
             Prepared Statement of Kathy Lloyd, Clancy, MT

    Senator Conrad Burns: We were not able to attend the Senate 
Oversight Hearing in Missoula on December 2 and were shocked and upset 
to hear about the comments you made concerning roadless areas in 
Montana. We are, frankly, very concerned to be represented by someone 
who has to have these things explained. You, of all people, should 
realize the value placed on our natural heritage, quiet places, 
excellent hunting and fishing opportunities, and unspoiled beauty, not 
only by the people of Montana, but by people throughout the country and 
the world. The American public showed overwhelming support for the 
Roadless Conservation Initiative because we knew how precious these 
areas are now, and how much more precious and unique they will be in 
the future.
    Montana is cris-crossed by over 90,000 miles of roads, while only 4 
percent of the state is protected as Wilderness. As more of the natural 
landscape in Montana is turned into subdivisions, roads, and noise, 
Wilderness will become even more important. We want our kids and their 
kids to be able to enjoy the natural landscape of Montana, a landscape 
that is bragged about and advertised as special. Our economy is, to a 
large extent, fueled by our image of unspoiled beauty, and that will be 
even more the case in the future if unthinking people don't degrade the 
reality.
    We want you to support the National Association of Counties and 
tell the Forest Service to establish limits on motorized use in the 
backcountry. Motorized vehicles belong on roads, not on quiet, family 
hiking trails. The damage, erosion, spread of weeds, and conflicts 
generated by ORV traffic is undeniable and must be managed. As to your 
question about multiple-use, the principle is applied to the forest as 
a whole; it does not mean that every inch of ground is open for every 
use.
    Now is no time to play politics. There is too much at stake. If we 
don't act now what we all love about Montana will be overrun with 
roads, noise, pollution, weeds, and concrete.
    Thanks.
                                 ______
                                 
           Prepared Statement of Catherine Haug, Bigfork, MT

    Senator Burns: I'm writing to urge you to keep Montana's wild areas 
free of roads, ATVs and snowmobiles, by working with the U.S. 
Government to preserve more areas as wilderness. You have stated that 
you believe ``wilderness limits the ability of folks to enjoy'' public 
lands by prohibiting access via roads and off-road vehicle traffic. But 
you are missing a critical point with this argument. That is, opening 
access to wild areas via automobiles and off road vehicles, removes the 
``wild'' from the areas. Far better to enjoy these remarkable areas by 
horseback or by hiking the trails. Vehicular traffic is polluting, 
noisy, and visually obtrusive.
    Please help preserve Montana's glorious back country for our 
children and generations that follow. Preserve this wilderness as a 
safeguard for hunting, fishing, hiking and cross-country skiing the 
quiet mountain trails, and camping under the stars.
    I live near Montana's spectacular Jewel Basin, one of the most 
popular hiking areas in the west, and have spent many wonderful summer 
days and nights hiking and backpacking in the Basin and to the top of 
Mt. Anaeas. I would be devastated to see this area ruined by roads and 
ATVs.
    Recent forest plans recommend even less wilderness than the most 
recent Montana wilderness bill passed by the U.S. Senate (S. 1696), 
which was cosponsored by you. People across the country think of 
Montana as the ``Last Great Place,'' one of the last wilderness states 
(along with Alaska), and yet Montana has lower percentage of wilderness 
(at 4 percent) than our neighboring western states!
    ATVs and other motorized vehicles belong on roads, not on quiet, 
pristine mountain trails. We need to establish responsible limits on 
off-road vehicle (ORV) use, to prevent the spread of weeds and other 
damage from ORV traffic.
    Wilderness is needed to promote the growth and breeding of beloved 
yet often endangered wildlife. Connected corridors of wilderness are 
especially needed to ensure genetic integrity and prevention of 
inbreeding.
    I urge you to provide new leadership on this issue of wilderness. 
Please forego polarizing politics. Bring people together to solve our 
problems, and to keep our wild areas--the best of the Old West--
alongside the new.
                                 ______
                                 
           Prepared Statement of Dudley Improta, Missoula, MT

    Senator Burns: I received a card announcing the Senate Hearing in 
Missoula Dec. 2, 2005. I attended. With all due respect I believe our 
forests and wildlands should be managed differently than a cornfield in 
Iowa.
    My comment on the Region 1 plans would be to save all roadless 
areas that are now designated that way. Governor Schweitzer recently 
met with all county commissioners in Montana. Their opinion was that no 
new roads were needed at this time. They did say that it may be 
necessary for new roads in a time of emergency such as fighting 
wildfire.
    I would agree that it is time to take a close look at NEPA and 
perhaps update those laws to reflect the current state of land 
management.
    Please don't vote to sell public land or promote development of 
lands that are now protected. Many Montanans put up with lower wages in 
order to enjoy wild public lands.
    One such area is Forest Service land near Missoula and Lolo Peak. 
We have 13,000 acres of primitive and roadless lands that buffer the 
development of Missoula and the BitterRoot Valley from the majestic 
Selway-BitterRoot wilderness. We all know what is eventually going to 
happen to private land in this area. Some would develop this public 
land given the chance. If we care about outdoor recreation, hunting, 
fishing and the Montana lifestyle; we will work to protect these areas.
    Thanks for your consideration.
                                 ______
                                 
            Prepared Statement of Suzanne Luepke, Polson, MT

    Senator Burns: Little by little roadless areas are being encroached 
on and our wild lands are being decreased. We already have at least 
30,000 miles of roads in Montana's National Forests. We need 
responsible leadership that recognizes the value of wilderness, not 
only for individuals but also for the good of our communalities in 
terms of CLEAN AIR and CLEAN WATER.
    I hope that you will think about the future and do what is right.
    Also, I want to thank you for taking the time to investigate this 
issue.
                                 ______
                                 
   Prepared Statement of Juliette Crump and Bill Bevis, Missoula, MT

    Senator Burns: I was appalled at your comparing our forests to a 
corn field. A corn field is privately owned and farmed for profit. Our 
national forests are publicly owned and managed for multiple uses.
    We need more wilderness rather than less for our future Montana 
citizens. I have noticed over the past few years in the Beaverhead 
National Forest and the Lolo National Forest that more and more 
motorized vehicles are going off roads and this means habitat is 
destroyed and weeds are spread by these vehicles. That's why we need 
the Forest Service to recommend tracts of Montana wilderness, for 
protection of pristine areas that my grandchildren can enjoy.
    The Forest Service has provided ample areas where snow mobiles and 
ATVs can go, such as Lolo Pass where my friends and I cross country ski 
(with snow mobiles on some trails) every Wednesday during winter. We 
need you to support the National Association of Counties call to place 
responsible limits on ORV use. Wilderness protection will help do this.
    I urge you to do everything you can to preserve Montana's heritage 
of open spaces.
                                 ______
                                 
             Prepared Statement of David Schaub, Havre, MT

    I do not favor increasing motorized use of National Forests. Less 
than 4 percent of Montana is actually protected as wilderness. Our 
roadless, non motorized wilderness areas are the womb of Montana's 
quality environment that is attracting well paying, environmentally 
friendly business to our state. I have health issues that likely will 
prevent me from hiking into some areas that I once traveled. I reject 
the idea of driving a 4 wheeler into those wild, roadless, quiet areas. 
I want them left as is for my children and grandchildren. Not only do 
we need to keep the few non motorized wilderness areas that we have, we 
need to achieve some equalization and increase the wilderness areas. 
There are plenty of other areas that I can access by pick up or 4 
wheeler.
                                 ______
                                 
           Prepared Statement of Vanelle Nurse, Missoula, MT

    Senator: You mentioned at the 12/2 Senate Oversight Hearing in 
Missoula that you believe ``wilderness limits the ability of folks to 
enjoy'' public lands. I strongly disagree. I love to hike in our 
wilderness areas. As a senior citizen I realize there will come a time 
in the near future when I may not personally be able to access the 
areas I have enjoyed for decades, but I would like to believe they will 
be kept safe and pristine for our children and grandchildren. All 
motorized vehicles belong on roads, including ATV's. Mountain trails 
are not a place for the noise and damage these vehicles create. Please 
support the National Association of Counties' call for the Forest 
Service to expedite forest travel plans to establish responsible limits 
on off-road vehicle use, to prevent the spread of noxious weeds and 
other damage from ORV traffic. Please continue our heritage of open 
space for the future of all Montanan's. Please save our wild public 
lands.
    Thank you.
                                 ______
                                 
             Prepared Statement of Mary O'Brien, Polson, MT

    Senator Burns: I am writing to state my opinion that wilderness is 
consistent with the multiple use mandate of the U.S. Forest Service. 
Wild places deserve an equal place among those areas set aside for 
logging, vehicle traffic, etc.
    Montana has more than 90,000 miles of roads, but less than 4 
percent of our unique state is preserved as wilderness. All of 
Montana's neighboring western states have seen fit to set aside greater 
percentages than that. We Montanans want to pass a heritage of open 
spaces on to our children, but to do so we must be foresighted enough 
to set them aside now.
    Thank you for your attention to my comments.
                                 ______
                                 
         Prepared Statement of Colleen Mercer, Great Falls, MT

    Until I started hiking in the local mountains, I didn't understand 
the complaints about motorized vehicles.
    Now because I've actually used our public lands, I realize the 
threat.
    On July 4, my husband and I took an early morning hike in the 
Little Belts along Jefferson Creek. Then, the vehicles joined us. We 
quit, and returned to our car because of the smell of the constant 
traffic, and stopping to allow them to pass. It was a real surprise how 
many are on the trail--too many to allow hikers to walk along.
    In the fall, I joined a group of women on the trails out of Utica. 
We found it impossible to follow the detailed Forest Service map 
because there were so many off road tracks running EVERYWHERE, despite 
signs indicating no motorized traffic.
    We need to regulate this activity, and enforce the regulations! Our 
undisturbed lands are a resource, key to our state's prestige. Thank 
you.
                                 ______
                                 
              Prepared Statement of Janet Tatz, Helena, MT

    Dear Senator Burns: I was shocked and disappointed to learn that 
you had recently questioned the value of wilderness. In a December 2 
Senate Oversight Hearing in Missoula, you stated that ``wilderness 
limits the ability of folks to enjoy'' public lands. You also 
questioned whether wilderness and motor free areas were ``consistent 
with the multiple use'' mandate of the U.S. Forest Service.
    As a long time resident of Montana, and a staunch advocate for the 
preservation of Montana's wilderness, I am writing today to tell you 
that Wilderness designations for many of Montana's wild lands, is the 
only way to preserve the many wonderful places that Montana offers for 
hunting, fishing, solitude and open space. Wilderness represents 
Montana's future, as well as its past.
    Currently, Montana has less than 4 percent of its land protected as 
wilderness. All of our neighboring western states enjoy a higher 
percentage of wilderness designation. We already have 30,000 miles of 
roads in our national forests. We need to do more, now, to protect our 
remaining open spaces from excessive ORV use. Irresponsible ORV use 
leads to the spread of noxious weeds, habitat loss and the opportunity 
to hike on a quiet mountain trail.
    Montanans need you to provide the leadership to maintain and 
preserve our wilderness heritage. Please do so.
                                 ______
                                 
        Prepared Statement of Len and Nancy LaBuff, Missoula, MT

    Senator Burns: I am very disappointed concerning your comments on 
wilderness on Dec. 2 at a Senate Oversight Hearing in Missoula. Our 
wilderness areas in Montana are one of our greatest treasures we have. 
To allow road building, motorized vehicles, or logging in the areas 
would be an inestimable loss for all Montanans and U.S. citizens. 
Please work to protect these last wild areas we have in Montana. They 
are for everyone to enjoy and protect now and for future generations.
    Thank you.
                                 ______
                                 
      Prepared Statement of Rich and Jeannie Prodgers, Dillon, MT

    Dear Senator: I strongly disagree with your statement that formal 
wilderness designation limits the ability of folks to enjoy public 
lands. Those are the lands my wife and I most enjoy. It's that simple.
    I recall recently reading your statement that logging forests is 
like cropping corn in Iowa. You're right: it takes federal subsidies 
and is unsustainable in the long run.
    Here is southwest Montana we had USFS roads out the wazoo, but 
Congress won't appropriate enough funds to maintain them. Despite near-
record elk numbers, the harvest was once again poor because they vacate 
the roaded areas in favor of more secure ones. More roads will mean 
less secure habitat and fewer elk, but not better hunting.
    Chief in our desires when we go hiking is getting away from 
vehicles. We hike, fish, and hunt in wilderness areas and urge your 
support for additional wilderness designation. The future of Montana, 
as Bozeman as shown, lies in the beauty of our public lands, and only 
wilderness designation maintains their integrity.
    Thanks for considering our views.
                                 ______
                                 
           Prepared Statement of Emily Lundberg, Bozeman, MT

    Senator Burns: In regard to U.S. Forest Service planning, 
wilderness and motor free areas ARE definitely consistent with the 
multiple use mandate. Polls show that the majority of Montanans want 
motor free areas to be preserved for quiet recreation and wildlife 
protection. In regions that are roaded, quiet use is eliminated from 
possibility. Although motorized access is reasonable in selected areas, 
there must also be large motor free areas preserved for the future. The 
children of Montanans must have the opportunity to hunt, fish, hike, 
etc. in Montana wilderness. Montana needs to preserve more wilderness, 
not less. This also supports the significant tourism industry in 
Montana.
    Please view these issues with a long-term vision and step up to 
speak for the majority of individual Montanans. Future generations 
could build more roads if they wish, but they could never re-create 
wilderness.
                                 ______
                                 
              Prepared Statement of Don Harris, Clancy, MT

    Senator Burns: This is just a quick note to advise you that I am 
fully in support of protecting Montana wilderness for current use and 
for future generations. In my experience, wilderness is multiple use 
that excludes very few. In reality, we have very little wilderness in 
Montana and there is no way ``to make more.'' Please protect or work to 
expand our current wilderness in Montana. This is the best decision in 
regard to long term planning and is also most supported by public 
opinion.
                                 ______
                                 
          Prepared Statement of Rebecca Durham, Whitefish, MT

    Senator Burns: I am troubled by your quote, ``wilderness limits the 
ability of folks to enjoy'' public lands by keeping out off-road 
vehicle traffic.
    As a Montana resident, I feel that wilderness and a healthy 
environment are extremely important. As our valleys fill with roads and 
traffic, wilderness, solitude, quiet, and the splendor of nature are 
extremely important. We owe it to ourselves and to future Montana 
generations to safeguard wild places. Please do not underestimate the 
importance of wilderness.
    There are many places that people who wish to use off road vehicles 
may--in fact there are over 30,000 miles of roads in Montana national 
forests. Designating wilderness hardly limits the opportunities for 
this sort of recreation. Off road vehicle use is extremely destructive 
to the land when not properly managed, bringing in noxious weeds, 
pollution, and harming plants and animals. I urge you to support the 
National Association of Counties' call for the Forest Service to 
expedite forest travel plans that will establish responsible limits on 
ORV use.
    Wilderness IS multiple use, and belongs in our forests along with 
suitable areas for logging and vehicle traffic. Senator Burns, consider 
that many of your constituents value wilderness, and please support 
wilderness designations.
                                 ______
                                 
          Prepared Statement of Brian Peck, Columbia Falls, MT

    Senator Burns: What are you folks smokin' back in D.C. these days?! 
Of course Wilderness is one of the intended ``multiple uses.'' I've 
lived in the Rockies and Montana for 35 years, and Wilderness is where 
I find the cleanest air and water, the biggest trout and elk, and some 
of the last of the Quiet on God's green earth. We've got something like 
30,000 miles of roads on public land already and only about 4 percent 
of the state's in Wilderness. The guys who have forgotten the Montana 
traditions of hiking, horse packing, and floating, and can't go 
anywhere without their motors need to stop whining--they've got plenty 
of roads.
    You need to get outta Washington Conrad, and back to the REAL 
Montana--it's Wild--not a bunch more roads filled with sissys who 
forgot how to pull on boots and walk, or ride a horse.
                                 ______
                                 
             Prepared Statement of Elon Gilbert, Arlee, MT

    Dear Senator Burns: As a resident of Arlee on the Flathead 
Reservation I have long been enjoying the wild areas that surround me 
as a hiker and skier. I have also been a participant in the forest 
planning (FP) activities in the last several months both here in MT as 
well as in ID. Two comments:
    1. Despite lots of disagreement, FP is bringing folks together that 
thought they had nothing in common--this is healthy and the process 
should be respected, not usurped by political or bureaucratic behind 
the scenes dealings. The discussions on the roadless areas are the same 
ones that have featured in the FP process and this continues to cause 
confusion. I hope that you will see how the results of these two 
processes can converge.
    2. I strongly favor keeping existing roadless areas as they are and 
support wilderness designation for special areas, including the Great 
Burn/Malard Larkin the LoLo and Clearwater NFs.
    Thank you.
                                 ______
                                 
          Prepared Statement of Janelle Kuechle, Missoula, MT

    Senator Conrad Burns: I attended the hearing you held on December 
2, at the University on Montana, College of Technology in Missoula. 
After testimony from the six people on the panel, I heard you say to 
almost 500 people that you didn't ``think it's any different than a 
field of Iowa corn or a grass field in eastern Montana.'' Respectfully, 
Senator Burns, I couldn't disagree with you more. Having grown up in a 
farming community in Minnesota, a forest isn't anything like a corn 
field except that it is outside and grows. I realize that you probably 
made this comment off-the-cuff, but it seemed to show a lack of 
knowledge in regards to the reforestation projects that have run amuck. 
Because of clear-cut slopes which cannot support new seedlings due to 
slides and run off, not to mention a multitude of other reasons, so-
called sustainable harvest has not hit the mark.
    But, there's more to this issue. When we talk about multiple uses, 
it sounds like we all can use the forest together in harmony. In 
reality, uses don't always mix. For example, the Lolo Pass on the Idaho 
border has combined uses with separate trails for cross-country skiing 
and for snowmobiling. When I go up there to ski, I know that it won't 
be entirely peaceful, but I can live with that because I love the area. 
I have, however, yet to be up there when there hasn't been a snowmobile 
on the cross-country trail, or at least the results of one cutting 
across trails making it nearly impossible to ski safely.
    There was testimony by Russ Ehnes, President of the Montana Trail 
Riders Association, regarding limiting public access. Conspicuous by 
its absence was that he didn't mention illegally made trails all over 
the State of Montana. Ehnes also stated that ``the people who promote 
more wilderness are changing the nomenclature of the debate.'' Senator 
Burns, the words ``wilderness light'' are not coming from people who 
want wilderness designations. We want no such ``wilderness light.'' We 
want some places designated as wilderness forever, so that they are 
free of machines forever. I do not believe that the wilderness 
designation undercuts local economies. In fact, we had 10 million 
visitors last year, many of whom were wilderness seekers. Besides, 
there are already 90,000 miles of roads in our State. That is more than 
the lion's share of Montana to be used by thousands of trail-vehicle 
riders.
    Regarding the cutting of timber spoiled by the draught and 
subsequent beetle infestation, I believe that some logging should be 
allowed. However, not every piece of wood in the forest should be 
removed just because nature takes the course of fire and beetle kill. 
The trees that survive are the stronger strains which should be allowed 
to reforest the area. In addition, the remaining habitat provides cover 
for wildlife that is more conducive to the health of many species than 
a clear cut could ever be.
    Senator Burns, please bring people together to plan ahead for 
multiple use that designates wilderness forever, areas for logging, and 
roads for vehicle use. And please don't let people just talk about the 
market economy. Let's talk about the ``economy'' of the spirit, which 
ultimately has great value for stressed human beings who are over-taxed 
by a world that is almost completely industrialized.
                                 ______
                                 
          Prepared Statement of Tim D. Peterson, Missoula, MT

    Senator Conrad Burns: I am writing to provide testimony on behalf 
of Wildlands CPR regarding the recent Congressional field hearing on 
Forest Planning held in Missoula. Wildlands CPR is a national 
conservation group that specifically targets off-road vehicle abuse on 
public lands and actively promotes wildland restoration, road removal, 
the prevention of new road construction, and limits on motorized 
recreation. Please include these comments in the formal hearing record.
    Wildlands CPR would like to express concerns with the testimony 
delivered during the panel. Chief among our concerns are issues related 
to NFMA and NEPA, impacts related to dispersed motorized recreation, 
adequate funding to implement the new off road vehicle rule, wilderness 
recommendations in forest planning, issues related to forest health 
including beetle kill and logging, and concerns related to Forest Plan 
revision.
    There seemed to be a presupposition by members of the panel that 
there is a lack of motorized recreation opportunities on our National 
Forests. This is not the case. According to Forest Service data, 36 
percent of the national system, or 69,004,231 acres, is currently open 
to off-road cross-country travel. In addition, more than 273,529 miles 
of roads and trails are open to use by off road vehicles. These data do 
not demonstrate a lack of motorized access to America's National 
Forests. This abundant access the lack of balance on the ground, in 
fact, because only approximately 10 percent of national forest 
recreational visitors participate in winter or summer off-road vehicle 
recreation while at least one-third of the land is opened to cross-
country travel, not counting the additional routes that are 
specifically designated for off-road vehicle use.
    Dispersal of motorized recreation is also a concern for us at 
Wildlands CPR. Impacts from motorized users should be concentrated to 
reduce negative impacts to soil, water, and habitat, not spread over 
large and unmanageable areas. Russ Ehnes of the Montana Trail Riders 
Association remarked at the hearing, in reference to off road vehicle 
use, that: ``the solution to pollution is dilution.'' This familiar 
axiom was formulated in the late-twentieth century in relation to air 
and water pollution. The phrase implies that the same emission rate 
from a tall stack will have far less impact on nearby residents than a 
low stack. Unfortunately, this approach to lowering human exposure 
ignored the potential impacts of those emissions on areas further 
downwind. Hence the quick and easy solution, while effective, produced 
unforeseen environmental impacts. The same model is true in relation to 
impacts of motorized recreation. If more areas and trails are provided 
for motorized use, more negative environmental impacts will occur. This 
is especially true with regard to noxious and invasive weed seeds, 
which hitch a ride on motorized equipment. Forest Service Chief 
Bosworth named noxious and invasive weeds as one of the four key 
threats to the National Forest System. The more dispersed off road 
vehicles and motor vehicles become, the more dispersed noxious and 
invasive weeds become. A larger network of motorized routes also leads 
to greater habitat fragmentation and disturbance of wildlife and 
natural quiet. Instead of increasing impacts by permitting an ever-
expanding network of motorized routes, negative environmental impacts 
should be avoided by restricting motorized use to areas and zones where 
it can be more effectively managed. It is also important to consider 
the multiple use mandate when planning for off road vehicle use. 
Multiple use does not mean every use in every area, but a balanced 
spectrum of conservation, recreation and extractive activities. 
Multiple uses of the forest include quiet recreation such as hiking, 
bird and wildlife watching and skiing. As off road vehicle use becomes 
more and more pervasive, many other multiple uses of forest land are 
displaced as quiet users abandon areas dominated by off road vehicles 
and their attendant noise, dust and pollution. Quiet places are 
becoming harder and harder to find on forest lands as off road vehicle 
technology improves and allows these vehicles to travel farther and 
farther into the backcountry, impacting more and more resources along 
the way. Effective application of the Forest Service's multiple use 
mandate must include room for the natural quiet and solitude 
nonmotorized areas provide.
    Effective implementation of the new Forest Service rule ``Travel 
Management; Designated Routes and Areas for Motor Vehicle Use'' depends 
on adequate funding from Congress. When directly asked about funding 
needs, Chief Bosworth explained that the agency would find funding for 
route designations by being creative with line items rather than 
requesting additional appropriations. Here in Montana, we've already 
had one forest, the Helena, drop their travel planning entirely due to 
lack of funding. It is critical that Congress dedicate funding for 
route designation processes if the agencies are to deal effectively 
with off road vehicles. Adequate funding is crucial to correcting what 
the Chief named as another of the four key threats to the National 
Forest system, ``unmanaged recreation.'' If not adequately funded, the 
new rule could flounder, leading to a continuation of the serious 
problems caused by unmanaged motorized recreation. We respectfully 
request that you take the initiative to fully fund the implementation 
of the Travel Management; Designated Routes and Areas for Motor Vehicle 
Use Rule.
    The state of Montana currently contains 3,372,503 acres of 
designated Forest Service wilderness. Montana's total acreage is 
93,153,280. Only about 3.7 percent of Montana is Forest Service 
Wilderness. Montana has a lower percentage of land area in designated 
wilderness than Idaho, Wyoming, Colorado, Washington, Nevada, Hawaii, 
Florida, Arizona, Alaska and California. No new Forest Service 
wilderness has been designated in Montana since 1983. Interest in quiet 
recreation has increased exponentially since that time, (at an even 
faster rate than interest in motorized recreation), and Montanans want 
more wilderness. In Forest Plan revision, planners are charged with the 
duty to make a recommendation to the regional forester for lands 
suitable, available and capable for wilderness designation. While this 
technical process is not a mandatory precursor to an actual designation 
by Congress, it is important to recommend that land be managed for non-
impairment of wilderness values in the forest planning process. At the 
hearing, panelists argued that too much land is being recommended for 
wilderness designation in the forest planning process. The Beaverhead-
Deerlodge was cited as a specific example. At 3.32 million acres, the 
Beaverhead-Deerlodge National Forest currently contains 225,147 acres 
of designated wilderness. This represents 6 percent of the forest. The 
recommendation under the preferred alternative for 246,500 acres, if 
actually congressionally designated, would bring the total to only 14 
percent of the forest. This was highlighted as unreasonably large 
amount. We believe it is an unreasonably small amount. While wilderness 
recommendations such as these will be made for some forests, the 
Kootenai National Forest Plan revision contains no wilderness 
recommendation at all. This does not represent the Forest Service's 
multiple use mandate, as wilderness is a valid multiple use of federal 
lands. In addition, a common complaint is that wilderness eliminates 
access. This is untrue, as there are many more ways to access the 
forest than sitting astride an off road vehicle. Wilderness does not 
disallow access; it only places restrictions on modes and methods of 
access.
    Two of our nation's bedrock environmental laws, the National Forest 
Management Act (NFMA) and the National Environmental Policy Act (NEPA) 
were both referenced in the hearing. A need to reform these laws was 
expressed with the implication that these laws are outdated, written 
for a time when resource extraction was the management emphasis on 
public lands. Panelists argued that we have entered an era of 
restoration, and those laws (NFMA and NEPA) that once hindered resource 
extraction are hindering restoration. Unfortunately, we believe this is 
a misrepresentation of the actual on-the-ground situation. In recent 
years, land management planners have simply substituted the words 
``restoration project'' for the words ``timber sale'' in project 
documents. Given this mostly semantic change, many projects are 
challenged by conservation interests and citizens on the basis that 
they are not, in fact, true restoration. If these projects were indeed 
true restoration, they would meet far fewer challenges from the 
conservation community. Another common semantic smokescreen packages 
logging related to fuels reduction and reduction of fire risk as 
restoration. These projects may benefit local communities in terms of 
reducing fire risk, but they are seldom truly restoration. Land 
managers must consider the mandate of the NFMA--its requirements have 
improved management, monitoring and accountability. Public involvement, 
adequate consideration of environmental impacts, and the open processes 
guaranteed by NEPA are critical to the function of a public land 
agency. This success is not an indication that these bedrock laws need 
reform. If restoration is the true goal, forest projects should be 
defensible and thus move quickly through the NEPA process. These key 
laws hold land managers accountable to the American public, 
conservation and industry interests alike.
    The panelists' discussion surrounding beetle killed trees 
demonstrated a fundamental lack of understanding of natural processes 
of forest health, as well as the scope and scale of forested federal 
land. It is simply not practical or advisable to remove every single 
beetle-killed tree from federal land. Leaving dead and down trees in 
the landscape is not ``a waste of timber,'' it allows completion of the 
nutrient cycle. Some species, such as lodgepole pine, evolved with 
beetle kill and the fire that often follows for healthy regeneration. 
It is not possible to mimic natural processes by simply building roads 
and cutting trees. To do so would remove a substantial portion of the 
nutrient cycle, as well as further disturb other terrestrial and 
aquatic habitats. While factors such as global climate change, drought, 
and the effects of a century of fire suppression are leading to 
increased beetle kill in some areas, ``outbreaks'' on a landscape scale 
before Anglo settlement have been recorded all across the west, 
including the Flat Tops of the White River and Routt National Forests 
in Colorado and the high plateaus of the Manti-LaSal, Fishlake and 
Dixie National Forests of central and southern Utah. It is simply not 
possible to keep ahead of beetle kill by cutting trees. Contrary to 
Chief Bosworth's assertions, there is simply no sound science 
indicating that such a scenario would be plausible or beneficial to 
forest health. Chief Bosworth explained that land use designations will 
occur at the forest planning level. The agency must be clear about its 
multiple use mandate in forest planning, taking great care to be sure 
to include lands suitable for wilderness and lands suitable for other 
nonmotorized recreation, as well as supplying forage, wood and water.
    Finally, you remarked near the end of the hearing: ``I don't think 
[national forests are] any different than a field of Iowa corn or a 
grass field in eastern Montana.'' There is a vast difference between a 
piece of private ground managed for a single use and America's public 
lands. National Forests are not tree plantations, and more than just 
commodity harvest must be considered in their management. National 
forests are managed for multiple use, not single-use commodity 
production. The philosophy of National Forest as national woodlot is 
not one shared by the majority of American citizens, who see National 
Forests as a prime source of recreation, clean water, wildlife habitat, 
solitude and stunning natural beauty.
                                 ______
                                 
            Prepared Statement of Sharon Dill, Florence, MT

    I was out of town when your hearing was held in Missoula on Dec. 2. 
I would like my comments added to those of others.
    I attended several of the FS planning meetings and felt that they 
were bending over backwards to give the public a chance to be heard. If 
anything, there were so many meetings that it was hard to pick and 
choose which were most important to attend.
    You seem to have a concern about the multiple use mandate to the 
FS. To me, multiple use means that all types of use are worked into the 
forest plan, but it does NOT mean all at the same place. For example, I 
was recently cross country skiing at Lolo Pass. I dreaded crossing the 
road which the snowmobilers are allowed to use. Why? Because it is 
dangerous! I have heard that they are supposed to have a speed limit of 
15 mph in that area, but that simply doesn't happen. It hasn't been 
that long ago since a skier was hit and killed by a snowmobile in that 
same area so my concerns are legitimate.
    Please work to bring people with different interests together to 
figure out which areas work best for which activities and alleviate the 
polarization that tends to happen.
    I support wilderness areas and would like to see them increased. To 
me, that is the most important of the ``multiple uses.''
    I realize today is the deadline for submitting comments and hope 
this is not too late. I was unable to get online earlier due to 
technical problems with the internet connection.
    Thank you.
                                 ______
                                 
          Prepared Statement of Jane Timmerman, Kalispell, MT

    Sir: I moved to Montana 16 years ago looking for wilderness, wild 
animals, open spaces, peace and quiet that I couldn't find in the 
Midwest anymore. Now, northwest Montana is being ``discovered'' and 
open spaces here are dotted with ranchettes, strip malls. Even more, we 
need to preserve our wilderness (now only 4 percent of our state) 
because people need it to get away, for that peace and quiet. I'm not 
that good with words or describing my feelings, but I know how 
important a move Montana was for me. Please don't allow our wilderness 
to go to the highest bidder (big companies/corporations) who'll impose 
more limits in access to our state treasures of open and wild lands.
    Thanks.
                                 ______
                                 
             Prepared Statement of Gloria Flora, Helena, MT

    Greetings Sen. Burns: You invited comment essentially asking the 
question, ``What good is wilderness?''. A good question: one that begs 
an answer that is both simple yet profound.
    Less than 5 percent of our state is wilderness, that means our 
great-grandchildren can expect that less than 5 percent of the state 
will be almost exactly as it was in our ancestor's time. (Do you recall 
the extent to which your hometown and its surroundings have changed?) 
But instead of counting wilderness acres as a percentage of the state, 
we should count wilderness acres per capita . . . they're going down 
every year as the population grows. And this isn't just a Montana 
resource, these lands belong to all Americans, we're just the temporary 
caretakers--and typically darn good ones.
    Wilderness is a living, interactive museum as well as our 
childrens' legacy. Wilderness is an incredible source of clean water, 
trees that provide oxygen and absorb carbon dioxide, unaltered vistas, 
a laboratory for research, a multitude of recreation opportunities, 
especially hunting and fishing, a unique state identity drawing 
millions of tourists, a well-spring of biodiversity . . . the list 
could go on and on.
    Over 100 prominent scientists had this to say about undeveloped 
landscapes. ``Undisturbed forests are less susceptible to tree 
diseases, insect attacks, and invasions from non-native species, and 
are less likely to have suffered the adverse effects of fire 
suppression. These healthier ecosystems are in turn more able to 
withstand the effects of global climate change and act as refugia for 
sensitive wildlife and plant species, many of which are vulnerable to 
extirpation in more developed areas. Thus, intact forests can serve as 
reservoirs as surrounding landscapes become genetically impoverished.''
    As I said when asked the same question on a PBS TV show, 
``Wilderness represents the land as it was, and as it can be, and will 
be into the future. And it provides us not only the understanding of an 
undisturbed eco-system, but it also provides a beautiful opportunity 
for people to reconnect with nature. And that is a fast disappearing 
commodity in the world.''
    The wealthiest country in the world surely can afford to treat its 
resources sustainably. The Creator didn't just generate a marvelous, 
fecund landscape so every acre could be used up or destroyed. A prudent 
farmer keeps some of the seed stock.
    There are volumes of books devoted to the subject, if you'd like 
some recommendations, let me know. You may also want to spend some time 
at the renowned Arther Carhart National Wilderness Training Center in 
Missoula, Montana.
    Thanks for asking.
                                 ______
                                 
            Prepared Statement of Debbie Milburn, Helena, MT

    Why do Americans need more wilderness? Because it provides 
something that is in very short supply in our modern life:
  --Quiet
  --Slower pace of life
  --Pollution-free air, water and soil
    It's as simple as that. Off-road vehicles (OHVs) threaten these 
precious attributes. People don't need OHVs to recreate on public 
lands--they are not a traditional use. Our National Forests, along with 
Parks, Monuments and BLM lands are our last refuges from motor vehicles 
that are so prevalent in every other aspect of life. Wilderness and de 
facto wilderness is multiple use and a good choice for our land 
managers. Don't complicate the issue by allowing OHVs. There will be 
less:
  --trail maintenance,
  --user conflicts, and
  --impact on natural resources
    Our last remaining natural places should not be spoiled by allowing 
OHV use.
                                 ______
                                 
        Prepared Statement of Rockwood Scott Brown, Billings, MT

    Senator Burns: I am the owner of two outdoor stores--The Base Camp 
in Billings and Helena. I am writing to urge you to support Montana's 
Wilderness. Our Wilderness areas are very important to me, my business 
and all of our staff. Wilderness promotes the use of the goods we sell. 
Thanks for your consideration.
                                 ______
                                 
           Prepared Statement of Dr. Bruce Ammons, Arlee, MT

    I am very upset over the lack of protection for wilderness and wild 
areas within the purview of the Forest Service.
    I have lived in Montana my entire 50 years and started going to the 
Bob, Glacier, Yellowstone, and dozens of smaller parks when I was 4 
years old with my father, carrying a tiny Kelty frame pack and enjoying 
the grandeur of the land and close contact with other animals.
    As a long-time citizen of the state, well-travelled over the United 
States and to other countries, I urge you to do the right thing for our 
children and create as much wilderness as is possible at this point--
which actually can't amount to much overall even at a maximum, due to 
encroachment.
    I have seen populations of animals dwindle, forest roads lead 
poachers and trespassers on noisy, damaging ATVs into my family's land 
up Deep Creek, and snowmobilers trespass on all sorts of wild places 
they are not supposed to be so that they may ``high mark''. 
(Unfortunately, these idiots don't kill themselves often enough to 
really effectively remove themselves from the gene pool . . .) I have 
nothing against ATVs--they are very helpful on my farm.
    We owe it to common sense, decency, our children and theirs, other 
critters, and to peace-and-quiet, nature loving humans from all over to 
create wilderness, limit roads, create eco-corridors, ban ATVs from 
wild lands, and to not simply follow the nods of the lobbyists with 
money and power. Don't the ads on TV with Hondas and Kawasaki's tearing 
trails through wild desert and mountains bother you? The Japanese 
corporate bosses encouraging Americans to destroy their own heritage 
while lining Japanese pockets? They certainly bother me. Chevy ads 
where the desert dunes and wild areas are trashed in some display of 
macho are equally bothersome . . . These ads appeal to people who have 
never taken the time to learn how to be ``with'' the land and truly 
enjoy it. One doesn't ``conquer'' nature.
    If you want to see what happens in a state that really loves its 
ATVs and does little to control them, go look at southern Utah--huge, 
washed gullies from trails all over previously pristine wild areas. I 
have been bucked off horses frightened by snowmobiles and ATVs. let 
them use the 90,000 miles of roads that are already present in Montana 
and keep them off our wild trails.
    Recent plans for our national forests are appalling. They seem to 
have only one thing in mind: more areas to shred and make money from, 
votes to be had from the motorized folks, all at the expense of those 
on foot who do no damage to this beautiful heritage. Do not allow 
development that tears up the land and THEN asks for forgiveness, such 
as the BS development of a bogus ski area on Lolo Peak south of 
Missoula. This is not good land stewardship, not smart business 
thinking, and not what the majority of Missoulians want. The fellow who 
is behind it has a track record of dumb business deals and ego-maniacal 
thinking. I knew the previous generation of the Maclay family and I 
think they'd have given him a spanking for his rotten behavior.
                                 ______
                                 
        Prepared Statement of the Greater Yellowstone Coalition

    Senator Burns and Committee Members: Please accept these comments 
from Greater Yellowstone Coalition (GYC). GYC is a non-profit, 
conservation organization with offices in Bozeman, Montana; Cody and 
Jackson, Wyoming; and Idaho Falls, Idaho. Our membership of 
approximately 12,600 individuals, 100 local, regional, and national 
conservation organizations and 120 business sponsors, is committed to 
protecting and preserving the lands, water, and wildlife of the Greater 
Yellowstone Ecosystem, now and for future generations.
    GYC works on public land management issues throughout Montana, 
Wyoming and Idaho. Our work in Region 1 of the Forest Service focuses 
on the Custer, Gallatin and Beaverhead-Deerlodge National Forests. Our 
comments reflect our experiences working with local citizens and local 
land managers on Custer, Gallatin and Beaverhead-Deerlodge National 
Forest issues.

                         FOREST PLAN REVISIONS

    Forest plans and other land management projects are created in the 
broader public interest through a robust process of public 
participation. As Region 1 National Forests have undertaken the task of 
revising their forest and travel plans, the Forest Service has met with 
local citizens, held open house meetings in communities and listened to 
citizens who are most effected by land management decisions. Many 
Montanans have participated in these processes, working together and 
with the Forest Service to develop workable plans that reflect balance 
and multiple use management. Montanans are looking to Senator Burns for 
leadership in supporting these local efforts and the workable solutions 
developed through extensive public involvement. We offer two examples, 
from our own recent experience.
    The Gallatin National Forest is in the process of revising its 
travel management plan that will determine where and how people use the 
forest's roads and trails for the next 15 to 20 years. In September 
2005, the Forest Service concluded its public comment period for the 
Draft Environmental Impact Statement (DEIS) for the travel plan.
    The Gallatin National Forest has done an excellent job of involving 
local communities and recreational users of the forest throughout its 
travel planning process. GYC disagrees with some of the specifics in 
the Gallatin National Forest's management proposal. We believe the 
preferred alternative does not do enough to protect the forest's 
wildlife habitat, water quality and quiet recreation opportunities. 
Nevertheless, we support the process used by the Forest Service during 
travel planning. Our members, along with many others, actively 
participated in the development of a travel plan for the Gallatin 
National Forest.
    Thus far, the Gallatin National Forest has spent over 3 years 
revising its travel plan.\1\ The initial scoping process began in 
August 2002, with open houses in local communities and a 90-day public 
comment period on the scoping document or the ``benchmark.'' \2\
---------------------------------------------------------------------------
    \1\ http:www.fs.fed.us/rl/gallatin/projects/travel_planning/pdf/
timeline01_04.pdf
    \2\ http:www.fs.fed.us/rl/gallatin/projects/travel_planning/pdf/
Travel_Briefing_Paper_March_2005.pdf
---------------------------------------------------------------------------
    The Forest Service then released a description of alternatives for 
public review in August 2003, with another round of open house meetings 
in local communities and gave the public 90 days to comment on its 
proposal. On February 14, 2005 the Forest Service released its DEIS. 
The Forest Service held open house meetings in local communities near 
the Gallatin National Forest including: Bozeman, Big Sky, West 
Yellowstone, Big Timber, Billings, Cooke City, Gardiner and Livingston. 
These open houses gave local people an opportunity to meet with the 
Forest Service and provide the Forest Service with comments and ideas.
    Initially, the Forest Service gave the public a 90-day comment 
period to comment on the DEIS. During this comment period it became 
obvious that the public needed more time, and the Forest Service 
extended the comment period for an additional 45 days. When a computer 
glitch impacted peoples' ability to comment, the Forest Service granted 
yet another comment deadline extension. The comment period on the DEIS 
closed on September 2, 2005, lasting over 200 days. No one can 
rightfully claim that the Forest Service did not give the public ample 
opportunity to be involved in the travel planning process.
    Thus far the Forest Service has received over 16,000 comments on 
the Gallatin travel plan:
  --1,600 comments on the benchmark;
  --3,200 comments on the draft alternatives; and
  --12,000 comments on the draft environmental impact statement.
    The Beaverhead-Deerlodge National Forest is also in the process of 
revising its forest plan.\3\ Since January 2002 when the Forest Service 
released its scoping document, the Forest Service has attended over 100 
meetings with interest groups and public officials to discuss the 
forest plan. These meetings resulted in a draft forest plan and Draft 
Environmental Impact Statement (DEIS), released in June 2005.
---------------------------------------------------------------------------
    \3\ http:www.fs.fed.us/rl/b-d/forest-plan/revision/overview-
status.htm
---------------------------------------------------------------------------
    Again, GYC supports the process the Forest Service used to engage 
the public in developing this revised forest plan. Like the Gallatin, 
an initial 90 day comment period was extended to ensure the public and 
all interested parties had adequate time to comment on the draft 
Beaverhead-Deerlodge Forest Plan. The Forest Service gave the public 
over 120 days to comment, and when the deadline closed on October 31, 
2005 the Forest Service had received over 9,600 comments.

                      MULTIPLE USE AND WILDERNESS

    The Forest Service is mandated to conduct forest plan and travel 
management plan revisions following a number of federal laws and 
regulations, including the Multiple-Use Sustained-Yield Act of 1960 
(Act). The Act states, ``that the national forests are established and 
shall be administered for outdoor recreation, range, timber, watershed, 
and wildlife and fish purposes.''
    The Forest Service recognizes a number of activities classified as 
outdoor recreation including: hiking, hunting, bird and wildlife 
watching, wilderness, motorcycle and OHV use, skiing, snowshoeing, 
snowmobiling, etc. Under the Act, the Forest Service is mandated to 
provide a variety of outdoor recreational opportunities to the American 
people. However, this does not mean the Forest Service has to provide 
all types of activity on all areas of national forest lands.
    Under the Multiple-Use Sustained Yield Act wilderness, wilderness 
study areas and recommended wilderness are recognized and considered 
part of the multiple use spectrum. The Act specifically recognizes 
wilderness as multiple use: Section 2 [16 U.S.C. 529] states, ``The 
establishment and maintenance of areas of wilderness are consistent 
with the purposes and provisions of this Act.''
    The Act recognizes that multiple use of public lands does not mean 
all uses can occur in all places: Section 4 [16 U.S.C. 531] defines 
multiple use as:

    (a) ``Multiple use'' means: The management of all the various 
renewable surface resources of the national forests so that they are 
utilized in the combination that will best meet the needs of the 
American people; making the most judicious use of the land for some or 
all of these resources or related services over areas large enough to 
provide sufficient latitude for periodic adjustments in use to conform 
to changing needs and conditions; that some land will be used for less 
than all of the resources; and harmonious and coordinated management of 
the various resources, each with the other, without impairment of the 
productivity of the land, with consideration being given to the 
relative values of the various resources, and not necessarily the 
combination of uses that will give the greatest dollar return or the 
greatest unit output,'' (emphasis added).

    The Forest Service continues to manage Region 1 forests under the 
Multiple-Use Sustained-Yield Act by providing the public with a full 
range of opportunities and by managing forest lands for wildlife, 
recreation, timber production, mining, watersheds and grazing.
    Designated wilderness is a vital resource to Montanans and an 
appropriate use of national forest lands. Wilderness areas provide 
recreational opportunities unavailable anywhere else in the world. They 
also protect important fish and wildlife habitat and water quality.
    Only about 18 percent of all national forest lands are designated 
wilderness. In Region 1, which includes Montana, Northern Idaho, North 
and South Dakota, there are 25 million acres of national forest lands, 
of which 5 million, or 20 percent, are designated wilderness. On the 
Beaverhead-Deerlodge there are two wilderness areas, the Anaconda-
Pintler (117,435 acres) and the Lee Metcalf (107,694 acres), totaling 
225,147, or 7 percent of the 3.3 million acre forest.\4\
---------------------------------------------------------------------------
    \4\ http://www.fs.fed.us/rl/b-d/forest-plan/drafts/deis-voll/ch-
3h_inv-roadless-areas.pdf
---------------------------------------------------------------------------
    The Beaverhead-Deerlodge's preferred alternative for the forest 
plan proposes to designate additional wilderness. If all lands 
recommended for wilderness under the preferred alternative were managed 
as wilderness, only 14 percent of the forest would be wilderness.
    The Gallatin National Forest encompasses 1.8 million acres of land 
and contains two wilderness areas--the Absaroka-Beartooth (575,771 
acres) and the Lee Metcalf (140,594 acres).\5\ Approximately 39 percent 
of the forest is designated wilderness, leaving over 60 percent of the 
forest to be managed for other types of use.
---------------------------------------------------------------------------
    \5\ http://www.fs.fed.us/rl/gallatin/projects/travel_planning/pdf/
Deis_Ch_3/Ch3_Wilderness.pdf
---------------------------------------------------------------------------
    The Custer National Forest encompasses about 1.3 million acres and 
contains approximately 345,599 acres of designated wilderness \6\ 
including the Absaroka-Beartooth. Designated wilderness comprises 
approximately 26 percent of the forest, leaving over 74 percent of the 
forest to be managed for other types of use.
---------------------------------------------------------------------------
    \6\ http://www.fs.fed.us/rl/custer/aboutus/index.shtml
---------------------------------------------------------------------------
    In 2003 the Forest Service conducted a Wilderness Needs Assessment 
for Region 1 and found a need for additional wilderness \7\ for the 
following reasons: to provide for an expanding population, secure 
habitat for species that are dependent upon large undisturbed 
landscapes, and add underrepresented ecological cover types to the 
Wilderness system. Demand for wilderness recreation and experience is 
increasing. By managing areas as wilderness the Forest Service will 
provide wild places for people to visit and wildlife to thrive.
---------------------------------------------------------------------------
    \7\ http://www.fs.fed.us/rl/b-d/forest-plan/drafts/deis-voll/ch-
3h_inv-roadless-areas.pdf
---------------------------------------------------------------------------
            PROTECTING WILD LANDSCAPES MAKES ECONOMIC SENSE

    Numerous economic analyses have shown that Montana's protected 
public lands provide us with a competitive advantage over other parts 
of the country. Montana's public lands help attract new businesses, 
helping our local economies grow and diversify, creating opportunity 
for young people in Montana. Our public lands contribute to the 
lifestyle that so many Montanans enjoy.
    During the Gallatin National Forest travel plan revision the Forest 
Service conducted an expanded social economic analysis. Monitoring data 
showed that there were approximately 1.9 million visitors to the 
Gallatin in 2003. Using visitor expenditure information, it is 
estimated that these expenditures contributed about 1,100 jobs or 2 
percent of the local economy.\8\
---------------------------------------------------------------------------
    \8\ http://www.fs.fed.us/rl/gallatin/projects/travel_planning/pdf/
economic_social_Report.pdf
---------------------------------------------------------------------------
    The analysis looked specifically at how different types of 
recreation contribute to our local economy and found non-motorized use 
produces $5,605,337 in direct labor income effects and $1,733,549 in 
indirect and induced labor income effects.
    Montana's protected federal public lands provide us with a 
competitive advantage compared to other states or regions of the 
country. These national forest lands provide us with a longer hunting 
season, clean drinking water, opportunities for fishing and serve as an 
economic driver for our local economies. Managing these lands for their 
natural integrity allows Montana to keep our economic edge.
    Natural resource issues have long been controversial in Montana. 
That controversy reflects the public's passion and love for the 
bountiful wildlife, clean water, abundant fisheries, and wild lands 
that are part of our heritage. GYC asks that you safeguard that 
heritage. Please ensure that the natural resources we cherish are 
managed thoughtfully, with a sustainable, long-term vision. We ask you 
to provide support and leadership to efforts in Region 1 where 
Montanans are reaching across diverse interests to find workable 
solutions, rather than continue to foster polarization.
    We also ask you to let the Forest Service do its job. By working 
with local citizens to balance diverse and sometimes competing needs 
the Forest Service can meet public demand and ensure our national 
forests continue to provide high quality wildlife habitat, clean water 
and a variety of recreational opportunities.
    Thank you for considering Greater Yellowstone Coalition's comments. 
Please feel free to contact me with any questions.
                                 ______
                                 
         Prepared Statement of Families For Outdoor Recreation

    Honorable Senators: Chairman Conrad Burns, Thad Cochran, Robert 
Byrd, Pete Domenici, Robert Bennett, Patrick Leahy, Ted Stevens, Herb 
Kohl, Byron Dorgan, Dianne Feinstein, Judd Gregg, Larry Craig, Harry 
Reid, Barbara Mikulski, and Wayne Allard.
    Senators: Families For Outdoor Recreation (FFOR) represents 
thousands of families and groups across Montana, Northern Wyoming, the 
Dakotas and Southern Idaho. For decades generations of families have 
accessed our United States Forest Service (USFS) public lands to 
recreate, hunt, attain their livelihoods, and utilize public lands 
under the ``sustained multiple-use'' designations these public lands 
were set aside for. We are very supportive and want to express our 
appreciation for your time, attention, and interest in holding this 
special hearing by the Senate Interior Subcommittee. Our comments 
contained within this testimony, while very direct and pointed, are 
submitted with the utmost respect for the people and authority of the 
USFS. We believe that this Senate Interior Subcommittee Special Hearing 
can be the start of a process where the membership of the Senate 
Interior Committee, USFS Chief Bosworth, and the USFS Northern Region 
Forester Gail Kimbell can together come to the realization of how far 
the USFS has moved in their policies and actions away from managing 
public lands for sustained multiple use toward single ``quiet'' 
wilderness-like use. Furthermore we hope that this special hearing 
fosters a realization of the significant erosion of trust, confidence, 
and observed competencies the public has in the USFS of Region 1. 
Finally, we hope this special hearing kicks off a process for the USFS 
to reverse decisions and policies in order to return the USFS to the 
role of stewarding and managing our public lands in a manner that meets 
the mandate of sustained multiple use where we are all able to enjoy 
our public lands in the appropriate manner as we traditionally have 
been able to while protecting our great treasures for future 
generations to enjoy.
    Through the last five years the policies of the USFS in Region 1 
have been undergoing continual land use management and planning 
transformations. There has been the ``3-State OHV Rule'', several 
forest plan revisions, the Clinton Roadless Area Conservation Rule, the 
Travel Planning Process which is currently underway and the Bush 
Roadless Petition Process to name a few. During the next five years we 
will likely see the completion of the Travel Planning Process, some 
level of implementation of the Bush Roadless Petition Process, and 
implementation of the recently released ``Final OHV Rule''. One of the 
fundamental rules of management is ``make a good plan, implement the 
plan, monitor the outcome, and tweak things to perfect the product''. 
The USFS seems to be constantly changing their mind, switching and 
mixing Plans, Planning Methods, Policies, and mandates up. They have 
yet to implement a plan fully and thoroughly that meets the mandate it 
was originally set out for before grabbing for another Planning 
process. With all of these rules, changes, and the constant state of 
flux within the policies and planning it should not come as any 
surprise to hear that the public is confused about the process or what 
is actually being done, disgusted with the outcome, and generally 
frustrated with as well as distrustful of the USFS. We certainly hope 
this is not the desired outcome but it appears that confusing the 
public may be part of the overall strategy of the USFS.
    The 3-State OHV Rule is a mandate for the USFS to use in managing 
motorized use on public lands. If properly implemented this rule is a 
powerful tool for the USFS to use in managing motorized use and to 
address the claimed and perceived problems. Beyond applying the 3-State 
OHV Rule to inform the motorized users to ``Stay on the Trail'', the 
USFS has done a very poor job of adequately completing their 
responsible actions related their role in implementing this rule. Some 
trails were identified and some critical analysis was completed but not 
consistently across the Region. The public was minimally informed and 
educated but the rule has not been enforced in a consistent nor 
adequate manner by the USFS. Basically, the USFS applied the 3-State 
OHV Rule to bar the creation of new trails and freeze motorized use of 
public lands to the established trails and roads. It appears by their 
partial and incomplete implementation of the 3-State OHV Rule that the 
USFS may not really be interested in managing motorized use of public 
lands. Could it be that the USFS has a goal for motorized and 
mechanized activities on public land which is broader and more limiting 
than the 3-State OHV Rule will achieve? Could that goal be one of 
ultimately eliminating motorized and mechanized use from a majority and 
eventually all of Region 1 Forest Service public lands?
    The forest plan revisions have been on-going over the years with 
continual dwindling of sustained-multiple-use to a single use by hiking 
or horseback only. We continue to see less and less management of 
timber, management to prevent insect infestation, management of fuel 
load for fire prevention, road management, and trail management by the 
USFS. Our forest plans are becoming more and more oriented toward 
``hands off'' and ``people out'' also known as ``managing toward de 
facto Wilderness''. In addition, many of the Wilderness Study Areas 
that were designated many years ago to evaluate for the potential for 
Congress to designate them as Wilderness have been managed as de facto 
Wilderness ever since the studies started and well beyond the promised 
completion date with no timely resolution of the plan to return the 
areas to sustained multiple use or have Congress designate them as 
Wilderness. Motorized use has been banned, timber harvesting is off-
limits, removal of undergrowth and dead timber for fuel control is not 
being proactively employed on most of these Wilderness Study Areas. 
Perhaps this ``hands off'' and ``people out'' forest planning approach 
should be interpreted by Congress as a signal that there is a 
diminished need for the USFS department at its current staffing levels 
within the United States Department of Agriculture and USFS budget cuts 
should be imminent.
    Having seen the travel plans and the preferred alternatives for 
major reductions in motorized use across Region 1 it is obvious that 
the Travel Planning Process we are in the midst of now became a 
``golden opportunity'' for the USFS to eliminate motorized and 
mechanized use from the current roadless areas, turn areas with trails 
and roads into roadless areas at their discretion, and further squeeze 
motorized and mechanized use off of the public lands. In eliminating 
motorized access from our public lands the USFS is preventing healthy 
individuals as well as the handicapped, elderly, and disabled people 
from being able to experience the beauty any distance from the main 
road across Region 1. While the final decisions are not yet made it 
appears to be unlikely that the travel planning on any forest in Region 
1 will be completed without at least forty percent reductions in user 
access and possibly as high as eighty percent reductions in use and 
access for some forests. Where in the mandate for Travel Planning does 
it designate that ANY trails or areas must be closed or need to be 
considered for closure? Why not propose an increase of forty percent in 
trails and roads that would fit with the increased popularity of 
motorized recreation?
    Public involvement in commenting on the plans is a process the USFS 
is going through to ``touch base'' in the run to implement the 
preferred closure alternatives. In more that one instance during the 
past year there were two or three of these travel plans issued for 
public comment at once. At the same time there has been BLM planning 
requiring public involvement and comment underway simultaneously. These 
same people that need to review and comment on the plans also have full 
time jobs providing a living for their family, keeping our economy 
productive, and paying their taxes. This all has made it impossible to 
achieve adequate public involvement in the travel planning process. Was 
making public comment difficult a part of the strategy of the USFS? We 
hope not but it appears to be the case. This travel planning process 
should have been completed over a period of years, should have been 
staged for effective public involvement and comment, and most 
importantly should have been issued first on an ``as-is'' basis period, 
with no closures of areas to motorized access in this initial phase of 
the travel planning process!
    Trail identification and mapping is the foundation to the travel 
planning process. The trail inventories used for the travel planning 
should have been the same inventories used for the development of the 
3-State OHV Rule. Unfortunately, the trail mapping, route inventory, 
and condition analysis from the 3-State OHV Rule was never completed 
adequately.
    A vast majority of the Region 1 travel planning is invalid because 
of incomplete and ineffective trail identification, mapping, condition 
analysis, and marking. Finally, the maps presented in the travel plans 
lack enough clarity, resolution, and legend reference to distinguish 
what the plans really are for the trails.
    The analysis shown in the travel plans rendered thousands and 
thousands of pages of documentation laden with opinions, selective 
science, and very little statistical or factual data relevant to Region 
1. This is another significant indicator that the travel plans were 
completed in a hurry-up manner with a predisposed outcome to close 
areas and trails for motorized and mechanized. The economic analysis in 
the travel plans is general, high level and opinion-biased. It lacks 
professionalism, statistics, and surveys of affected people in the 
Region. The impact of motorized use on wildlife provided within the 
travel plan analyses was based upon opinion-bias not complete science. 
Wildlife studies that were cited were not taken in whole, entire 
sections were taken out of context to support decisions to close 
trails, roads, and large areas to snowmobiles based on motorized impact 
on wildlife. The scientific studies reveal that motorized use has a 
lower impact on wildlife than hiking and hunting. If it is truly the 
intent to not disturb wildlife then the areas need to be closed to all 
human use, not just motorized!
    Instead of performing travel planning for existing trails and roads 
and identifying roadless areas the USFS has adopted a policy in their 
travel planning which has a clear intent to discriminately eliminate 
selected families and individuals from being able to utilize a vast 
majority of public lands based upon their chosen form of sustained 
multiple use. The Wilderness Initiatives and Anti-Motorized Initiatives 
that can be seen on the web pages of the Wilderness advocate groups 
look strikingly similar to the content of the travel plans produced by 
the USFS. The management of the USFS is running rough-shod over the 
public and Congress in their quest to create de facto wilderness areas 
and to manage existing Wilderness Study Areas as de facto Wilderness. 
They are leveraging the travel planning mandate as the ``golden 
opportunity'' to aggressively achieve this agenda. Some at the USFS 
will cry foul to this accusation but the facts and the travel plans 
presented plainly display the de facto wilderness creation and 
management agenda. The plans and preferred alternatives presented by 
the USFS; ARE discriminating against motorized and mechanized use 
across large areas by locking gates and stripping roads and trails away 
from the public, eliminating snowmobile use from large tracts of public 
land, designating areas as ``roadless'' which actually have established 
roads and trails, NOT undertaking selective timber harvests to maintain 
a healthy forest, managing Wilderness Study Areas as de facto 
Wilderness, and the list goes on. As you investigate and analyze this 
situation you will come to the conclusion that the USFS is not adhering 
to their mandates of ``public service'' and ``sustained multiple use''. 
Furthermore, I believe you will agree that the creation of de facto 
Wilderness Areas and management of Wilderness Study Areas as de facto 
Wilderness is a slap in the face of our Congress.
    In June of 2005 the USDA released the most recent OHV Final Report. 
One key learning from the report is that twenty-five percent of the 
people prefer to participate in motorized recreation on public land. In 
Montana the number is slightly higher, nearing thirty percent of the 
population that desire motorized recreation on public land. The number 
of people recreating on public land using motorized has increased by 
eighty-six percent between 1994 and 2004. The USFS has seen the numbers 
of families and individuals choosing motorized travel on public land as 
a preferred form of recreation trending upward for many years yet they 
have not directed their resources to management of this use of public 
lands. If there is a problem with OHV use on public land then the USFS 
is a part of the problem by not actively being involved in monitoring 
the use, educating the public, and enforcing the rules. Following the 
trend of this report one with common sense and logic would expect the 
travel planning preferred alternatives to be those that present a 
larger number of motorized use, access and recreation opportunities. 
Instead the USFS management approach taken consistently across Region 1 
is that of proposing severe restrictions and banning families from 
motorized use of our public lands. This approach reflects that the 
attitude of the USFS has become one of--motorized and mechanized use is 
bad for the land and wildlife and therefore must be banished from the 
lands managed by the USFS.
    Families For Outdoor Recreation appreciates the time, energy, and 
interest of this Subcommittee and we feel through your oversight you 
will recognize and force the USFS to address their unfair, 
discriminatory and questionable practices, policies, and initiatives in 
public land management. Furthermore your actions are timely and 
necessary to intervene on behalf of the public to put a halt to the 
planned management actions of the USFS which will result in closures of 
significant portions of our public lands, barring future public use. 
The closures proposed for our public lands will forever reduce the 
ability for families, the handicapped, the disabled, and individuals' 
freedom to access significant areas of our public lands for recreation 
and to enjoy the awesome beauty. There is no reason to hastily rush 
through this travel planning process and do a sloppy job we will all 
regret and the USFS will face litigation over for a generations to 
come. Families For Outdoor Recreation requests the Subcommittee take 
the following items forward to the Committee for action:
  --Place an immediate moratorium on all Region 1 travel restrictions 
        and closures.
  --Require the Forest Service complete the trail inventory and 
        condition analysis of current travel routes as was required by 
        the 3-State OHV Rule AND properly implement and enforce the 
        Rule.
  --Require the Forest Service utilize NEPA if they choose to 
        permanently close trails on a trail-by-trail basis.
  --Require the Forest Service complete an economic impact analysis 
        with surveys of statistical relevance for the areas where they 
        are planning trail or area closures to motorized use.
  --Require the Forest Service to be held to the same high standard 
        which the government holds private citizens and companies to 
        for the use of statistical and scientific data in the analyses 
        performed for NEPA or otherwise in the forest planning 
        activities.
  --Require the Forest Service to stop discriminating against American 
        citizens with physical handicaps, elderly, and disabled 
        veterans and their families through their closures to motorized 
        access and use on public lands.
  --Require the Forest Service implement proactive timber harvesting 
        and fuel load reduction management practices.
  --Require the Forest Service to stop managing the public lands toward 
        turning them into de facto Wilderness and to stop managing 
        current Wilderness Study Areas as de facto Wilderness.
    Families For Outdoor Recreation and our membership would like to 
express our sincere appreciation and support to you for conducting this 
Senate Subcommittee field hearing here in Missoula Montana. Our mutual 
desire is to keep our beautiful public land and wildlife treasures 
healthy, flourishing, well cared for and available for all to see and 
enjoy.
                                 ______
                                 
             Prepared Statement of the BlueRibbon Coalition

    The BlueRibbon Coalition is a nationwide organization representing 
600,000 motorized recreationists, equestrians, and resource users. We 
work with land managers to provide recreation opportunities, preserve 
resources, and promote cooperation with other public land users. 
Following are our comments on the Draft Beaverhead-Deerlodge Forest 
Plan Revision (Revised Plan).
    We have many members in Montana and Idaho who recreate on the 
Beaverhead-Deerlodge. They are gravely concerned about preferred 
alternative 5 and the Revised Plan's direction. The Revised Plan would 
create six new recommended wilderness areas and add to two existing 
areas for an increase of 70 percent. Furthermore, it intends to manage 
these areas as if they had already been designated by Congress. It 
would close 158 miles of road and 234 miles of motorized trail, most of 
those in the most scenic areas of the forest. Summer motorized 
recreation opportunities would be reduced from 71 percent of the forest 
to 54 percent and snowmobiling would be reduced from 84 percent of the 
forest to 63 percent.
    Detailed comments on these issues in the entire Revised Plan have 
been submitted by our members and member organizations in Montana. We 
would like to specifically acknowledge and incorporate by reference the 
comments of Capital Trail Vehicle Association, Montana Trail Vehicle 
Riders Association, and Montanans for Multiple Use. We also wish to 
incorporate by reference the comments of the Idaho State Snowmobile 
Association. We are limiting our comments to the Draft Environmental 
Impact Statement (DEIS) and Revised Plan's direction for the Centennial 
Recommended Wilderness Management Area (Mt. Jefferson area).
    We find the DEIS' analysis of the Mt. Jefferson area significantly 
flawed, and are opposed to the selection of Alternative 5 which would 
eliminate snowmobiling in the area. Throughout the analysis, the DEIS 
fails to acknowledge that Mt. Jefferson area snowmobiling is nationally 
famous for outstanding scenery, challenge, and diverse appeal and where 
this enjoyment has no lasting impact on the resource. The Revised Plan 
usurps Congress' power to designate Wilderness by imposing Wilderness 
management administratively.

                         FLAWS IN DEIS ANALYSIS

    Demand for Wilderness. The DEIS carries forward in its analysis the 
assumptions taken from FSH 1901.12 that the demand for wilderness 
increases with both an increasing population and awareness of 
wilderness. Yet specific National Visitor Use Monitoring (NVUM) data 
shows that wilderness visits in the Beaverhead-Deerlodge are only 1.2 
percent of the total visits. Clearly, there is no demonstrated need if 
the use data is factored in, as it should be. Conversely, the DEIS 
acknowledges the demand for lands available for diverse recreation not 
allowed in wilderness. By recommending more wilderness and managing it 
as if it were already designated, these high quality lands are removed 
from the diverse recreation base where demand is increasing. By doing 
so, the Revised Plan ventures beyond resource protection and makes the 
political decision to ``protect'' high quality roadless areas from 
diverse use, even though few may actually visit.
    The DEIS incorrectly includes the subjective value, ``solitude'' in 
its Wilderness Suitability Evaluation. Solitude is one of the 
attributes of wilderness guaranteed in the Wilderness Act, and is not 
necessarily a condition present in lands suitable for eventual 
designation by Congress. It therefore does not need to be present, nor 
guaranteed in the present, only if designation occurs in the future. 
For example, lands now under consideration by Congress for wilderness 
have significant human incursions and less solitude, specifically 
acreages identified in the Wild Sky Wilderness bill in Washington 
State. The DEIS confuses managing the present condition with managing 
future designated wilderness.
    The DEIS addresses manageability in its Wilderness Suitability 
Evaluation, two components of which are presence or absence of non-
conforming uses, and size and shape for effective management. Clearly 
these two components have not been correctly applied to Mt. Jefferson. 
Non-conforming use, snowmobiling, has long been present, so much so 
that it is considered the ``crown jewel of western snowmobiling''. 
Snowmobiling is not only present, it is famous for it, and defines 
snowmobiling in the Island Park area. The size and shape do not allow 
for effective management, since snowmobiling access to the area is in 
multiple ill-defined places along the long border of Targhee National 
Forest in Idaho. Management in the Targhee, as has been pointed out 
multiple times, allows and even facilitates snowmobiling. The 
Beaverhead-Deerlodge, nor its policies, does not control access to the 
area. Management and enforcement. that would prohibit snowmobiling in 
this famous area would be difficult, if not impossible.
    Instead of acknowledging the long border between the Targhee and 
Beaverhead with multiple access points, the DEIS instead emphasizes Mt. 
Jefferson's brief proximity to BLM Wilderness Study Lands, now managed 
with no motorized use. There is only a short border, and no access from 
these lands. By ignoring the long Targhee border, the DEIS amazingly 
states, ``This alternative provides for protection of high quality 
wilderness character, . . . and consistent management across 
jurisdictions while generally minimizing disruptions to established 
non-conforming uses and providing a balance between competing 
recreational values.'' The DEIS biases its presentation of the facts in 
order to support the Revised Plan.
    The DEIS incorrectly changes the definition of wilderness 
characteristics to include subjective values, values which should be 
applied only when Congress acts. Lands only need be managed for 
eventual designation, concentrating on protecting physical resources, 
not subjective values. This incorrect application of values is 
especially blatant in Chapter 3, page 340 where the DEIS attempts to 
refute the benign effect snowmobiles have on the resource. It drags in 
a discussion on sound and tracks, both temporal in nature. This is a 
subjective and value laden ``impact'' which has no permanent impact on 
the resource.
    The DEIS ventures beyond the scope of the agency's mandate to 
manage the resources when, also on page 340, it states, ``The presence 
of non-conforming uses, in the interim, may lead to non-conforming uses 
opposed to wilderness designation.'' The DEIS thereby takes a political 
position to advocate additional wilderness designation, in violation of 
the agency's policy to manage the resource for all uses. It 
deliberately chooses wilderness type recreation at the expense of all 
others, especially in the case of Mt. Jefferson where snowmobiling is 
established and famous.

                     OMISSIONS IN THE DEIS ANALYSIS

    As previously mentioned, the DEIS has failed to consider Targhee's 
management, which was established in a recently revised Forest Plan. 
This management allows winter use, and subsequent actions have even 
encouraged it. A snowmobile parking lot, authorized by Targhee and paid 
with Idaho State snowmobile funds, is located at the Blue Creek-Yale 
Kilgore Road junction. This lot facilitates access to the Mt. Jefferson 
area. Targhee has consistently worked with snowmobilers to facilitate 
access, although the routes are not groomed. When snowmobilers 
protested new tank trap closures in the Blue Creek road, the closures 
were modified to accommodate snowmobile use. In spite of numerous 
comments and requests to coordinate management with Targhee, 
Beaverhead-Deerlodge management has denied and ignored them.
    Also ignoring past comment, the DEIS failed to acknowledge 
snowmobilers' cooperation with the agency in managing the area. With 
agency cooperation, they organized and conducted two clean-ups of the 
area during the summer. Yet subsequent project files make no reference 
to these volunteer efforts. The actual volume of litter was small, but 
the snowmobilers were happy to remove all that they found, stating that 
any litter in such a spectacular and pristine area is too much. 
Snowmobilers also agreed to a partial, temporary closure to study 
potential impacts on wolverine, and in subsequent years agreed to a 
partial closure, demonstrating their willingness to share the area with 
an extreme ski outfitter and his clients. This outfitter was not so 
willing to share; he demanded a total closure to snowmobilers.
    The DEIS' economic modeling stopped at the Montana-Idaho border. It 
did not consider the multi-million dollar economic impact that a 
Jefferson closure would have on Island Park and Fremont County, Idaho. 
For example,
  --Kevin Phillips, Island Park Polaris owner and Chamber of Commerce 
        President has stated that 90 percent of his sled rentals go to 
        Jefferson. Other business owners have similarly stated. They 
        state that snowmobilers who stay in the Island Park area spend 
        $300 per day per person; $400 per day if they rent a sled.
  --Mt. Jefferson is the focal point of nationally known snowmobile 
        businesses, for example Sno-West Magazine and other 
        publications, and Starting Line Products.
  --It has long been famous as a site for snowmobile publicity photo 
        shoots, videos, and performance testing. Since the mid-1980's 
        Arctic Cat has had a test facility based in the area.
  --The Island Park real estate market is booming, partly because of 
        the draw of Mt. Jefferson snowmobiling.
    The economic impact to Fremont County Idaho is so great that the 
DEIS and Revised Plan should describe how it intends to mitigate the 
impact of the Revised Plan as directed by Small Business Regulatory 
Enforcement Fairness Act of 1996 (SBREFA).

                   SBREFA AND THE MT. JEFFERSON AREA

    In 1996, SBREFA was passed. This act expanded the authority of the 
Regulatory Flexibility Act (RFA) passed in 1980 to minimize the burden 
of federal regulations on small businesses. Under SBREFA, the agency 
proposing the regulation must describe the steps it has taken to 
minimize the impact of its regulation on small business. Agency 
compliance is subject to judicial review, and the Small Business 
Administration can file amicus briefs in support of small businesses.
    SBREFA also provides for congressional review. Before any rule goes 
into effect, agencies are required to forward the rule to Congress. 
Major rules that have $100 million impact on an economy can't go into 
effect until congressional review is complete. Congress may take up to 
60 session days to review.
    Although the economic impact of the Revised Plan's Mt. Jefferson 
closure on winter tourism and snowmobiling is significant, it may not 
rise to the $100 million level. However, if rising real estate values 
in Island Park are considered, it easily meets and exceeds that 
threshold. Real estate values in a market like Island Park are 
dependent on the surroundings, and the subjective mystique of Mt. 
Jefferson and expansive winter recreation are a tremendous draw that 
can be quantified in rising real estate prices.
    We therefore request that the DEIS and Revised Plan describe how it 
intends to mitigate the economic impact on Fremont County, Idaho, and 
forward that mitigation plan to Congress for review per SBREFA.

                               CONCLUSION

    We request that the Mt. Jefferson area not be recommended for 
wilderness. As we have demonstrated, the DEIS' findings are flawed and 
skewed toward wilderness advocacy absent Congress' action. Instead, it 
should be assigned a management prescription that continues to allow 
snowmobiling seasonally while protecting the rugged, scenic resource 
for future generations. The snowmobile community and the BlueRibbon 
Coalition have already demonstrated willingness to protect this unique, 
wild, rugged area for current enjoyment and future generations. We hope 
to work with the Beaverhead-Deerlodge to continue this partnership in 
the future.
                                 ______
                                 
       Prepared Statement of the Montana Multiple Use Association

    Senator Conrad Burns: Montana Multiple Use Association is a non-
profit organization here in Montana that is working to protect the 
rights of Montanans. We are engaged in many resource issues across 
Montana, and would like to thank you for this grand opportunity to 
participate in this hearing.
    Like you, we are frustrated with the process that we have to work 
with regarding management of our public land resources. We have seen 
the management of our resources neglected for the past 30 years, and it 
is time to make some changes to insure that our resources are managed 
for the benefit of the people rather than managed from the people.
    In 1872, Congress enacted the ``Mining Law.'' ``Congress requires 
for the availability of minerals for the benefit of the United States 
of America.'' The United States Forest Service has used policy to go 
around this law. Forest plan revisions, travel planning and other 
projects currently underway, mention mineral resources in passing only. 
Access to our mineral resources must be protected, and current policy 
systematically eliminates this right guaranteed under the act.
    In 1897, Congress enacted the ``Organic Act.'' ``National Forests 
are reserved for two purposes; (a) To maintain favorable conditions for 
water, and (b) To insure a continuous supply of timber.'' The United 
States Forest Service has forgot the forest in the forest reserves. 
Rather than standing on the laws that protect the renewable resources, 
the forest service has ignored these resources in fear of litigation. 
The passing of the ``Healthy Forest Initiative,'' is a step in the 
right direction, but falls short in providing for local management of 
these resources.
    In 1934, Congress enacted the ``Taylor Grazing Act.'' ``Congress 
intended for the utilization of resources that are available on federal 
lands, therefore making these resources available not only to 
facilitate the success of area ranchers, but more importantly, this 
tool is used to manage the resources.'' Land management planning on 
federal lands, has given these surface resources to wildlife and have 
systematically left area ranchers unable to manage the resources. An 
example of this abuse can be found in Hage v. United States. Water 
rights and grazing rights of Montana ranchers are systematically being 
taken away. Constitutional rights that protect our citizens are also 
being dramatically impeded.
    In 1960, Congress enacted the ``Multiple Use and Sustained Yield 
Act.'' (a) ``Congress requires the forest service to manage the 
renewable surface resources of the national forest for multiple use and 
sustained yield of the several products and services obtained there 
from.'' Of the many resource laws on the books, ``MUSA,'' is one of the 
most abused neglected laws by the forest service. Multiple use of 
resources that are provided to benefit the people of the United States 
under the act must be upheld.
    In 1964, Congress enacted the ``Wilderness Act.'' ``While the 
wilderness act set aside areas to be left un-managed, we must insure in 
future planning, that the other federal lands do not become defacto 
wilderness areas.'' In May 2005, President Bush revoked the ``Clinton 
Roadless Rule.'' These defacto wilderness areas, have been neglected 
since their inclusion in the inventory process of ``RARE I and RARE 
II.'' None of these areas have qualified as wilderness, nor has 
congress brought closure to this debacle of public land management. No 
public lands reserved under the organic act or the wilderness act can 
be included in the wilderness preservation system without an act of 
congress. The forest service has administratively included these and 
other public lands in this management scenario, and is a direct 
contravention of the Act.
    In 1969, Congress enacted the ``National Environmental Policy 
Act.'' ``(a) While recognizing the further need to facilitate 
participation in the management of public land, this act requires for 
agencies to facilitate this participation through several different 
means. Beginning is scoping, through environmental analysis documents, 
the people of the United States are afforded the opportunity to 
participate in the decision making process.'' The ``NEPA Act'' is the 
one tool that protects the people from being eliminated from the 
process. The United States Forest Service has seen this law hamper the 
ability to efficiently manage our resources. On the other hand, the 
forest service regularly does not bring projects forward for public 
participation until after the predetermined alternative is chosen 
regarding a specific project. Many times we see these predetermined 
alternatives are developed behind closed doors resulting in sweetheart 
deals.
    In 1970, Congress enacted the ``Mining and Mineral Policy Act.'' 
``(a) The act further defines the need for mineral exploration for the 
benefit of the United States of America. Furthermore, while recognizing 
the environmental concerns, the benefit of mining to this country and 
its people must remain paramount.'' Forest Service planning, has 
continued to promote analysis paralysis in the availability of minerals 
here in this country. If our public lands do not provide for access, 
the resources contained therein, are rendered unavailable to benefit 
the people of the United States. Locatable minerals on public lands 
must be included in all management planning.
    In 1974, Congress enacted the ``Renewable Resource Planning Act.'' 
``While recognizing the need to manage our renewable resources congress 
made it clear that the forest service implements long term planning 
that would facilitate the health of our forests, while insuring we 
maintain a sustainable yield.'' The act further recognized that the 
transportation system of the national forest system lands is an 
integral part of the management programs. The forest service in the 
last several decades has not adhered to the act and have neglected the 
management of our public lands to the point of loss of value to the 
people of the United States.
    In 1976, Congress enacted the ``National Forest Management Act.'' 
(a) While the NFMA was adopted to further the definition of the 
management of national forest system lands, assurance was made not to 
repeal the mandates set forth in the Multiple Use and Sustained Yield 
Act.'' The management laws that are in effect to protect the resources 
for the benefit of the people of the United States of America. (b) 
NFMA, intended to further define the intention of the forest reserves, 
while not elevating ecological factors above any other multiple use, 
nor was there any intention for this law to require national forest 
planning to be contingent upon such considerations.'' The organic Act 
set aside forests to benefit all the people of the United States, and 
the act further defines this intent. The trend of the forest service to 
allow ecological factors to supersede the law, must be stopped.
    Intergovernmental Cooperation Act (31 U.S.C. section 6506c) (a) 
``Analysis Paralysis, has in large been a result of management 
decisions being made at national levels, resulting in the local 
management personnel being left to defend the decisions.'' We are all 
too familiar with this problem in the management of our public lands. 
Montana professional resource managers must be allowed to participate 
in the management planning. The citizens of Montana are protected under 
the Constitution of the United States, and the State of Montana to the 
right to participate. Local governments that depend on our natural 
resources must be involved in the process more than just by minimum 
notification requirements.
    Endangered Species Act/Clean Water Act/Clean Air Act. ``These and 
other environmental laws that have been enacted over the past 30+ 
years, play an important part in resource management. While maintaining 
concern for the environment, we must take care to insure that the 
cumulative effects of these laws do not prohibit the management of our 
resources for the future generations.'' We must remember that no 
ecological factor can be elevated over other multiple use of our public 
land resources. 36 CFR 294.12, The law affords the people of Montana an 
opportunity to move in a positive direction in resolving some of the 
management concerns we have. With that said, the law has created much 
confusion on how to proceed. Governor Schweitzer has publicly rejected 
this opportunity on behalf of Montana. He contends that the process is 
no more than a mandate on the state that ultimately will be decided in 
Washington. Please clarify this with Governor Schweitzer on behalf of 
the citizens of Montana. Roadless Areas are not wilderness, and the 
forest service must stop managing these lands under policy.
    36 CFR 212.2, Resources many times are only thought of in the 
extraction of renewable and depletable resources. ``Recreation'' is 
also a resource, and is very important to Montana. The law for the 
first time since the ``MUSYA,'' gives recreation a seat at the table in 
resource management of our public lands. The forest service system and 
non system roads and trails must be recorded in the roads and trails 
atlas as required by law. Forest planning has moved forward without 
including inventory of these roads and trails. The public has been 
submitted proposed actions in region 1 without any reference of 
existing roads and trails in the mapping or documentation that is 
required to be part of the proposal.
    The management of public lands in region 1 is not being carried out 
under the intent of MUSYA. Many of our public lands are now being 
managed under a single use designation, by officials charged with 
managing our public lands.
    From actions and communication provided by the Region 1 land 
managers, they genuinely feel they are in full control of the land, and 
the decisions are theirs to make without any accountability.
    Wholesale changes in designation for areas and trails in order to 
reduce motorized use, instead of travel planning consisting of a 
logical approach to trail identification, mapping, marking and 
designation based on current use, and law must be addressed.
    Region 1 is currently looking at hundreds of thousands of acres of 
public land in large block areas that are planned for closure to 
multiple use, rendering these lands to be managed for single use for 
less than 2 percent of the public.
    Region 1 is currently under 2 forest plan revisions and numerous 
travel plans. It is apparent when one looks into these proposals that 
planning direction is resulting in 40 percent to 80 percent reduction 
in motorized use of the lands in the project areas.
    Region 1 is under an aggressive planning schedule, and the public 
has found it near impossible to afford participation in the process. In 
addition, BLM planning requiring public involvement and comments 
simultaneously further prohibits site specific input from the citizens 
that work in Montana. Essentially, the forest service in region 1 is 
using this aggressive approach to complete a change in the management 
of our public lands in a few short months. The NEPA process is being 
stretched to its limits.
    The forest atlas of roads and trails in region 1 is not worth the 
paper it is recorded on, as the bulk of districts in region 1 have not 
done required upkeep of these records, resulting in inaccurate 
transportation system management.
    Analysis Paralysis continues with 1,500+ page Environmental Impact 
Statements filled with opinions, selective science, and very little 
statistical or factual data. Lack of critical analysis and no 
consistency has lead us to believe that there is no chance for a 
conclusion based on solid fact based analysis. Furthermore, data 
obtained in the Smoky Mountains, no more applies to the Rocky Mountains 
than data from here applies to the Smokies.
    The trend in region 1 to ignore multiple use mandates by using an 
adaptive public land management program has resulted in our resources 
being devastated.
    Montana Multiple Use Association is proud to be among the group of 
United States Citizens that believe in managing our resources to 
benefit all the people into the future. We look forward to working with 
you to achieve this goal.
    On behalf of the citizens of Montana, I would be happy to testify 
at the hearing in Missoula, and will look forward to meeting with you 
at that time.
                                 ______
                                 
         Prepared Statement of the Montana Logging Association

    The Montana Logging Association (MLA) offers the following written 
comments on the above referenced congressional field hearing. The MLA 
represents approximately 600 independent logging contractors--each of 
which operates a family-owned enterprise that harvests and/or 
transports timber from forest to mill. In Montana, the vast majority of 
timberland is owned by government agencies--most notably the U.S. 
Forest Service--therefore, the economic welfare of MLA members is 
directly dependent upon the policies and actions of federal land 
managers.
    It is with keen interest that we have not only reviewed the release 
of the new 2005 Planning Rule, but also participated in over 150 hours 
of forest plan meetings on the Beaverhead-Deerlodge, Flathead, 
Kootenai, Lolo and Bitterroot National Forests' over the course of the 
past few months.
    As you are aware, instead of revising their forest plan with 
benefit of new provisions in the 2005 Rule, the Beaverhead-Deerlodge 
National Forest chose to revise their forest plan using the old 1982 
Planning Rule. Whereas the new rule is a revolutionary change in the 
way the U.S. Forest Service approaches management planning and long-
term ecosystem sustainability, we are very disappointed that the 
Beaverhead-Deerlodge NF declined to adopt the new planning rule in 
developing their long-term resource strategies.
    Since 1897, the U.S. Forest Service has been charged with ``Caring 
for the land and serving people.'' In addition to their dedication to 
this creed, public land managers must also balance a diverse set of 
goals and objectives with an understanding of the ecological processes 
at work on the landscape. Unfortunately, prolonged drought conditions, 
a declining timber-sale program, the removal/suppression of fire from 
the ecosystem and escalating appeals and litigation are all 
contributing factors to an unnatural and unhealthy distribution of 
several species across wide landscapes within Montana's national forest 
system.
    At no other point in public land management history is the range of 
natural variability so out of balance; thus, we are at a critical land 
use planning juncture. Resource managers must have an inspirational 
vision and a science-based approach to maintaining a disturbance-
dependent ecosystem by designing timber prescriptions and vegetative 
treatments that will ensure a desired future condition, while also 
enhancing and protecting resource values within both roaded and 
unroaded timberlands.
    Because social, economic and ecological systems are complex and 
fluid, sustainability cannot be defined as a specific condition at a 
particular place and time. Rather, current conditions and trends over 
time are used to gauge progress in achieving the long-term social, 
economic, and ecological goals that define sustainability. A 
``sustainable'' system is not just a catch phrase to indicate goods 
that are harvested and traded in the local economy. Inclusive within a 
sustainable system is the beneficial ecological attributes of clean 
water and air, resilience to disturbances, a diverse ecosystem and a 
desirable landscape for recreation and esthetics.
    First--and most importantly--we support a recommitment to, and the 
reinstatement of, multiple-use mandates for all forest plan revisions 
regardless of which planning rule guides the revision process. The 
Multiple-Use Sustained Yield Act of 1960 and the National Forest 
Management Act of 1976 mandate that the National Forests are 
established and shall be administered for outdoor recreation, range, 
timber, watershed, and wildlife and fish purposes.
    The preamble of the new 2005 Rule highlights that desired 
conditions are not the primary purpose of a plan. Instead, the 
``overall goal of managing the National Forest System lands . . . is to 
sustain the multiple-uses of its renewable resources in perpetuity 
while maintaining long-term productivity of the land. Resources are to 
be managed so they are utilized in the combination that will best meet 
the needs of the American people.'' Section 219.1(b) of the new rule 
clarifies that a forest plan can contribute to ``three interrelated and 
interdependent elements'' of sustainability--``social, economic and 
ecological.'' Also, Section 219.10 of the rule gives specifically 
credence to the fact that a plan's contribution to sustaining social 
and economic systems within the plan area is just as significant as 
ecological sustainability. Maintaining or restoring the health of the 
land enables the National Forest System to be good neighbors--by 
providing a sustainable flow of uses, values, benefits, products, 
services and recreational opportunities that are important to the 
economic sustainability of surrounding and adjacent communities.
    Second, there are several aspects of the new planning rule that we 
support and strongly believe proposed planning on the BDNF would have 
benefited from. In brief we support: (a) forest plans as strategic 
documents; (b) an approach to plant and animal diversity that focuses 
on ecosystem diversity with additional protection for species not 
covered by the ecosystem coarse or fine filters; (c) the development of 
the Environmental Management System (EMS) as a third-party monitoring 
and auditing system to gauge sustainability success; (d) the 
evaluation, condition and trends reports; (e) species diversity; (f) 
species of concern; and (g) suitability of areas.
    With this in mind, we would like to focus the remainder of our 
comments on the two plan components before you today--timber 
suitability and public access. The 2005 Planning Rules continue their 
emphasis on simplicity in at least five timber-related areas.
  --NFMA requires the adoption of ``regulations . . . specifying 
        guidelines for land management plans'' which ``insure that 
        timber will be harvested from National Forest System lands'' 
        and ``insure that clear-cutting, seed-tree cutting, shelterwood 
        cutting and other silvicultural procedures designed to 
        regenerate an even-aged stand of timber shall be used.'' 
        Section 219.12(b)(2) of the 2005 Planning Rule states that the 
        Forest Service Chief ``must include in the Forest Service 
        Directive System procedures to ensure that plans include the 
        resource management guideline required by 16 U.S.C. 
        1604(g)(3).''
  --NFMA further requires that the Forest Service calculate the long-
        term sustained yield capacity of a national forest and 
        generally limit timber sales to a level equal to or less than 
        that figure. Section 219.12(b)(1) of the new rule states that 
        the Forest Service Chief ``must include in the Forest Service 
        Directive System procedures for estimating the quantity of 
        timber than can be removed annually in perpetuity on a 
        sustained-yield basis in accordance with 16 U.S.C. 1611.'' The 
        1982 Rules refer to the Allowable Sale Quantity (ASQ) as a 
        ceiling and as the timber sale level the plan intended to 
        provide.
  --NFMA also requires the establishment of ``standards to insure that, 
        prior to harvest, stands of trees . . . shall generally have 
        reached the culmination of mean annual increment of growth.'' 
        The preamble in the 2005 Rule states that CMAI direction will 
        be provided in the Agency Directives and asserts this is 
        permissible ``because NFMA does not require this guidance to be 
        in the rule itself.''
  --The 1982 Rule specifically states that timber production and 
        harvest is an ``objective'' in forest planning. Under the 2005 
        Rule--unless lands are removed by congress--timber production 
        and harvest is either a primary or secondary management 
        objective.
  --NFMA further requires that, during preparation and revision of a 
        forest plan, the Forest Service must identify ``lands which are 
        not suited for timber production, considering physical, 
        economic, and other pertinent factors.'' On such suitable lands 
        . . . ``except for salvage sales or sales necessitated to 
        protect other multiple-use values, no timber harvesting shall 
        occur on such lands for a period of 10 years.''
  --The 2005 Rule includes concise language on identifying lands ``not 
        suitable for timber production'' in Section 219.12(a)(2). As 
        under the 1982 rule: (1) identification occurs during 
        preparation or revision of a forest plan; and (2) lands can be 
        found not suitable where commercial ``timber production would 
        not be compatible with the achievement of desired conditions 
        and objectives established by the plan for such lands.'' 
        However, Section 219(a)(2) eliminates most standards and 
        detailed procedures for identifying unsuitable timberlands. 
        Also, as prescribed by NFMA, this same section provides that 
        ``salvage sales or other harvest necessary for multiple-use 
        objectives other than timber production may take place on areas 
        that are not suitable for timber harvesting.''
  --Section 219.12(a)(2)(ii) asserts that the unsuitability 
        ``identification is not a final decision compelling, approving, 
        or prohibiting projects and activities.''
    The issue of determining ``timberland suitability'' has been one of 
the most intensely debated issues at many of Montana's forest plan 
revision meetings and, to date, is still being debated amongst planning 
staff. For those who would prefer to see more ``suitable timberlands'' 
designated ``unsuitable,'' the fight is on over Montana's current 
5,218,549 acres of ``suitable timberlands;'' therefore, it is 
imperative for the integrity of Montana's remaining forest products and 
timber harvesting infrastructure that our ``suitable timberlands'' 
remain available for timber production, harvest and other multiple-use 
objectives.
    The vegetative analysis on all forest plan revisions should model 
the allowable sale quantity. Modeling should not simply be based upon 
current budget constraints. Forest plans are zoning plans, not budget-
based documents. Models based on current budgets cannot take into 
account future changes in budget conditions--such as recent changes to 
the K-V authority--future appropriation levels and shifts in national 
priorities. The ASQ or Timber Sale Program Quantity (TSPQ) must be 
based on actual resource allocation and capacity. The actual capability 
and long-term sustained yield calculations should be the basis for 
which Congress should approach appropriation requests and budget 
adjustments. Not only is a budget driven Forest Plan in direct 
violation of the National Environmental Protection Act (NEPA), but the 
trajectory of such a Plan cannot run parallel to capacity and resource 
need.
    Another important consideration in determining ``suitable 
timberlands'' is the critical need to address millions of acres of dead 
and dying timber region-wide. All forests must identify salvage acres 
on non-congressionally-designated roaded and unroaded lands and prepare 
a mitigation plan as part of the forest plan revision process. 
Community Wildfire Protection Plans, Wildland Urban Interface acres, 
municipal watersheds and any forest system lands that are out of their 
historic range of variability must remain open to active resource 
management.
    In addition to the importance of correctly identifying ``suitable 
timberlands,'' is the issue of classifying Inventoried Roadless Areas 
(IRAs). Discussions so far have indicated that most ``suitable 
timberlands'' are likely to remain classified as ``suitable'' as long 
as there is a road system present; however, there are thousands of 
acres of ``suitable timberlands'' in the current suitable base that do 
not have a road system, but meet all the criteria under NFMA as 
``suitable'' for timber production or harvest. Yet, Region 1, in an 
effort to take the contentious road issue off the table, has proposed 
reclassifying current ``suitable timberlands''--without roads--as part 
of the IRAs. This is totally unacceptable!!!
    NFMA specifically directs classification criteria in identifying 
roadless characteristics--and ``suitable timberlands'' without roads is 
not within that direction. The recommendation on the Beaverhead-
Deerlodge NF draft environmental impact statement, for example, 
proposes reclassifying approximately 500,000 acres of ``suitable 
timberlands'' as IRA based solely on the road issue.
    It is too soon to determine if all forest plan revisions in Region 
One intend to reclassify unroaded ``suitable timberlands'' as IRAs; 
however all Forest Service starting options reveal this 
reclassification to be the proposed action. If each forest plan 
revision team follows this trend, Montana's ``suitable timberlands'' 
could potentially diminish by an estimated 4 million acres! We 
reiterate, this capitulation of responsibility is totally 
unacceptable!!!
    Prior to any such changes in land-use allocations, we strongly 
believe that there are several critical components pertaining to forest 
health and long-term industry sustainability that need to be completed 
and incorporated into Plan revisions:
    1. All County/Community Wildfire Protection Plans (CWPPs) must be 
completed to assess local resource concerns.
    2. All Wildland Urban Interface (WUI) lands must be open to active 
management.
    3. Access to in-holdings, such as airstrips, mining claims, FAA 
radar and tower sites, reservoirs and State and private lands must be 
recognized.
    4. Buffers around utility corridors must be established.
    5. All current IRA boundaries must be reviewed for accuracy because 
the 5,050,710 acres identified in the in RARE I and RARE II process 
have been modified over time.
    6. Lastly, the UM Bureau of Business and Economic Research report--
that was requested by Montana's congressional--must be incorporated 
into the discussion and decision process. Among that report's 
conclusions are:
  --``With no change in current harvest levels, Montana will likely see 
        the closure of more than one of its largest timber processors, 
        along with the shut-down of several smaller mills.''
  --``A 15 percent increase in Montana's annual timber harvest . . . 
        would meet virtually all of the current milling capacity needs 
        in Montana. . . .''
    To be perfectly clear, the only entity that can provide the 
additional 15 percent of timber necessary to sustain Montana's forest 
products industry is the U.S. Forest Service.
    Senator Burns, as you know, active resource management on Forest 
Service System lands is complex. In order to meet forest plan 
objectives well into the future, resource managers must have the 
authority--and a professional timber-harvesting workforce--in order to 
achieve healthy forest sustainability. The Montana Logging Association 
stands ready to help with this important mission . . . and sincerely 
appreciates this opportunity to comment and the committee's interest in 
Montana's forest planning.
                                 ______
                                 
                  Letters From Stanley Kempa, Et. Al.

Spike Thompson,
Forest Supervisor, Lewis and Clark National Forest, P.O. Box 869, Great 
        Falls, MT.
    Dear Supervisor Thompson: I strongly disagree with the trail 
closures for OHVs in the Proposed Action for Summer and Fall Recreation 
in the Jefferson Division of the Lewis and Clark National Forest. The 
Jefferson Division, in particular the Little Belt and Castle Mountain 
ranges, provide the last and best high-quality trail experiences for 
thousands of OHV riders from the surrounding communities and beyond. 
These areas have been used by Montana's OHV community for over 50 
years. OHV use is and should be considered a traditional use of these 
areas.
    There are currently many large blocks of National Forest lands 
which are off-limits to OHVs and provide high quality non-motorized 
opportunity in the Highwood Mountains, Snowy Mountains, Crazy 
Mountains, and on the Rocky Mountain Front. These areas are more than 
sufficient to accommodate people from the surrounding communities and 
beyond who wish to enjoy non-motorized recreational pursuits.
    In addition, pending and imminent trail closures in the Helena, 
Gallatin, and Rocky Mountain Division of the Lewis and Clark National 
Forest will further concentrate OHV use to the Little Belt and Castle 
Mountains. These two areas are critical to providing high quality OHV 
recreation opportunities in Montana and should be managed to provide 
access for the entire public along with resource protection.
    In addition, I strongly oppose the proposed large blocks of non-
motorized winter recreation area the proposal would create. 
Snowmobiling does occur in many of these areas and many riders who use 
these areas were not represented in the negotiations that created the 
proposal. The proposal excluded several local snowmobile clubs, non-
affiliated snowmobilers, cabin owners, and other stakeholders that 
should have been represented in order for the proposal to be considered 
legitimate.
            Sincerely,
                    Stanley Kempa; James L. Smereck; Virginia E. 
                            Radovich; Aucille J. Blamey; Joyce E. 
                            Kempa; R.K. Kjelsrud; Phyllis Kjelsrud; 
                            Kaylin Fleming; Gene A. Meek; Dorthie 
                            Fullerton; Roger Bridgeford; Shawn L. Holm; 
                            Anne Hopper; Martin Storfa; Henry Woloszyn; 
                            James W. Krause; Erik P. Dubbe; Darnell A. 
                            Stucken; Alan S. Cape; Sharon Cape; Ken 
                            Bender; Ray Franz; Jon Dullum; Richard S. 
                            Johnson; Brad McMann; Dave McCane; Mike 
                            Pistelak; Steve Kaste; E.E. Sawyer; Blake 
                            A. Luse; Joan Gondeiro; Jess Reed; Todd I. 
                            Malin; Richard Gondeiro; Fred W. Maeder; 
                            Tim Toss; Carl J. Garner; Dustin Eddleman; 
                            Paul Bertoli; Robert Holt; John Seaman; Bob 
                            Watson; Daniel P. Watson; John A. Seitz; 
                            Gary Snyder; Robert A. Carroll; Connie 
                            Listoe; Wayne Listoe; Marty Hiatt; Judy 
                            Reed; Sheldon Clair Schearer; Gene Heller; 
                            Brian S. Franklin; Rob Beall; Casey Riggin; 
                            Shelly Riggin; Bill Price; Heather O'Brien; 
                            Kit Hom; Shaune O'Brien; Forrest Halge, 
                            Jr.; Scott McGary; Gary Hagfors; Anthony J. 
                            Sarica; John L. Richtea; Eric Picken; 
                            Furman Scott McCurley; Levi C. Eberl; 
                            Everett D. Lame, Jr.; Roger Talbott; David 
                            H. McVeda; Tom Mitcham; John W. Virgin; 
                            Melanie Ann Picken; J. Drew Hogan; Marc 
                            Sears; Pennie Vihinen; Ronald Vihinen; 
                            Katie Heiteman; Aaron Heiteman; Joey 
                            Zahara; Kay Witham; Jeff Allain; Douglas J. 
                            Magers; Michael Anderson; Kenneth R. Lay; 
                            Adolph Bertoli; Dianne Bertoli; Michele L. 
                            Mans; Jan F. Bicsak; Keith A. Bicsak; 
                            William L. Braun; David A. Davison; Tara 
                            Rosipal; Timothy D. Haas; Marlan Tipps; 
                            Bryan Marquart; Lorraine G. Richards; Kim 
                            Lorang; Russell J. Latka; Elmer B. 
                            Richards; Jon A. Legan; Sandra Latka; Rhett 
                            M. Stephenson; John Thomas; Sharid Lee; 
                            James R. Sangray, Jr.; Dave Parantea; 
                            Michael M. Myers; Scott C. Anderson; James 
                            B. Brown; Greg E. Spangelo; Brian R. 
                            Christianson; James R. Sangray, Sr.; 
                            Michael L. Stephenson; Tim Rohlf; Kim D. 
                            Anderson; Vance Canody; Adam Tranmer; 
                            Whitney Such; Linda Sangray; Rod Hagestad; 
                            Julie Zarr; Charlotte Kantorowicz; J.C. 
                            Kantorowicz; Greg Letz; Michael Joe Knox; 
                            Casey J. Kuhn; Joseph M. Eckeusley; Erik S. 
                            Farris; Richard A. Gallehow; Mitch Kellogg; 
                            Bryan Andersen; Ron Zarr; Leroy A. Weikum; 
                            Roxanne Weikum; Wayne Luksha; Bonnie 
                            Luksha; Bill Tamietti, Jr.; Bob Barber; 
                            Randall Rappe; Bonita Rappe; Claudia 
                            Barker; Deon Moldenhauer; Pamela J. Howard; 
                            Tony Rupnow; John J. Zuris; Derek 
                            Gunenberg; James R. Thomson; Thomas G. 
                            Winjum; Eric Gysler; Bert Beattie; Edward 
                            L. Widell; Ryan Solyst; Thomas A. Warr; 
                            Michael L. McMann; Jim Hoxner; Jeff Widner; 
                            Velvajean Merritt; Jay Warehime; Justin 
                            Augustine; Gary L. Collins; Clinton M. 
                            Oppelt; Dan Richards; Adam Davis; Chad 
                            Mans; Todd Mans; Dan McGurran; Fred Mital; 
                            Diane Guckeen; Vaughn Guckeen; James L. 
                            Hutchins; Donald F. Cotton; Jack Miller; 
                            Joe Ohgaim, Jr.; Glen Boettcher; and David 
                            Buck.
                                 ______
                                 
                   Letters From Tammy Baber, Et. Al.
Leslie W. Thompson.
Forest Supervisor, Lewis & Clark National Forest, P.O. Box 869, Great 
        Falls, MT.
    Dear Supervisor Thompson: I would like to go on the public record 
as being opposed to the OHV trail closures in the Proposed Jefferson 
Division Travel Management Plan. I believe the Little Belt Mountains 
serve all recreational users well and that shared use has been 
remarkably successful. There are very few conflicts on the trail system 
because there are few encounters because the area offers a large trail 
system that disperses users.
    There are already ample non-motorized opportunities on the Rocky 
Mountain Front, Highwood Mountains, the Snowy Mountains, and in the 
Crazy Mountains. The Little Belt Mountains should remain an area where 
all trail users are welcome and can continue to share the trails.
    The Deep Creek/Tenderfoot area has been successfully shared by 
motorized and non-motorized trail users for decades. In the most recent 
Wilderness Proposal, Montana's congressional delegation favored 
managing the area as a National Recreation Area, a designation that 
would allow the current mix of recreation but would protect the area by 
restricting resource extraction. I support this approach.
    I also oppose closing trails in the Hoover Creek and Lost Fork of 
The Judith. These trails are important loop trail opportunities for 
motorized trail users. The September 1 trail closures in the Middle 
Fork are also an unreasonable approach to managing wildlife concerns. 
If hunting pressure is moving animals in the area, regulate the source 
rather than attempting to solve the issue by restricting recreational 
trail bike riding and ATV use.
    I support efforts in the proposal to improve the loop trail system 
for OHVs. Sincerely.
            Sincerely,
                    Tammy Baber; Jason Lander; Linda Ouiatt; Denise 
                            Maki; Lois A. Tester; Garth Benett; James 
                            L. Smereck; Kelly Sponheim; Rod Backer; 
                            Kevin Dyke; Brian Miller; Bob Nommensen; 
                            Virginia E. Radovich; Larry B. Coomis; 
                            Matthew S. Fleming; Sarah N. Fleming; 
                            Aucille J. Blamey; Stanley Kempa; Joyce E. 
                            Kempa; R.K. Kjelsrud; Dorthie Fullerton; 
                            Phyllis Kjelsrud; Gene A. Meek; Crissy 
                            Lopez; Rob Lopez; Robert Wagner; Clint 
                            Vertin; Lauren M. Fleming; Stephen C. 
                            Carpenter; David Fleming; Chris Fleming; 
                            Noel J. McClothlin; Sara McClothlin; Nathan 
                            Kenneth Fleming; Ed Mendenhall; Bradley 
                            Schwertz; Marc Correra; Jeff Haskell, 
                            Dennis Humphrey; Teresa Soncarty; Joseph F. 
                            Watson; Olaf M. Stimac; Olaf M. Stimac, 
                            Sr.; Kathleen Longewecker; James J. Reed; 
                            Chris Fulbright; Shelley Kuiper; D. Traber; 
                            Marcylouise O'Ward; Mary Ellen Vischer; 
                            William Vischer; TanDee Doran; Carlos San 
                            Miguel; Dave Vance; Greg Ulmer; Forrest 
                            Deaton; Gary C. Ulmer; Wesley M. Seldmiat; 
                            Bret Manus; Jamie C. Popham; Danielle 
                            Cooper; Mark Severson; and Kaylin Fleming.
                                 ______
                               
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                         CONCLUSION OF HEARING

    Senator Burns. We appreciate everybody coming today, and we 
hope it's been somewhat informative. We understand what the 
challenges are, and we aim to take a look at them. Thank you 
very much.
    [Whereupon, at 12 noon, Friday, December 2, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair].


</pre></body></html>
